No.

In the Supreme Court of the United States
BRISTOL-MYERS SQUIBB CO., SANOFI-AVENTIS U.S. LLC,
SANOFI US SERVICES INC., FORMERLY KNOWN AS SANOFIAVENTIS U.S. INC., AND SANOFI-SYNTHELABO LLC,
PETITIONERS

v.
CLARE E. CONNORS, IN HER OFFICIAL CAPACITY AS THE
ATTORNEY GENERAL OF THE STATE OF HAWAII
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

PETITION FOR A WRIT OF CERTIORARI
ANAND AGNESHWAR
ARNOLD & PORTER
KAYE SCHOLER LLP
250 West 55th Street
New York, NY 10019
(212) 836-8000
PAUL ALSTON
LOUISE K.Y. ING
DENTONS US LLP
1001 Bishop Street
Suite 1800
Honolulu, HI 96813
(808) 524-1800

JOHN P. ELWOOD
Counsel of Record
DANIEL S. PARISER
ROBERT N. WEINER
SALLY L. PEI
ARNOLD & PORTER
KAYE SCHOLER LLP
601 Massachusetts Ave., NW
Washington, DC 20001
(202) 942-5000
john.elwood@arnoldporter.com

QUESTION PRESENTED

Whether, under Sprint Communications, Inc. v.
Jacobs, 571 U.S. 69 (2013), a federal court must consider
the specific characteristics of an underlying state-court
civil proceeding to determine whether it is sufficiently
“akin to a criminal prosecution” to warrant abstention
under Younger v. Harris, 401 U.S. 37 (1971), as eight
courts of appeals have held, or whether abstention is
warranted whenever “the state proceeding falls within the
general class” of state enforcement actions, App.7a, as the
Ninth Circuit held in this case.

(I)

II
PARTIES TO THE PROCEEDINGS

Petitioners Bristol-Myers Squibb Company, sanofiaventis U.S. LLC, Sanofi U.S. Services, Inc., formerly
known as Sanofi-Aventis U.S. Inc., and Sanofi-Synthelabo
LLC, were plaintiffs in the U.S. District Court for the
District of Hawaii and appellants in the Ninth Circuit.
Respondent Clare E. Connors was defendant in the
U.S. District Court for the District of Hawaii and appellee
in the Ninth Circuit.
RULE 29.6 STATEMENT

Petitioner Bristol-Myers Squibb Company has no
parent company. No publicly held corporation owns 10%
or more of its stock.
Petitioner sanofi-aventis U.S. LLC is a singlemember limited liability company, whose sole member is
petitioner Sanofi U.S. Services Inc. Sanofi, a French
corporation that is publicly traded on the Paris exchange
and NASDAQ, indirectly owns 100% of any class of the
equity interests of petitioners Sanofi U.S. Services, Inc.
and Sanofi-Synthelabo LLC.
RELATED PROCEEDINGS

The following proceedings are directly related to this
case within the meaning of Rule 14.1(b)(iii):
 Bristol-Myers Squibb Co. v. Connors, No. 2015515 (9th Cir.), judgment entered on October 29,
2020;
 Bristol-Myers Squibb Co. v. Connors, No. 2000010 (D. Haw.), judgment entered on March 16,
2020; and
 State ex rel. Connors v. Bristol-Myers Squibb Co.,
No. 14-1-0708-03 DEO (Haw. 1st Cir. Ct.),
judgment entered on February 15, 2021.

III
TABLE OF CONTENTS
Page

Opinions below...................................................................... 1
Jurisdiction ........................................................................... 1
Statement .............................................................................. 1
A. Consensus develops that Plavix is safe and
effective regardless of race and genotype ........... 6
B. Private contingency-fee lawyers persuade the
State of Hawai`i to hire them to pursue
claims under Hawai`i’s UDAP statute................. 9
C. Proceedings below ................................................ 11
Reasons for granting the petition .................................... 13
I. The decision below conflicts with Sprint ................. 14
II. The decision below creates a clear circuit split ....... 22
III. The question is exceptionally important .................. 28
Conclusion ........................................................................... 33
Appendix A: Court of appeals opinion (Oct. 29, 2020) .. 1a
Appendix B: Court of appeals order denying
rehearing (Dec. 8, 2020) ........................... 10a
Appendix C: District court opinion (Mar. 16, 2020) .... 11a
Appendix D: Complaint (Jan. 7, 2020) ......................... 25a
Appendix E: Findings of fact, conclusions of law,
decision and order (Feb. 15, 2021) ......... 69a

IV
TABLE OF AUTHORITIES
Cases

Page(s)

ACRA Turf Club, LLC v. Zanzuccki,
748 F.3d 127 (3d Cir. 2014) ............................................. 26
Brooks-McCollum v. Delaware,
213 F. App’x 92 (3d Cir. 2007) ........................................ 16
Colo. River Water Conservation Dist. v. United
States, 424 U.S. 800 (1976) ................................... 2, 14, 28
Cohens v. Virginia,
19 U.S. (6 Wheat.) 264 (1821) ......................................... 28
Delta Dental Plan of Cal., Inc. v. Mendoza,
139 F.3d 1289 (9th Cir. 1998) ......................................... 15
Doe v. Univ. of Ky.,
860 F.3d 365 (6th Cir. 2017) ........................................... 25
England v. La. Bd. of Med. Examiners,
375 U.S. 411 (1964) .................................................... 28, 29
Helms Realty Corp. v. City of New York,
820 F. App’x 79 (2d Cir. 2020) .................................. 23, 24
Huffman v. Pursue, Ltd.,
420 U.S. 592 (1975) .................................................... 14, 15
Hunter v. Hirsig,
660 F. App’x 711 (10th Cir. 2016) .................................. 25
Juidice v. Vail,
430 U.S. 327 (1977) .......................................................... 15
Kelm v. Hyatt,
44 F.3d 415 (6th Cir. 1995) ............................................. 16
Lambert v. Wicklund,
520 U.S. 292 (1997) (per curiam) ................................... 14
Merck Sharp & Dohme Corp. v. Conway,
947 F. Supp. 2d 733 (E.D. Ky. 2013) ............................. 31
Middlesex Cnty. Ethics Comm. v. Garden
State Bar Ass’n, 457 U.S. 423 (1982) .................... passim

V
Cases—Continued

Page(s)

Miller v. California,
413 U.S. 15 (1973) ............................................................ 29
Minn. Living Assistance, Inc. v. Peterson,
899 F.3d 548 (8th Cir. 2018) ....................................... 3, 25
Mulholland v. Marion Cnty. Election Bd.,
746 F.3d 811 (7th Cir. 2014) ........................................... 26
New Orleans Pub. Serv., Inc. v. Council of
New Orleans, 491 U.S. 350 (1989) ..................... 12, 13, 15
NIFLA v. Becerra,
138 S. Ct. 2361 (2018) ...................................................... 30
Night Clubs, Inc. v. City of Fort Smith,
163 F.3d 475 (8th Cir. 1998) ........................................... 15
PDX N., Inc. v. Comm’r N.J. Dep’t of Lab. &
Workforce Dev., 978 F.3d 871 (3d Cir. 2020) ............ 3, 24
Puerto Rico v. Sanchez Valle,
136 S. Ct. 1863 (2016) ...................................................... 17
Sirva Relocation, LLC v. Richie,
794 F.3d 185 (1st Cir. 2015) ................................ 23, 26, 27
Sorrell v. IMS Health Inc.,
564 U.S. 552 (2011) .......................................................... 29
Sprint Commc’ns Inc. v. Jacobs,
571 U.S. 69 (2013) ................................................... passim
Watson v. Fla. Jud. Qualifications Comm’n,
618 F. App’x 487 (2015)................................................... 25
Willcox v. Consol. Gas Co.,
212 U.S. 19 (1909) ............................................................ 28
Young v. U.S. ex rel. Vuitton et Fils S.A.,
481 U.S. 787 (1987) ................................................ 4, 19, 20
Younger v. Harris,
401 U.S. 37 (1971) ................................................... passim

VI
Cases—Continued

Page(s)

Zwickler v. Koota,
389 U.S. 241 (1967) .................................................... 28, 29
Statutes & Rules

Fed. R. Civ. P.
12(b)(1) ............................................................................. 11
12(b)(6) ............................................................................. 11
Haw. Rev. Stat.
§ 28-8(b) ............................................................................ 19
§ 480-3.1 ............................................................................ 10
§ 661-10 ............................................................................. 19
N.Y. Multiple Dwelling Law § 121(4) ............................... 23
Legislative Materials

Contingent Fees and Conflicts of Interest in State
AG Enforcement of Federal Law: Hearing Before
the Subcomm. on the Constitution of the H. Comm.
on the Judiciary, 112th Cong., 2d. Sess. 48 (2012) ....... 32
Other Authorities

Adam Liptak, A Deal for the Public: If You Win, You
Lose, N.Y. Times (July 9, 2007) ................................. 6, 30
Adnan M. Bhopalwala et al., Routine Screening for
CYP2C19 Polymorphisms for Patients Being
Treated with Clopidogrel Is Not Recommended,
Haw. J. Med. Pub. & Health 16 (2015) ........................... 8
Am. Bar Ass’n, Standards on Prosecutorial
Investigations.............................................................. 4, 20
Cary Silverman & Jonathan L. Wilson, State
Attorney General Enforcement of Unfair or
Deceptive Acts and Practices Laws,
65 U. Kan. L. Rev. 209 (2016) .................................. 31, 32
Douglas R. Richmond, Turns of the Contingent Fee
Key to the Courthouse Door,
65 Buff. L. Rev. 915 (2017) ............................................. 30

VII
Other Authorities—Continued

Page(s)

Eric Lipton, Lawyers Create Big Paydays by
Coaxing Attorneys General to Sue,
N.Y. Times (Dec. 18, 2014) ......................................... 5, 31
Erin Mundahl, Public Power, Private Gain:
Private Attorneys Use AG’s Office to Target
Exxon for Big Payday,
Inside Sources (Mar. 20, 2019) ........................................ 5
Lise T. Spacapan et al., A Threat to Impartiality:
Contingency Fee Plaintiffs’ Counsel and
the Public Good?, In-House Def. Q., Winter 2011....... 31
Lynn Fitch, Att’y Gen., State of Miss.,
Consumer Protection ....................................................... 5
Martin H. Redish, Private Contingent Fee Lawyers
and Public Power: Constitutional and Political
Implications, 18 Sup. Ct. Econ. Rev. 77 (2010) ........... 30
Richard O. Faulk & John S. Gray, Alchemy in the
Courtroom? The Transmutation of Public
Nuisance Litigation, 2007 Mich. St. L. Rev. 941 ........ 30
Walter Olson, Tort Travesty,
Wall St. J. (May 18, 2007) ......................................... 31, 32
World Health Org., World Health Organization Model
List of Essential Medicines (2019) ................................. 8

In the Supreme Court of the United States
BRISTOL-MYERS SQUIBB CO., SANOFI-AVENTIS U.S. LLC,
SANOFI US SERVICES INC., FORMERLY KNOWN AS SANOFIAVENTIS U.S. INC., AND SANOFI-SYNTHELABO LLC,
PETITIONERS

v.
CLARE E. CONNORS, IN HER OFFICIAL CAPACITY AS THE
ATTORNEY GENERAL OF THE STATE OF HAWAII
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

PETITION FOR A WRIT OF CERTIORARI

Bristol-Myers Squibb Co., sanofi-aventis U.S. LLC,
Sanofi US Services Inc., and Sanofi-Synthelabo LLC
respectfully petition for a writ of certiorari to review the
judgment of the United States Court of Appeals for the
Ninth Circuit in this case.
OPINIONS BELOW

The opinion of the court of appeals (App. 1a-9a) is
reported at 979 F.3d 732. The opinion of the district court
(App.11a-25a) is reported at 444 F. Supp. 3d 1231.
JURISDICTION

The court of appeals entered judgment on October 29,
2020. App.1a. The court denied a timely rehearing
petition on December 8, 2020. App.10a. This Court has
jurisdiction under 28 U.S.C. § 1254(1).
STATEMENT

This case concerns the scope of abstention under
Younger v. Harris, 401 U.S. 37 (1971), a fundamental and
(1)

2
recurring issue of federal court jurisdiction that has
divided the courts of appeals.
In Sprint Communications Inc. v. Jacobs, 571 U.S.
69 (2013), this Court carved back years of doctrinal
expansion. The Court rejected the formalistic approach
to abstention that had developed in the lower courts in the
decades since Younger, under which federal courts
abstained simply upon identifying some plausibly
important state interest in the state proceeding. Id. at 8182. Instead, the Court made clear that, consistent with
federal courts’ “virtually unflagging obligation” to exercise the jurisdiction Congress has conferred, Colo. River
Water Conservation Dist. v. United States, 424 U.S. 800,
817 (1976), Younger abstention is appropriate only for
(1) ongoing state criminal prosecutions, (2) “certain ‘civil
enforcement proceedings’ ” that are “‘akin to a criminal
prosecution’ in ‘important respects,’” and (3) state “civil
proceedings involving certain orders * * * uniquely in
furtherance of the state courts’ ability to perform their
judicial functions.” Sprint, 571 U.S. at 77-79. With respect to the second category of cases, the Court identified
criteria to determine whether the proceeding is sufficiently “akin to criminal prosecutions” to warrant
abstention.
Such actions, this Court explained, “are characteristically initiated to sanction the federal plaintiff, i.e., the
party challenging the state action, for some wrongful act.
In cases of this genre, a state actor is routinely a party to
the state proceeding and often initiates the action. Investigations are commonly involved, often culminating in the
filing of a formal complaint or charges.” Id. at 79-80
(citations omitted). The presence of these characteristics,
which are commonly referred to as the “Sprint factors,”
signifies that a state-court civil proceeding furthers the
“legitimate interests” of the State and represents the

3
exercise of a “state function[]” worthy of “proper respect.” Younger, 401 U.S. at 44.
The courts of appeals are divided on the scope of the
exception for “civil enforcement proceedings.” Every
other court of appeals to consider the Sprint factors has
treated them as “essential characteristics” to support
abstention. E.g., Minn. Living Assistance, Inc. v.
Peterson, 899 F.3d 548, 553 (8th Cir. 2018); accord PDX
N., Inc. v. Comm’r N.J. Dep’t of Lab. & Workforce Dev.,
978 F.3d 871, 885 (3d Cir. 2020). Thus, eight courts of
appeals have adopted a detailed, case-specific inquiry of
the sort Sprint itself employed to determine whether a
particular enforcement action sufficiently resembles
criminal prosecution to warrant abstention. In contrast,
the Ninth Circuit below treated those factors as merely
suggestive, rejecting the idea that Sprint “prescrib[ed]
criteria that are * * * required” for abstention. App.6a.
The Ninth Circuit instead reverted to a broad, categorical
inquiry, saying that “[w]hat matters for Younger
abstention is whether the state proceeding falls within the
general class of quasi-criminal enforcement actions—not
whether the proceeding satisfies specific factual criteria.”
App.7a. Far from this Court’s “narrow” conception under
which “[c]ircumstances fitting within the Younger
doctrine * * * are ‘exceptional,’ ” Sprint, 571 U.S. at 73, the
Ninth Circuit’s rule exempts broad swaths of gardenvariety state consumer protection actions from federal
jurisdiction, regardless of whether they have any of the
characteristics of criminal prosecutions.
The Ninth Circuit’s different rule was outcomedeterminative here. In the underlying state proceeding,
brought under Hawai`i’s Unfair or Deceptive Acts or
Practices statute (“UDAP”), private counsel suing under
a contingency-fee arrangement on behalf of the State of
Hawai`i sought nearly a billion dollars in civil penalties
against the manufacturers of the antiplatelet drug Plavix

4
for failing to give a warning that conflicts with the
scientific consensus. But the State’s sovereign interest
and involvement in the case were in name only. It is
undisputed that Hawai`i’s public health agencies never
expressed any concern about Plavix, either before or after
the suit was initiated. The State itself conducted no
investigation into the drug or petitioners’ labeling
practices. The State’s lawsuit did not even allege harm to
any patient in Hawai`i resulting from petitioners’
supposed misconduct. Unlike exercises of sovereign
authority (such as criminal prosecutions), the case was not
conceived, investigated, or litigated by disinterested
public prosecutors “guided solely by their sense of public
responsibility for the attainment of justice.” Young v.
U.S. ex rel. Vuitton et Fils S.A., 481 U.S. 787, 814 (1987).
Instead, private counsel with a financial interest in the
matter solicited the State to bring litigation against
petitioners on a no-cost, no-risk contingency-fee basis,
and the State accepted the offer without any inquiry of its
own. In short, nothing about the case has ever resembled
a criminal prosecution or an exercise of state sovereign
functions deserving of comity or deference. Compare Am.
Bar Ass’n, Standards on Prosecutorial Investigations,
Standard 2.17(a) (although prosecutor “may use
information provided by non-governmental sources,” “the
prosecutor should make an independent evaluation of the
information”).
Had the Ninth Circuit conducted the fact-specific
inquiry mandated by Sprint and followed by every other
circuit, it would have been compelled to conclude that
abstention was not warranted here. Instead, the Ninth
Circuit deferred to the state proceeding, which recently
ended with an $834 million judgment against petitioners—the largest in state history ($166 million of which
represents private counsel’s contingency fee, see
App.49a). App.69a-126a. The state court copied the

5
State’s proposed findings nearly verbatim, devoting just
one paragraph of its 43-page final order to petitioners’
substantial arguments that the First Amendment
protected their speech about Plavix. App.107a-108a. The
court based its record penalty in part on the fact that
petitioners argued at trial that the medical consensus is
that Plavix is safe and effective regardless of race and
genotype—clearly punishing petitioners for their views
on a scientific matter. See App.85-86a.
This question is exceptionally important because the
Ninth Circuit’s broad conception of Younger blocks
parties with valid federal claims from a federal forum.
And this case exemplifies the dangers of such an
expansive Younger abstention doctrine. The underlying
suit is one egregious example of the common and fastgrowing practice of profit-seeking private contingencyfee counsel assuming the mantle of governmental
authority by offering a state Attorney General a no-risk,
no-cost chance at a multimillion dollar judgment. See,
e.g., Eric Lipton, Lawyers Create Big Paydays by
Coaxing Attorneys General to Sue, N.Y. Times (Dec. 18,
2014), https://nyti.ms/3j1YqMh; Erin Mundahl, Public
Power, Private Gain: Private Attorneys Use AG’s Office
to Target Exxon for Big Payday, Inside Sources (Mar. 20,
2019), https://bit.ly/3pkxUPw; Lynn Fitch, Att’y Gen.,
State of Miss., Consumer Protection, https://bit.ly
/3qn2BoH (last visited Feb. 13, 2021) (see section “Outside
Legal Counsel,” listing more than 50 active consumerprotection matters litigated on Mississippi’s behalf by
contingency-fee counsel). While some of these suits may
bear the hallmarks of traditional criminal prosecutions,
others most certainly do not.
The Ninth Circuit’s categorical rule allows Younger
abstention—reserved for a narrow category of civil
enforcement actions “‘akin to a criminal prosecution’ in
‘important respects,’” Sprint, 571 U.S. at 79—to be

6
promiscuously granted to garden-variety civil suits that
are masquerading as enforcement actions because States
have chosen to “outsourc[e]” litigation “to private
lawyers.” Adam Liptak, A Deal for the Public: If You
Win, You Lose, N.Y. Times (July 9, 2007), https://nyti.ms
/2MD7fjX. Review is warranted to resolve the conflict on
this important question and to correct the Ninth Circuit’s
manifest departure from this Court’s precedent.
A.

Consensus Develops That Plavix Is Safe And
Effective Regardless Of Race And Genotype

In 1997, the U.S. Food and Drug Administration
(“FDA”) approved the antiplatelet drug Plavix
(clopidogrel), finding it safe and effective in reducing the
likelihood of a second heart attack or stroke. App.33a-34a.
In the late 2000s, scientists determined that one of
the enzymes involved in the metabolism of Plavix, known
as CYP2C19, played a greater role than previously
thought. Research suggested that some people—primarily those of Asian or Pacific Islander descent—have a
genetic variation that makes them “poor metabolizers” of
drugs metabolized through CYP2C19. Some scientists
theorized that patients with this variation could be less
protected by Plavix and might have higher rates of heart
attacks or strokes. App.37a.
The theory has not been shown to be true. Being a
poor metabolizer of Plavix does not equate to worse realworld outcomes, i.e., more heart attacks or strokes. The
evidence regarding any correlation between the
CYP2C19 variation and real-world clinical outcomes is
equivocal at best and has not changed medical guidelines
and practice. See App.29a.
In 2010, when research about the clinical effect of the
CYP2C19 variation was still emerging, the FDA requested that petitioners add a boxed warning to the Plavix
label. The warning stated that Plavix is principally

7
metabolized through CYP2C19, that Plavix has “diminished effectiveness” in CYP2C19 poor metabo-lizers, and
that these patients have an increased risk of recurring
heart attacks or strokes. App.39a. The label explained
that genetic tests were available to identify CYP2C19
poor metabolizers and that doctors may consider
alternative treatments for such individuals. The label did
not, however, recommend that doctors order such genetic
tests or proceed with alternative therapies. App.39a-40a.
This labeling revision was highly controversial in the
medical community. Leading cardiologists and medical
organizations criticized it as premature and unsupported
by clinical data and experience. Cardiologists found no
need to use genetic tests or alternative treatments.
App.40a-41a. Prescribing guidelines issued by prominent
medical organizations, including the American Heart
Association and the American College of Cardiology,
continued to recommend Plavix as a first-line therapy for
patients without regard to race or ethnicity and without
requiring routine genetic testing. App.29a.
For their part, State health officials took no action to
notify Hawai`i doctors about diminished effectiveness of
Plavix in CYP2C19 poor metabolizers. For example,
although Hawai`i Medicaid routinely sends updates to
advise doctors about medical concerns, it sent no updates
about Plavix. The State can also impose restrictions on
the use of certain drugs, but did not do so with respect to
Plavix. App.45a-46a.
As the scientific understanding about CYP2C19 and
Plavix metabolization continued to develop, additional
studies cast doubt on the concerns raised by the
statements in the boxed warning. App.41a-44a. Some
studies, for example, showed that Asians have better
results on Plavix (i.e., fewer heart attacks or strokes)
compared to other ethnic groups, despite their higher
prevalence of CYP2C19 poor metabolizers. App.41a-42a.

8
In 2015, in response to the UDAP lawsuit, several
prominent Hawai`i cardiologists published an article
recommending against genetic testing for patients using
Plavix. App.43a.1
In September 2016, the FDA removed from the
Plavix label the statement that CYP2C19 poor
metabolizers have an increased risk of adverse clinical
outcomes. App.43a The FDA’s removal of this statement
reflects the lack of clear evidence or consensus in the
medical community to support it. See App.43a-45a.
Today, Plavix continues to be front-line therapy in
various cardiac settings. It remains one of the most
widely prescribed antiplatelets in the world, without
regard to ethnicity or genetic status. App.33a. To this
day, Hawai`i Medicaid reimburses Plavix prescriptions
irrespective of the patient’s race or genotype—and
without requiring genetic testing. App.30a. And the
World Health Organization lists clopidogrel on its Model
List of Essential Medicines. See World Health Org.,
World Health Organization Model List of Essential
Medicines 37 (2019), https://tinyurl.com/1ui3ekjc. At no
time during the entire litigation did the State present
evidence that a single doctor in Hawai`i did a single
genetic test on a single patient. See generally Pl.’s Am.
Proposed Findings of Fact, Conclusions of Law, and
Order, State ex rel. Connors v. Bristol-Myers Squibb Co.,
No. 14-1-0708-03 DEO (Haw. Cir. Ct. Dec. 22, 2020) [Dkt.
No. 1355] (identifying no such evidence).

Adnan M. Bhopalwala et al., Routine Screening for CYP2C19
Polymorphisms for Patients Being Treated with Clopidogrel Is Not
Recommended, 74 Haw. J. Med. Pub. & Health 16, 16 (2015),
https://bit.ly/3rYwdZV.
1

9
B. Private Contingency-Fee Lawyers Persuade The
State Of Hawai`i To Hire Them To Pursue Claims
Under Hawai`i’s UDAP Statute

1. Years after the boxed warning was added to the
Plavix label, private plaintiffs’ lawyers who had been
involved in Plavix-related litigation elsewhere solicited
Hawai`i’s Attorney General to retain them on a
contingency-fee basis to bring claims against petitioners
under Hawai`i’s UDAP statute. The plaintiffs’ lawyers
proposed bringing a suit based on the allegation that
petitioners should have disclosed before the 2010 labeling
revision that Plavix had diminished or no effect for
patients with the CYP2C19 genetic variation, particularly
those of Asian or Pacific Islander descent. App.48a.
Consistent with the scientific consensus that poor
metabolizers—and Asian and Pacific Islander patients in
particular—do not have worse clinical outcomes taking
Plavix, the State had not seen fit to investigate any health
or safety concerns relating to Plavix or the impact of
Plavix on the Hawai`i population. App.48a, 57a-58a. Indeed, the State had received no patient, physician, or consumer complaints about Plavix at all. App.48a. Hawai`i
Medicaid officials employed during and after the 2010
labeling revision recalled no concerns or actions about
Plavix. App.57a-58a. At no time had State personnel suggested discontinuing or limiting reimbursement or
coverage for Plavix, or excluding the drug from the
State’s formulary (a list of preferred medications that
physicians may prescribe and pharmacists dispense
without prior authorization). App.47a.
Nevertheless, without performing any investigation
of its own or identifying any harms occurring within the
State that health officials believed should be remedied,
Hawai`i accepted the private lawyers’ proposal and hired
them to bring the suit. Under the contingency-fee
agreement, the State would not be required to spend a

10
dime on the litigation, and would be exposed to no risk
from any adverse outcome, but would still receive 80
percent of any recovery. App.49a. Private counsel would
receive the other 20 percent. App.49a.
2. In March 2014, the private lawyers filed a UDAP
suit in the name of the Attorney General in Hawai`i state
court, seeking civil penalties, damages, disgorgement of
profits, punitive damages, and injunctive relief. Private
counsel alone signed the complaint; no attorney from the
Attorney General’s Office appeared on the signature
block. App.49a, 63a. Indeed, throughout the litigation,
the State appeared to give free rein to its private contingency-fee counsel, with private lawyers alone signing
all significant pleadings or motions, arguing every motion,
taking and defending depositions, and trying the case.
See App.63a.
The lawsuit centered on two propositions: first, that
people of Asian descent are genetically more likely to be
poor metabolizers of Plavix, and second, that a large
percentage of Hawai`i’s population is of Asian descent.
See App.49a-50a. Despite no evidence of adverse health
outcomes in Hawai`i, the State pursued a statutory
penalty of $500 to $10,000 for every unit of Plavix ever sold
in Hawai`i, whether prescribed to a person with the
genetic variation or not. App.51a; Haw. Rev. Stat. § 4803.1.
The UDAP action culminated in a four-week bench
trial in late 2020. On February 15, 2021, the state court
issued findings of fact and conclusions of law, copying
nearly verbatim findings drafted by the State’s private
counsel, and awarding the State the full amount requested
by the State’s private counsel: more than $834 million in
civil penalties—the largest penalty imposed in state
history. See App.69a-126a.

11
C.

Proceedings Below

1. Late in 2019, through discovery in the underlying
UDAP lawsuit, petitioners learned that Hawai`i health
officials had never voiced any concerns about Plavix, and
that the State itself had not conducted any investigation
into Plavix before authorizing private contingency-fee
lawyers to file the UDAP suit in its name. Shortly
afterward, on January 7, 2020, petitioners filed a
complaint in the U.S. District Court for the District of
Hawai`i, alleging that the UDAP suit violates their First
Amendment rights by seeking to impose massive penalties on them for not espousing Hawai`i’s litigating
position on a matter of scientific debate. Petitioners
alleged that fact and expert discovery in the UDAP proceeding had shown that the suit serves no legitimate,
health-related government interest. App.46a-47a. Petitioners sought preliminary and permanent injunctive
relief against the state proceeding.
The State moved to dismiss, invoking Federal Rules
of Civil Procedure 12(b)(6) and 12(b)(1). It did not challenge the factual allegations in petitioners’ complaint but
nevertheless argued that the UDAP suit was a quasicriminal enforcement action warranting abstention under
Younger v. Harris, 401 U.S. 37 (1971).
2. The district court granted the State’s motion to
dismiss. The court began by noting that, in Sprint
Communications Inc. v. Jacobs, 571 U.S. 69 (2013), this
Court had “summarized its precedent regarding the
nature of quasi-criminal civil enforcement actions” that
are sufficiently akin to criminal prosecutions to warrant
Younger abstention. Sprint, the district court recognized,
had held that “[s]uch enforcement actions are characteristically initiated to sanction the federal plaintiff, i.e., the
party challenging the state action, for some wrongful act,”
that “a state actor is routinely a party to the state
proceeding and often initiates the action,” and that “[i]n-

12
vestigations are commonly involved, often culminating in
the filing of a formal complaint or charges.” App.14a
(quoting Sprint, 571 U.S. at 79-80).
The court, however, concluded the UDAP action was
“quasi-criminal” because private counsel were suing on
behalf of “the Attorney General seeking civil penalties,
injunctive relief, and damages for unfair and deceptive
acts in violation of Hawai`i consumer protection law.”
App.15a. The district court acknowledged that only “an
investigation by private counsel preceded the filing of a
formal complaint.” App.18a. In other words, no state official—i.e., no person pursuing solely the public interest
rather than profit—had conducted any investigation
before filing the complaint alleging wrongdoing. But the
court stated that Sprint did not “set a certain standard of
pre-filing investigation as the litmus test for abstention,”
and deemed sufficient private counsel’s pre-suit investigation and the civil discovery conducted after the case
was filed. App.17a-18a. The court did not question petitioners’ uncontested allegations that Hawai`i’s public
health officials had raised no concerns whatsoever about
the distribution of Plavix or any lack of warnings on its
packaging.
3. The Ninth Circuit affirmed. App.1a-9a. Like the
district court, the Ninth Circuit did not consider whether
the UDAP action had any of the attributes of quasicriminal enforcement actions that this Court described in
Sprint, believing that such a “case-specific inquiry finds
no support in precedent.” App.6a.
Instead, relying on precedent predating Sprint, the
Ninth Circuit asserted that “[w]hat matters for Younger
abstention is whether the state proceeding falls within the
general class of quasi-criminal enforcement actions—not
whether the proceeding satisfies specific factual criteria.”
App.6a-7a (citing Middlesex Cnty. Ethics Comm. v. Garden State Bar Ass’n, 457 U.S. 423, 432 (1982), and New

13
Orleans Pub. Serv., Inc. v. Council of New Orleans, 491
U.S. 350 (1989)). Thus, “[l]ook[ing] to the general class of
cases of which this state proceeding is a member,” the
court held that the fact that the case was “brought under
a statute that punishes those who engage in deceptive acts
in commerce” and sought civil penalties and punitive
damages was on its own sufficient to justify abstention.
App.8a. The Ninth Circuit did not even consider the fact
that the State—and, in particular, state health officials—
never expressed any concern about or took any healthrelated action concerning Plavix, either before or after
bringing the UDAP suit. Nor did it matter that “private
counsel conducted the bulk of the inves-tigation.” App.6a.
According to the Ninth Circuit, “to scrutinize the
particular facts of a state civil enforcement action would
offend the principles of comity” by pre-venting States
from “perform[ing] their separate functions in their
separate ways.” App.8a (citation omitted).
The Ninth Circuit denied a timely petition for
rehearing.
REASONS FOR GRANTING THE PETITION

The decision below creates a circuit conflict and
disregards the teachings of this Court on the scope of
Younger abstention in cases involving state civil
enforcement proceedings. Until the decision below, every
one of the eight courts of appeals to have considered the
question had understood this Court’s pathmarking
decision in Sprint Communications, Inc. v. Jacobs, 571
U.S. 69 (2013), to require consideration of the features of
the specific state civil proceeding at issue to determine
whether it was sufficiently “akin to a criminal
prosecution” to warrant abstention. The Ninth Circuit
charted a different course. It broke with the case-specific
inquiry embodied in Sprint and adopted by every other
court of appeals to have passed on the question. Instead,
the Ninth Circuit reverted to a broad, categorical inquiry

14
focusing on the statute under which the state proceeding
was initiated, App.7a-8a, claiming that “principles of
comity” preclude any case- or fact-specific analysis,
App.7a. Disregarding this Court’s “narrow” conception
that limits Younger abstention to “exceptional circumstances,” Sprint, 571 U.S. at 77-78 (citation omitted), the
Ninth Circuit’s rule transforms the doctrine into a
sweeping exception that shields entire categories of
garden-variety state consumer protection actions from
federal jurisdiction.
I.

The Decision Below Conflicts With Sprint

The Ninth Circuit’s approach to determining whether
a proceeding is a quasi-criminal enforcement action that
warrants abstention is irreconcilable with this Court’s
past pronouncements. Certiorari is therefore warranted
“[b]ecause the Ninth Circuit’s holding is in direct conflict
with [this Court’s] precedents.” Lambert v. Wicklund,
520 U.S. 292, 293 (1997) (per curiam).
In Sprint, this Court reaffirmed that the federal
courts’ “obligation to hear and decide a case” within their
jurisdiction “is virtually unflagging.” 571 U.S. at 77
(internal quotation marks omitted) (quoting Colo. River,
424 U.S. at 817). Younger abstention is a closely guarded
exception to this rule. Accordingly, Sprint placed meaningful limitations on Younger abstention to cabin a
doctrine that lower courts had applied too broadly. But
the Ninth Circuit disregarded those limitations and instead reverted to the categorical approach that Sprint
expressly repudiated.
1. In its seminal decision in Younger v. Harris, this
Court held that federal courts generally should not
interfere with ongoing state criminal prosecutions. 401
U.S. at 41. The Court soon extended Younger abstention
to certain types of civil actions as well—specifically, civil
proceedings “in aid of and closely related to criminal
statutes,” Huffman v. Pursue, Ltd., 420 U.S. 592, 604

15
(1975), and those that lie “at the core of the administration
of a State’s judicial system,” Juidice v. Vail, 430 U.S. 327,
335 (1977). Such proceedings, the Court explained, reflect
a state’s efforts to protect its core sovereign interests,
Huffman, 420 U.S. at 604-606; Juidice, 430 U.S. at 336,
and thus the “considerations of comity and federalism”
underlying Younger favored abstention from these
proceedings, too, Huffman, 420 U.S. at 606-607; see also
Juidice, 430 U.S. at 338-339.
Subsequently, the Court in Middlesex County Ethics
Committee v. Garden State Bar Ass’n, 457 U.S. 423
(1982), held that Younger abstention is appropriate when
(1) there is an “ongoing state judicial proceeding” (2) that
“implicate[s] important state interests” and (3) presents
an “adequate opportunity * * * to raise constitutional
challenges,” id. at 432. Then, in New Orleans Public
Service, Inc. v. Council of New Orleans, 491 U.S. 350
(1989), this Court reaffirmed that “only exceptional
circumstances justify a federal court’s refusal to decide a
case in deference to the States [on Younger abstention
grounds],” id. at 368. Such circumstances exist in
(1) “state criminal prosecutions,” (2) “civil enforcement
proceedings,” and (3) “civil proceedings involving certain
orders that are uniquely in furtherance of the state courts’
ability to perform their judicial functions.” Ibid. Over the
years, however, lower courts began to apply Younger to
progressively broader classes of cases, transforming the
doctrine from a narrow, comity-based exception into a
wide-ranging rule of deference to ongoing state
proceedings.2

See, e.g., Delta Dental Plan of Cal., Inc. v. Mendoza, 139 F.3d
1289 (9th Cir. 1998) (requiring abstention in favor of administrative
proceedings initiated by organization that had received a cease-anddesist order from the California Commissioner of Corporations);
Night Clubs, Inc. v. City of Fort Smith, 163 F.3d 475 (8th Cir. 1998)
2

16
In Sprint, this Court sought to curb that doctrinal
expansion. The case arose from a dispute between Sprint,
a national telecommunications service provider, and
Windstream, an Iowa communications company, about
whether Sprint had to pay Windstream access fees for
calls Sprint customers placed to Windstream’s in-state
customers. Sprint filed a complaint against Windstream
before the Iowa Utilities Board; Sprint subsequently
withdrew the complaint, but the Board, believing the legal
question was likely to recur, decided to continue with the
proceedings to resolve the issue. 571 U.S. at 73-74.
When the Board decided the question against Sprint,
Sprint sought review of the Board’s order in Iowa state
court, and also filed a federal complaint seeking to enjoin
its enforcement. Id. at 74. The district court dismissed
the federal suit on Younger abstention grounds, and the
Eighth Circuit affirmed, on the theory that Middlesex
required abstention “whenever an ‘ongoing state judicial
proceeding * * * implicates important state interests, and
* * * the state proceedings provide an adequate
opportunity to raise [federal] challenges.” Id. at 75 (alterations in original). Because Iowa had an “important state
interest in regulating and enforcing its intrastate utility
rates,” the Eighth Circuit held that abstention was
warranted. Id. at 76.
This Court disagreed. Emphasizing that “[c]ircumstances fitting within the Younger doctrine * * * are
‘exceptional,’ ” the Court rejected the Eighth Circuit’s
expansive reading of Middlesex. Id. at 73. The Court
explained that, “[d]ivorced from their quasi-criminal context, the three Middlesex conditions would extend
(requiring abstention in favor of city planning commission’s review
of a business license application); Kelm v. Hyatt, 44 F.3d 415 (6th
Cir. 1995) (abstaining in favor of divorce proceedings); BrooksMcCollum v. Delaware, 213 F. App’x 92 (3d Cir. 2007) (affirming
abstention in favor of proceedings in Delaware Chancery Court).

17
Younger to virtually all parallel state and federal
proceedings, at least where a party could identify a
plausibly important state interest.” Id. at 81. “[T]o guide
other federal courts,” id. at 82, the Court clarified that the
only “civil enforcement proceedings” that come within
Younger’s scope are those “‘akin to a criminal prosecution’
in ‘important respects.’” Id. at 79 (citation omitted).
The Court identified criteria to help determine
whether particular proceedings fit that description. Such
enforcement actions, the Court explained, “are
characteristically initiated to sanction the federal plaintiffs, i.e., the party challenging the state action, for some
wrongful act. In cases of this genre, a state actor is
routinely a party to the state proceeding and often
initiates the action. Investigations are commonly involved,
often culminating in the filing of a formal complaint or
charges.” Id. at 79-80 (citations omitted). The presence
of these factors signifies that a state-court civil
proceeding furthers the State’s “legitimate interests” and
represents the exercise of a “state function[]” worthy of
“proper respect.” Younger, 401 U.S. at 44. They reflect
that the State itself is treating the civil proceeding as akin
to a criminal prosecution—as an exercise of the State’s
inherent sovereign power and authority. See Puerto Rico
v. Sanchez Valle, 136 S. Ct. 1863, 1871 (2016) (“State
prosecutions * * * have their most ancient roots in an
‘inherent sovereignty’ unconnected to, and indeed preexisting, the U.S. Congress.”).
The Court then examined the specific facts of the
Board proceeding and concluded it did not warrant
abstention. Although the Board had maintained the
proceeding through to completion, “[a] private
corporation, Sprint, initiated the action. No state authority conducted an investigation into Sprint’s activities,
and no state actor lodged a formal complaint against
Sprint.” 571 U.S. at 80. Accordingly, the case was not

18
“akin to a criminal prosecution,” and there was no basis
for the federal court to take the extraordinary step of
abstaining from the exercise of federal jurisdiction.
2. The decision below renders Sprint a dead letter.
It resurrects the broad application of Middlesex that this
Court expressly rejected in Sprint itself.
The Ninth Circuit wrote that Sprint simply
“described the characteristics of quasi-criminal enforcement actions in general terms by noting features that are
typically present, not in specific terms by prescribing
criteria that are always required.” App.6a. Instead, citing
Middlesex, the Ninth Circuit stated that “when
evaluating whether the characteristics of actions entitled
to Younger abstention are present, the Supreme Court
has considered the nature of a State’s interest in different
classes of proceedings, not its interest in specific cases.”
App.6a-7a. The Ninth Circuit thus “[l]ook[ed] to the
general class of cases of which this state proceeding is a
member.” App.8a. The court concluded that “[o]n its face,
the action fits comfortably within the class of cases
described in Sprint,” merely because it had been brought
under a consumer protection statute and sought civil
penalties and punitive damages. App.8a.
But this Court in Sprint rejected such a categorical
inquiry and made clear that the broad Middlesex factors
on which the Ninth Circuit relied do not displace the need
for a detailed assessment of whether the state case is akin
to a criminal prosecution. Sprint, 571 U.S. at 81-82. The
Sprint factors serve the critical purpose of identifying
civil enforcement proceedings that not only advance state
interests, but also embody the State’s exercise of sovereign prerogatives in pursuing them. For this reason,
Sprint specified that a court must consider the Middlesex
factors only after assuring itself that the state proceeding
falls into one of the three “exceptional” categories in
which abstention is permitted. Ibid. The Ninth Circuit’s

19
categorical approach improperly disregarded this Court’s
narrowing of Middlesex and rendered the Sprint inquiry
superfluous.
3. Had the Ninth Circuit faithfully applied Sprint, it
could not have deemed the UDAP action to be akin to a
criminal prosecution, because the State failed to establish
that it exhibited any of the features Sprint described.
First, the UDAP action was neither initiated nor
prosecuted by a state actor. It is undisputed that private
counsel conceived of the case, investigated and formulated
the claims, and proposed to represent the State for a hefty
contingency fee and at no risk to the State. App.45a-49a.
Thereafter, private counsel alone litigated the case,
arguing all motions and signing all filings. App.63a. No
government attorney even signed the complaint.
App.49a. That the State gave private contingency-fee
counsel free rein to litigate the action distinguishes this
proceeding from a criminal prosecution: In Hawai`i, as
elsewhere, the State may use private contingency-fee
counsel only in civil, not in criminal, proceedings. See
Haw. Rev. Stat. § 28-8(b) (authorizing appointment of
special deputies on a contingency fee in cases brought
pursuant to Haw. Rev. Stat. § 661-10, which does not
encompass criminal prosecutions); Young, 481 U.S. at 804,
814 (private attorneys hired to prosecute criminal contempt proceedings must be disinterested).
The Ninth Circuit “s[aw] no reason why” the State’s
decision to delegate its enforcement authority to private
contingency-fee counsel should affect the analysis,
reasoning that “even though the state proceeding is being
litigated by private counsel, it is still an action brought by
the State.” App.5a. That misses the point. A State may
use contingency-fee counsel to bring consumer protection
actions in its name. But if the State does so—and particularly if it declines to exercise any meaningful oversight
or control of the litigation—it is treating the matter as an

20
ordinary civil case, not as one “akin to a criminal
prosecution in important respects.” Sprint, 571 U.S. at 79
(quotation marks omitted). And the fact that the State
has farmed the litigation out to private contingency-fee
counsel, rather than had the work undertaken by a state
employee (or at least a private lawyer whose incentives
are not shaped by a contingency fee), is highly relevant to
whether the matter represents the State’s pursuit of
uniquely sovereign interests deserving of comity. Those
who wield sovereign power must “be guided solely by
their sense of public responsibility for the attainment of
justice,” rather than an interest in pursuing profit.
Young, 481 U.S. at 814.
Second, the State conducted no pre-suit investigation.
There is no dispute that the only pre-suit investigation
was undertaken by financially interested private counsel,
without any request, involvement, or supervision by the
State. See App.6a. That purported private investigation
does not remotely resemble the inquiry that precedes a
criminal prosecution. Prosecutors do not bring charges
solely based on information gathered by private,
financially interested persons and hope to unearth
evidence of wrongdoing later through civil discovery; they
must first independently evaluate the available evidence
and find probable cause to believe that a crime has been
committed. See Am. Bar Ass’n, Standards on Prosecutorial Investigations, Standard 2.17(a) (although
prosecutor “may use information provided by nongovernmental sources,” “the prosecutor should make an
independent evaluation of the information”); id. Standard
2.1(c)(iv) (prosecutors should consider “the motive,
interest, bias or other improper factors that may influence
those seeking to initiate or cause the initiation of a
criminal investigation”). It is inconceivable that the State
would initiate criminal proceedings before itself serving a
subpoena on those suspected of wrongdoing, reviewing

21
their records, and interviewing witnesses. Nothing of the
sort happened here, making the UDAP lawsuit akin not
to a criminal prosecution, but to an ordinary civil tort case.
Finally, the UDAP suit does not seek to sanction
wrongful conduct. To be sure, imposing hundreds of
millions of dollars in penalties for not parroting Hawai`i’s
favored position on a disputed scientific issue—that the
Plavix label should have warned earlier about genetic
variability—would have a punitive effect on petitioners.
But the question is whether the purpose of the proceeding
is to address wrongdoing.
Nothing suggests that
Hawai`i’s health authorities have ever perceived anything
wrong with Plavix’s label. There is no evidence the State
received patient or physician complaints about Plavix or
that state health officials took any health-related action
concerning Plavix, before or after the UDAP suit.
App.30a, 48a. Hawai`i still reimburses for Plavix prescriptions irrespective of race, ethnicity, or genotype,
without any requirement for genetic testing. App.31a.
Petitioners’ complaint alleges, and no evidence refutes,
that the UDAP action seeks to extract money from
petitioners, not to punish them for any alleged wrongdoing identified by State officials. App.30a-31a.
In bypassing Sprint, the court below worried that
“fact-intensive analysis” would intrude on a state’s
management of civil enforcement proceedings and
“offend * * * principles of comity.” App. 8a. That concern
is unwarranted, as Sprint itself shows. The Sprint factors
involve a straightforward inquiry. They do not require
close analysis of “the thoroughness of the State’s prefiling investigation,” or intrusive second-guessing of “why
a state attorney general chose to pursue a particular
case.” App.8a. At most, a state needs to provide a basic
demonstration that its civil enforcement proceeding is a
bona fide exercise of its sovereign law-enforcement
prerogatives. There is no indication that the many other

22
courts of appeals that have examined the facts of
individual cases as Sprint requires have become mired in
complicated fact-finding exercises. See infra pp. 23-26.
Those cases show that, where a State is treating a civil
case “akin to a criminal prosecution,” it has little difficulty
establishing that.
Here, however, the State never even asserted (much
less adduced proof) that it, rather than financially
interested private lawyers acting before they were hired,
undertook any investigation, or that this UDAP suit in
fact aims to rectify what Hawai`i health officials deem to
be misconduct or harms. That the State continues to
reimburse for Plavix irrespective of race or genotype and
without requiring genetic testing belies any claim that
failure to warn about genetic variability warranted quasicriminal prosecution. Petitioners are unaware of any case
in which a court found a state civil enforcement
proceeding was quasi-criminal, where the State itself
otherwise acquiesced in the allegedly wrongful conduct.
Where, as here, the State has never treated its outsourced
UDAP action as akin to a criminal prosecution, there is no
reason for a federal court to decline to hear petitioners’
constitutional claims.
II. The Decision Below Creates A Clear Circuit Split

Before this case, every court of appeals to have
considered whether to abstain in favor of ongoing civil
enforcement proceedings post-Sprint had conducted the
kind of case-specific factual analysis that Sprint itself
undertook. The First, Second, Third, Sixth, Seventh,
Eighth, Tenth and Eleventh Circuits uniformly consider
the actual attributes of the underlying state proceeding—
whether that very action was initiated to sanction the
federal plaintiff, whether a state actor initiated it, and
whether the state actor investigated before bringing the
action. Only when all these factors are met have those
courts been satisfied that the proceeding was in fact “akin

23
to a criminal prosecution” such that Younger abstention
was warranted.
1. In Sirva Relocation, LLC v. Richie, 794 F.3d 185
(2015), the First Circuit closely analyzed the facts to
conclude that a Massachusetts Commission Against
Discrimination (MCAD) civil enforcement action
regarding improper termination of disability benefits was
“akin to a criminal prosecution.” Id. at 195. While the
court noted that “the MCAD proceeding is aimed at
sanctioning the appellants for wrongful conduct,” id. at
194, before concluding abstention was appropriate, the
court first examined the facts of that case in detail to
assure itself that “all the essential hallmarks of a civil
enforcement action that is ‘more akin to a criminal
prosecution’ ” were present there. Id. at 195. The proceeding “satisfie[d] the Sprint Court’s state-involvement
and investigation criteria,” id. at 193, because in that case,
a complainant alleging discrim-ination “on the basis of
disability” had “filed an MCAD complaint against the
appellants; an MCAD investigator sought and obtained
documents * * *; the Investigating Commissioner made a
finding of probable cause; conciliation failed; and the
Investigating Commissioner certified the matter for
public hearing—an action which, under applicable
regulations, was the functional equivalent of filing a
formal complaint.” Id. at 190, 193 (citation omitted).
The Second Circuit likewise considers the facts of the
specific proceeding to determine whether abstention is
appropriate. Helms Realty Corp. v. City of New York, 820
F. App’x 79 (2020), involved a prohibition on short-term
housing rentals, which specified that it was to “be
enforced by” the city government. See N.Y. Multiple
Dwelling Law § 121(4). To determine whether abstention
was justified, the Second Circuit went well beyond the
general nature of the statute and instead discussed in
detail how each Sprint factor applied to the facts of that

24
case. The court emphasized that the “enforcement action
was initiated by the City—not a private actor—and it was
predicated on a series of investigations undertaken by
officers of” City departments. Id. at 81. The court
recounted the dozens of inspections, summonses, and
orders City officials had undertaken before filing the
complaint. Ibid. “Taken together,” the court concluded,
“these facts make clear that the civil enforcement proceeding against Helms closely approximated a criminal
proceeding: there was an investigation which led to a
court action, all brought by the City for the express purpose of deterring and punishing a party for violating the
law.” Ibid.
The Third Circuit takes the same approach. In PDX
North, Inc. v. Commissioner New Jersey Department of
Labor and Workforce Development, 978 F.3d 871 (2020),
the court stated that the applicability of Younger required
“consider[ing] three factors described in Sprint to
determine whether [plaintiffs] are subject to civil
enforcement actions that are quasi-criminal in nature.”
Id. at 883 (footnote omitted). “[E]ach factor” supported
the conclusion that specific civil proceedings before the
New Jersey Office of Administrative Law concerning nonpayment of unemployment compensation taxes were “civil
enforcement actions that are quasi-criminal in nature.”
Ibid. “The state administrative action was commenced by
New Jersey in its sovereign capacity,” and a state agency
had “performed multiple audits of PDX and issued
multiple formal assessments after the culmination of
those audits.” Ibid. In addition, the proceedings had been
brought to sanction the “wrongful” acts of
“misclassif[ying] * * * workers and fail[ing] to withhold
unemployment compensation taxes.” Id. at 883-884.
Numerous other courts of appeals have likewise
given meticulous consideration to the individual facts of a
case, rather than merely considering the type of case, to

25
determine if abstention is warranted. The Sixth Circuit
abstained where “[a] state actor, the public University,
[wa]s a party to the proceeding and initiated the action,”
and “the case * * * involved a filed complaint, an
investigation” conducted by the state actor, “notice of the
charge, and the opportunity to introduce witnesses and
evidence.” Doe v. Univ. of Ky., 860 F.3d 365, 370 (2017).
The Eighth Circuit, emphasizing that the Sprint factors
are “essential characteristics,” held Younger abstention
warranted “[b]ecause all three [Sprint factors] are
present here.” Minn. Living Assistance, Inc., 899 F.3d
at 553. The case was akin to a criminal prosecution
because the Minnesota Department of Labor and
Industry was enforcing the Minnesota Fair Labor
Standards Act: “the [Department] conducted the investigation, issued the compliance order, and brought the
contested case proceeding against [the federal plaintiff]
before the ALJ to enforce Minnesota law,” resulting in
“double damages” as a “sanction” for wrongful “failure to
pay overtime wages.” Id. at 552-553.
Similarly, the Tenth Circuit held that a state
proceeding to revoke an insurance broker’s license was
“akin to a criminal prosecution” under Sprint, noting that
the Wyoming Department of Insurance, “a state entity[,]
initiated the proceedings to sanction [the plaintiff] for her
misconduct,” and “took evidence at a contested hearing
and concluded there were grounds warranting revocation.” Hunter v. Hirsig, 660 F. App’x 711, 717 (2016). The
Eleventh Circuit likewise looked to the facts of a
particular disciplinary proceeding by the Florida Judicial
Qualifications Commission to determine that abstention
was warranted, finding the proceeding “akin to a criminal
prosecution because it sought to punish Watson for
alleged unethical actions, and it was initiated and
prosecuted by a state actor.” Watson v. Fla. Jud. Qualifications Comm’n, 618 F. App’x 487, 490 (2015).

26
When analysis of the three Sprint factors shows the
underlying case does not resemble a criminal prosecution,
courts have refused to abstain. In ACRA Turf Club, LLC
v. Zanzuccki, 748 F.3d 127 (2014), for example, the Third
Circuit held Younger abstention was not warranted
because the action “was not initiated by the State in its
sovereign capacity, a point which is illuminated by the fact
that no state actor conducted an investigation or filed any
type of formal complaint or charges,” id. at 138-139, nor
was there any “indication that the policies implicated in
the state proceeding could have been vindicated through
enforcement of a parallel criminal statute,” id. at 139;
accord Mulholland v. Marion Cnty. Election Bd., 746
F.3d 811, 816-817 (7th Cir. 2014) (declining to abstain
after determining that “at least after Sprint,” the election
board’s meeting “in this case is not the type of quasicriminal proceeding that would warrant Younger
abstention” (emphasis added)).
In short, each of the circuits that has considered
whether particular state civil enforcement proceedings
are “akin to a criminal prosecution” for purposes of
Younger abstention has reviewed the actual facts and circumstances of those proceedings—just as this Court did
in Sprint.
2. The Ninth Circuit’s decision below clearly departs
from the approach taken by the other circuits. “What
matters for Younger abstention,” the court stated, “is
whether the state proceeding falls within the general class
of quasi-criminal enforcement actions—not whether the
proceeding satisfies specific factual criteria.” App.7a.3
The Ninth Circuit stated that it “agree[d] with the First Circuit”
in this regard, citing its statement that “courts ordinarily should
look to the general class of proceedings in determining whether
Younger abstention applies.” App.7a (quoting Sirva Relocation, 794
F.3d at 195). But unlike the Ninth Circuit, the First Circuit actually
3

27
Therefore, rather than consider the genesis of the UDAP
action and whether it had been preceded by any state
investigation or complaints, the court “[l]ook[ed] to the
general class of cases of which this state proceeding is a
member.” App.8a. The court noted that the action was
“brought under a statute that punishes those who engage
in deceptive acts in commerce, and the State seeks civil
penalties and punitive damages to sanction the companies
for their allegedly deceptive labeling practices.” Thus,
according to the Ninth Circuit, “[o]n its face,” the UDAP
action was a case in which Younger abstention was
warranted. App.8a. Unlike its sister circuits, which consider the basic facts and characteristics of the underlying
state proceeding, the Ninth Circuit refused to “scrutinize
the particular facts of a state civil enforcement action,”
claiming that doing so would “offend the principles of
comity at the heart of the Younger doctrine” and “would
make the application of Younger turn on a complex, factintensive analysis.” App.8a. That choice was outcomedeterminative here: Had the Ninth Circuit conducted a
case-specific analysis, it would have been compelled to
conclude that abstention was not warranted.
In sum, the division of authority over the proper
application of the analysis set forth in Sprint is stark.
Eight circuits conduct a case-specific inquiry to determine
whether the underlying action is in fact an exercise of the
State’s sovereign prerogative and deserving of comity.
The Ninth Circuit, by contrast, conducts a categorical
approach, asking only “whether the state proceeding falls
within the general class of quasi-criminal enforcement
considered the specific facts of the underlying proceeding to
determine whether they satisfied Sprint. See supra pp. 22-23. The
quoted statement addressed a different point, rejecting the
appellants’ argument that “garden-variety procedural defects” in
the underlying proceeding made abstention inappropriate. Sirva,
794 F.3d at 195.

28
actions—not whether the proceeding satisfies specific
factual criteria.” App.7a. Only this Court can resolve the
conflict.
III. The Question Is Exceptionally Important

The proper application of the Sprint factors, and thus
the scope of Younger abstention, is an exceptionally
important question. Whether and when federal courts
may abstain from hearing challenges to ongoing civil
enforcement proceedings in state courts implicates core
questions of federalism and comity, as well as the ability—
and right—of litigants to invoke the jurisdiction of federal
courts to adjudicate federal rights. The importance of the
issue is magnified by the steady rise in state and local
governments’ use of private contingency-fee counsel to
bring civil enforcement proceedings against businesses.
This case is an ideal vehicle for the Court to decide this
question.
1. a. This Court has repeatedly reaffirmed that
federal courts have a “virtually unflagging obligation” to
decide cases brought before them. Colo. River, 424 U.S.
817. “Federal courts * * * have ‘no more right to decline
the exercise of jurisdiction which is given, than to usurp
that which is not given.’ ” Sprint, 571 U.S. at 77 (quoting
Cohens v. Virginia, 19 U.S. (6 Wheat.) 264, 404 (1821)).
“The right of a party plaintiff to choose a Federal court
where there is a choice cannot be properly denied.”
England v. La. Bd. of Med. Examiners, 375 U.S. 411, 415
(1964) (quoting Willcox v. Consol. Gas Co., 212 U.S. 19, 40
(1909)).
Thus, although state courts also have the “solemn
responsibility” to enforce the federal Constitution,
“wherever the Federal courts sit, human rights under the
Federal Constitution are always a proper subject for
adjudication, and that we have not the right to decline the
exercise of that jurisdiction simply because the rights
asserted may be adjudicated in some other forum.”

29
Zwickler v. Koota, 389 U.S. 241, 248 (1967) (citation
omitted). In espousing a broad conception of Younger
abstention, the Ninth Circuit indicated that it will refrain
from exercising meaningful oversight of civil enforcement
proceedings in state courts—even when the targets of
such enforcement proceedings credibly allege that the
proceedings infringe their federal constitutional rights
and seek to vindicate those rights in a federal forum.
Review is necessary to reaffirm the “primacy of the federal judiciary in deciding questions of federal law,”
England, 375 U.S. at 415-416 (footnote omitted), and the
duty of federal courts to decide cases within their
jurisdiction, Sprint, 571 U.S. at 77.
b. This case demonstrates the peril of an overly broad
abstention doctrine. Petitioners argued that the UDAP
suit burdened their First Amendment rights by
threatening massive penalties for refusing to parrot the
State’s outside counsel’s litigation-derived opinions about
Plavix—effectively dictating the content of scientific
speech. App.26a-28a, 30a-31a, 55a-60a. As this Court has
previously recognized, “in the area of freedom of speech
* * * courts must always remain sensitive to any
infringement on genuinely serious * * * scientific expression.” Miller v. California, 413 U.S. 15, 22-23 (1973). That
is especially so “in the fields of medicine and public health,
where information can save lives.” Sorrell v. IMS Health
Inc., 564 U.S. 552, 566 (2011).
But the district court refused to hear the merits of
petitioners’ First Amendment claims, instead relegating
them to state court. That state court denied them fair
consideration. Over the course of the state proceeding,
the judge decided 14 out of 14 motions against petitioners,
and in every instance where it issued findings and
conclusions, copied them virtually verbatim from the
State’s private counsel’s proposals. In the final judgment
—cut and pasted from the State’s pleading to summarize

30
the court’s conclusions after a four-week trial—the court
dismissed petitioners’ First Amendment claim out-ofhand in a single conclusory paragraph (drafted by the
State’s lawyers). App.107a-108a. The trial court failed to
even cite, let alone analyze, this Court’s recent decisions
on compelled speech. E.g., NIFLA v. Becerra, 138 S. Ct.
2361 (2018). And the court—again, copying verbatim
language written by private counsel—explicitly penalized
petitioners for taking a position in the UDAP litigation
consistent with the consensus view of scientists that that
its labeling of Plavix was appropriate. App.85a-86a.
Absent this Court’s review, the decision below will have
deprived petitioners of the opportunity to bring their
First Amendment claim in a federal forum.
2. This case is important for a second reason. The
underlying UDAP suit is just one instance of the
increasingly widespread practice of state attorneys
general outsourcing public enforcement power to private
counsel. See Martin H. Redish, Private Contingent Fee
Lawyers and Public Power: Constitutional and Political
Implications, 18 Sup. Ct. Econ. Rev. 77, 81-83 (2010);
Douglas R. Richmond, Turns of the Contingent Fee Key
to the Courthouse Door, 65 Buff. L. Rev. 915, 975-977
(2017).4 In recent years, private plaintiffs’ lawyers have
convinced state attorneys general to permit them to litigate cases in the State’s name for no up-front cost or
commitment of resources, but the possibility of a hefty
See also Richard O. Faulk & John S. Gray, Alchemy in the
Courtroom? The Transmutation of Public Nuisance Litigation,
2007 Mich. St. L. Rev. 941, 968; Liptak, supra (stating that “[i]n
courts around the nation * * * state attorneys general have been
outsourcing government power to private lawyers,” and that “[t]he
use of contingent-fee contracts allows governments to avoid the
appropriation process and create the illusion that these lawsuits are
being pursued at no cost to the taxpayers.” (quoting then-Alabama
Attorney General William H. Pryor Jr.)).
4

31
payout if the litigation succeeds. See Lipton, supra. Because the State is “not on the hook for any downside,” it
would “practically be negligent to let a chance to sue pass
by.” Walter Olson, Tort Travesty, Wall St. J. (May 18,
2007), https://on.wsj.com/371nwpQ. In one study, 36 state
attorneys general reported using contingency-fee
counsel—a number that does not even include States that
used contingency-fee counsel for the tobacco litigation of
the 1990s. See Lise T. Spacapan et al., A Threat to
Impartiality: Contingency Fee Plaintiffs’ Counsel and the
Public Good?, In-House Def. Q., Winter 2011, at 14.
To be sure, state attorneys general have the
prerogative to use contingency-fee counsel to assist them
in enforcing state law. Such arrangements have allowed
state attorneys general to pursue suits on behalf of their
citizens that would otherwise be impossible due to a lack
of resources. But a State’s use of contingency-fee counsel
remains an important consideration in understanding
whether a particular civil enforcement proceeding is akin
to a criminal prosecution—i.e., whether it represents the
State’s exercise of its sovereign authority to remedy some
act of wrongdoing it has identified.
Often, as here, cases brought by contingency-fee
counsel on behalf of State attorneys general “d[o] not
originate with a government-identified need to protect
consumers.
Rather, private attorneys develop the
theories of liability, approach state AGs, and then litigate
the state’s enforcement action in exchange for a contingency fee.” Cary Silverman & Jonathan L. Wilson, State
Attorney General Enforcement of Unfair or Deceptive
Acts and Practices Laws, 65 U. Kan. L. Rev. 209, 217
(2016); see Merck Sharp & Dohme Corp. v. Conway, 947
F. Supp. 2d 733, 747 (E.D. Ky. 2013) (noting, in a case
litigated by private contingency-fee counsel, the state
attorney general’s “disappointingly casual approach to
the details of the [enforcement] proceeding” and a

32
“disconcerting” “uncertainty and unfamiliarity” with the
basis for the State’s requested recovery). The fact that
private lawyers with a financial interest in litigation
developed and initiated the case is an appropriate consideration in determining whether the suit implicates such
particularly sovereign prerogatives that federal courts
should take the “exceptional” step of declining to exercise
jurisdiction. Sprint, 571 U.S. at 78; see also Silverman &
Wilson, 65 U. Kan. L. Rev. at 223 (contingency fee may
give private counsel incentives at odds with public interest); Contingent Fees and Conflicts of Interest in State
AG Enforcement of Federal Law: Hearing Before the
Subcomm. on the Constitution of the H. Comm. on the
Judiciary, 112th Cong., 2d. Sess. 48 (2012) (same) (testimony of James R. Copland, Director and Senior Fellow,
Center for Legal Policy, Manhattan Institute for Policy
Research).
Where private actors can so readily assume “a mantle
of legitimacy and state endorsement” for fundamentally
private litigation, Olson, supra, it is critical that there be
safeguards in place to prevent abuse and violations of
constitutional rights. At least in cases like this one, where
the State itself is not actually treating the case as a quasicriminal action or seeking to vindicate sovereign interests, Younger abstention should not block the defendants
from raising constitutional challenges to the conduct of
the state proceeding in federal court.

33
CONCLUSION

The petition for a writ of certiorari should be granted.
Respectfully submitted.
ANAND AGNESHWAR
ARNOLD & PORTER
KAYE SCHOLER LLP
250 West 55th Street
New York, NY 10019
(212) 836-8000
PAUL ALSTON
LOUISE K.Y. ING
DENTONS US LLP
1001 Bishop Street,
Suite 1800
Honolulu, HI 96813
(808) 524-1800

FEBRUARY 2021

JOHN P. ELWOOD
Counsel of Record
DANIEL S. PARISER
ROBERT N. WEINER
SALLY L. PEI
ARNOLD & PORTER
KAYE SCHOLER LLP
601 Massachusetts Ave., NW
Washington, DC 20001
(202) 942-5000
john.elwood@arnoldporter.com

APPENDIX

1a
APPENDIX A

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
No. 20-15515
BRISTOL-MYERS SQUIBB COMPANY; SANOFI-AVENTIS
U.S. LLC; SANOFI U.S. SERVICES INC., FKA SANOFIAVENTIS US INC.; SANOFI-SYNTHELABO LLC,
PLAINTIFFS-APPELLANTS,
v.
CLARE E. CONNORS, IN HER OFFICIAL CAPACITY AS THE
ATTORNEY GENERAL OF THE STATE OF HAWAII,
DEFENDANT-APPELLEE
Appeal from the United States District Court
for the District of Hawaii
Jill Otake, District Judge, Presiding
(No. 1:20-cv-00010-JAO-RT)
Argued and Submitted September 14, 2020
San Francisco, California
Filed October 29, 2020
Before: Paul J. Watford, Michelle T. Friedland, and
Eric D. Miller, Circuit Judges.
Opinion by Judge Miller

2a
[Summary section omitted]
COUNSEL

Anand Agneshwar (argued), Arnold & Porter Kaye
Scholer LLP, New York, New York; Daniel Pariser, Robert N. Weiner, and Sally L. Pei, Arnold & Porter Kaye
Scholer LLP, Washington, D.C.; Paul Alston and Louise
K. Ing, Dentons US LLP, Honolulu, Hawaii; for Plaintiffs- Appellants.
T.F. Mana Moriarty (argued), Bryan C. Yee, and
James C. Paige, Deputy Attorneys General; Nicholas M.
McLean, Deputy Solicitor General; Lawrence L. Tong,
Senior Deputy Attorney General; Department of the Attorney General, Honolulu, Hawaii; for Defendant-Appellee.
OPINION

MILLER, Circuit Judge:
After the State of Hawaii sued several pharmaceutical companies in state court for allegedly deceptive drug
marketing, the companies turned to federal court, seeking
an injunction against the state-court litigation. The federal district court dismissed the suit, concluding that
Younger v. Harris, 401 U.S. 37 (1971), required it to abstain from exercising jurisdiction. We agree with the district court that the state-court litigation is a quasi-criminal enforcement proceeding and that Younger bars a federal court from interfering with such a proceeding. We
therefore affirm.
This case involves Plavix, a medication introduced to
the market in 1997 and used to help prevent heart attacks
and strokes by inhibiting the formation of blood clots. In
2008, researchers reported that some people, particularly
those of Asian or Pacific Islander descent, have a genetic
variation in an enzyme involved in metabolizing Plavix,
which may make the drug less effective. In 2014, the State
of Hawaii filed suit in state court against the

3a
pharmaceutical companies that produce Plavix—BristolMyers Squibb Company, Sanofi-Aventis U.S. LLC,
Sanofi US Services Inc., and Sanofi-Synthelabo LLC. See
State ex rel. Louie v. Bristol-Myers Squibb Co., No. 14-10708-03 (Haw. 1st Cir. Ct. Mar. 19, 2014). The State alleged that the companies had known since 1998 that those
with the genetic variation, a group that includes a significant portion of Hawaii’s population, experienced worse
clinical outcomes and that the companies had intentionally
concealed that fact in violation of Hawaii’s statute prohibiting unfair or deceptive acts or practices in commerce.
See Haw. Rev. Stat. § 480-2. Two private law firms conducted the initial investigation of the companies and
brought the state-court action on behalf of the State on a
contingency-fee basis.
In January 2020, nearly six years after the statecourt litigation began, the companies turned to federal
court to seek an injunction against the state proceeding,
which, they argued, violated their First Amendment
rights. The State moved to dismiss under Younger, and
the district court granted the motion. We review the district court’s decision to abstain under Younger de novo.
Gilbertson v. Albright, 381 F.3d 965, 982 n.19 (9th Cir.
2004) (en banc).
The Supreme Court has held that, with just a few exceptions, federal courts have a “virtually unflagging obligation . . . to exercise the jurisdiction given them.” Colorado River Water Conservation Dist. v. United States,
424 U.S. 800, 817 (1976). One such exception is the abstention doctrine recognized in Younger, in which the Supreme Court relied on “the basic doctrine of equity jurisprudence that courts of equity should not act . . . to restrain a criminal prosecution,” reinforced by considerations of comity, to hold that federal courts generally must
abstain from enjoining a pending state criminal proceeding. 401 U.S. at 43–44. In later cases, that “concern for

4a
comity and federalism” led the Court to “expand the protection of Younger beyond state criminal prosecutions, to
civil enforcement proceedings.” New Orleans Pub. Serv.,
Inc. v. Council of New Orleans (NOPSI), 491 U.S. 350,
367–68 (1989); see Huffman v. Pursue, Ltd., 420 U.S. 592,
604 (1975).
In Sprint Communications, Inc. v. Jacobs, 571 U.S.
69 (2013), the Court limited that expansion, holding that
Younger abstention applies to only three categories of
state proceedings: (1) “ongoing state criminal prosecutions”; (2) “certain ‘civil enforcement proceedings’”; and
(3) “‘civil proceedings involving certain orders . . .
uniquely in furtherance of the state courts’ ability to perform their judicial functions.’” Id. at 78 (quoting NOPSI,
491 U.S. at 368). The Court described the type of civil enforcement proceedings to which Younger applies as those
that are “‘akin to a criminal prosecution’ in ‘important respects.’” Id. at 79 (quoting Huffman, 420 U.S. at 604). It
described some of the characteristics of such proceedings
as follows:
Such enforcement actions are characteristically initiated to sanction the federal plaintiff, i.e., the party
challenging the state action, for some wrongful act. In
cases of this genre, a state actor is routinely a party
to the state proceeding and often initiates the action.
Investigations are commonly involved, often culminating in the filing of a formal complaint or charges.
Id. at 79–80 (citations omitted).
In this case, the district court determined that
Younger abstention was appropriate because the state
proceeding at issue is “a civil enforcement action brought
by the Attorney General seeking civil penalties, injunctive
relief, and damages for unfair and deceptive acts in violation of Hawai‘i consumer protection law.” The companies
challenge that conclusion, arguing that none of the

5a
characteristics of a civil enforcement action that the Court
described in Sprint is present in this case.
First, the companies argue that the state-court litigation was not, in reality, brought by the State of Hawaii. In
the companies’ view, the State of Hawaii is not genuinely
a party to the state-court litigation because the State’s reliance on private counsel means that it is only a nominal
plaintiff. But even though the state proceeding is being
litigated by private counsel, it is still an action brought by
the State— indeed, the first paragraph of the companies’
federal complaint recognizes as much, alleging that “[t]he
State of Hawai‘i has sued the Companies.”
An important principle of federalism is that it is up to
“the people of the States to determine the qualifications
of their government officials.” Gregory v. Ashcroft, 501
U.S. 452, 463 (1991); see Taylor v. Beckham, 178 U.S. 548,
570– 71 (1900) (describing the authority of States “to prescribe the qualifications of their own officers” as “obviously essential to the independence of the States”). Conducting litigation on behalf of a State is a core sovereign
function, and the people of each State, through their
elected representatives, have the right to decide whether
that function should be carried out by full-time government employees or, as here, by outside counsel retained
for a particular case. Thus, we have held that the Due Process Clause does not require a State to use state employees, rather than outside counsel, to bring a civil enforcement action. American Bankers Mgmt. Co. v. Heryford,
885 F.3d 629, 633–37 (9th Cir. 2018).
We see no reason why the application of Younger
should turn on the State’s choice of lawyers. Cf. Trump v.
Vance, 941 F.3d 631, 638 n.10 (2d Cir. 2019) (concluding,
in a federal suit seeking an injunction against an ongoing
investigation of the President in state court, that the
Younger analysis—specifically, the importance of the federal interests at stake—was “unaltered by the fact that

6a
the President is represented by private counsel”), aff’d,
140 S. Ct. 2412 (2020). Here, the state-court case against
the companies is one that, under Hawaii law, only the Attorney General or another state official may bring; it is not
available to a private party. Haw. Rev. Stat. § 480-3.1. The
Attorney General of Hawaii made the decision to bring
the action, and the people of Hawaii may hold her accountable for that decision. The action is therefore one
“brought by the State in its sovereign capacity.” Trainor
v. Hernandez, 431 U.S. 434, 444 (1977). For purposes of
Younger, it is an action in which a “state actor is . . . a
party.” Sprint, 571 U.S. at 79.
The companies next argue that we must employ a
“rigorous inquiry” to determine “the true character of the
underlying action” and whether it constitutes a civil enforcement action as described in Sprint. If we do, the companies assert, we will find that the state proceeding fails
to qualify because private counsel conducted the bulk of
the investigation and because the State’s true motive in
bringing the case is to make a profit, not to punish wrongdoing. That kind of case-specific inquiry finds no support
in precedent.
In Sprint, the Supreme Court described the characteristics of quasi-criminal enforcement actions in general
terms by noting features that are typically present, not in
specific terms by prescribing criteria that are always required. Nothing in the Court’s opinion suggests that the
characteristics it identified should be treated as a checklist, every element of which must be satisfied based on the
specific facts of each individual case. 571 U.S. at 79–80. Instead, the Court used terms such as “characteristically,”
“routinely,” and “commonly” to describe the class of enforcement actions entitled to Younger abstention. Id. at
79.
And when evaluating whether the characteristics of
actions entitled to Younger abstention are present, the

7a
Supreme Court has considered the nature of a State’s interest in different classes of proceedings, not its interest
in specific cases. See, e.g., Middlesex Cnty. Ethics Comm.
v. Garden State Bar Ass’n, 457 U.S. 423, 432 (1982). In
NOPSI, the Court explained that “when we inquire into
the substantiality of the State’s interest in its proceedings
we do not look narrowly to its interest in the outcome of
the particular case,” but instead to “the importance of the
generic proceedings to the State.” 491 U.S. at 365 (emphasis omitted). So too here. What matters for Younger abstention is whether the state proceeding falls within the
general class of quasi-criminal enforcement actions—not
whether the proceeding satisfies specific factual criteria.
For that reason, we agree with the First Circuit that
“courts ordinarily should look to the general class of proceedings in determining whether Younger abstention applies.” Sirva Relocation, LLC v. Richie, 794 F.3d 185, 195
(1st Cir. 2015).
The case on which the companies principally rely,
Cook v. Harding, 879 F.3d 1035 (9th Cir. 2018), does not
support the proposition that we must conduct a case-specific inquiry into the nature of the state proceeding. In
Cook, we concluded that a civil action brought by a private
party to enforce a surrogacy agreement is not a proceeding to which Younger applies. We explained that a private
contract action does not fall within Sprint’s two categories
of civil cases entitled to abstention: It is neither a civil enforcement proceeding nor a civil proceeding involving a
State’s interest in enforcing the orders of its courts. Id. at
1040–41. While we noted that Sprint limited the categories of cases to which Younger applies, we did not hold
that the Court had required any kind of elevated scrutiny
of cases that fell within these categories. Id. at 1039. Instead, we considered whether the general class of contract
cases constituted civil enforcement proceedings, and we

8a
concluded that they did not. Id. at 1040–41. That is consistent with the approach we take today.
Accepting the companies’ invitation to scrutinize the
particular facts of a state civil enforcement action would
offend the principles of comity at the heart of the Younger
doctrine. The “underlying reason for restraining courts of
equity” is the “notion of ‘comity,’ that is, a proper respect
for state functions . . . and a continuance of the belief that
the National Government will fare best if the States and
their institutions are left free to perform their separate
functions in their separate ways.” Younger, 401 U.S. at 44.
A federal- court inquiry into why a state attorney general
chose to pursue a particular case, or into the thoroughness
of the State’s pre-filing investigation, would be entirely at
odds with Younger’s purpose of leaving state governments “free to perform their separate functions in their
separate ways.” Id. It also would make the application of
Younger turn on a complex, fact-intensive analysis, in tension with the Supreme Court’s admonition that jurisdiction should be governed by “straightforward rules under
which [courts] can readily assure themselves of their
power to hear a case.” Hertz Corp. v. Friend, 559 U.S. 77,
94 (2010).
Looking to the general class of cases of which this
state proceeding is a member, we conclude that Younger
abstention is appropriate here. The State’s action has
been brought under a statute that punishes those who engage in deceptive acts in commerce, and the State seeks
civil penalties and punitive damages to sanction the companies for their allegedly deceptive labeling practices. On
its face, the action fits comfortably within the class of
cases described in Sprint, and abstention under Younger
is warranted. See Williams v. Washington, 554 F.2d 369,
370 (9th Cir. 1977).
Finally, asserting that the State is “using the threat
of sky-high penalties” to force them to “take sides on

9a
matters of scientific dispute,” the companies argue that
their First Amendment interests are at stake, and that we
must therefore subject the state-court proceedings to
more intense scrutiny than might otherwise be warranted. But Younger abstention routinely applies even
when important rights are at stake— indeed, without
some claim that a prosecution affects federally protected
rights, there would be no basis for federal jurisdiction in
the first place, and thus nothing from which to abstain.
See, e.g., Younger, 401 U.S. at 51; Huffman, 420 U.S.
at 610; Middlesex Cnty. Ethics Comm., 457 U.S. at 435–
37. In Younger itself, for example, the plaintiffs argued
that the state prosecution had a “chilling effect” on their
exercise of First Amendment rights, but the Court declined to apply any heightened scrutiny on that basis. 401
U.S. at 51. Instead, it explained that “the existence of a
‘chilling effect,’ even in the area of First Amendment
rights, has never been considered a sufficient basis, in and
of itself, for prohibiting state action.” Id.
The Supreme Court has stated that Younger does not
apply in “extraordinary circumstances, where the danger
of irreparable loss is both great and immediate.” Younger,
401 U.S. at 45. That is a narrow exception, principally applying to “cases of proven harassment . . . by state officials
in bad faith,” and the companies have expressly disclaimed reliance on it. Perez v. Ledesma, 401 U.S. 82, 85
(1971); Brown v. Ahern, 676 F.3d 899, 901 (9th Cir. 2012).
The companies’ First Amendment concerns do not bring
this case within the scope of that exception, so they have
no bearing on the application of Younger.
AFFIRMED.

10a
APPENDIX B

UNITED STATES COURT OF APPEALS FOR THE
NINTH CIRCUIT
BRISTOL-MYERS SQUIBB COMPANY;
ET AL.,
PLAINTIFFS-APPELLANTS,
v.
CLARE E. CONNORS, IN HER OFFICIAL
CAPACITY AS THE ATTORNEY GENERAL OF
THE STATE OF HAWAII,
DEFENDANT-APPELLEE.
No. 20-15515
D.C. No. 1:20-cv-00010-JAO-RT
District of Hawaii, Honolulu
ORDER

Before: WATFORD, FRIEDLAND, and MILLER,
Circuit Judges.
The panel has voted to deny the petition for rehearing
en banc.
The full court has been advised of appellants’ petition
for rehearing en banc and no judge of the court has requested a vote on the petition for rehearing en banc. Fed.
R. App. P. 35. The petition for rehearing en banc, filed November 12, 2020, is DENIED.

11a
APPENDIX C

IN THE UNITED STATES DISTRICT COURT FOR
THE DISTRICT OF HAWAII
BRISTOL-MYERS SQUIBB COMPANY, ET AL.
PLAINTIFFS,
VS.

CLARE E. CONNORS,
IN HER OFFICIAL CAPACITY AS THE
ATTORNEY GENERAL OF THE STATE OF HAWAI‘I,
DEFENDANT.
Civil No. 20-00010 JAO-RT
ORDER GRANTING DEFENDANT’S
MOTION TO DISMISS

Plaintiffs Bristol-Myers Squibb Company, SanofiAventis U.S. LLC, Sanofi US Services, Inc., and SanofiSynthelabo LLC (“Plaintiffs”) filed a Complaint against
Clare E. Connors in her official capacity as the Attorney
General of the State of Hawai‘i (the “State”). The State
moved to dismiss the Complaint, arguing the Court must
abstain under Younger v. Harris, 401 U.S. 37 (1971). For
the reasons stated below, the motion [ECF No. 33] is
GRANTED.
I.

BACKGROUND

This is the second time Plaintiffs have asked a federal
court to intervene in their dispute with the State of Hawai‘i playing out in state court. The first time—back in
early 2014—Plaintiffs removed the State’s1 lawsuit
The state action was filed by and through the State’s then-Attorney General, David Louie.
1

12a
against them regarding their marketing of Plavix, an antiplatelet prescription drug approved by the Food and
Drug Administration (“FDA”) to reduce heart attacks,
strokes, and vascular death. See Hawaii, ex rel. Louie v.
Bristol-Myers Squibb Co., Civ. No. 14-00180 HG-RLP,
2014 WL 3427387, at *2 (D. Haw. July 15, 2014) (“BristolMyers I”).2
In Bristol-Myers I, the State alleged Plaintiffs engaged in false and deceptive acts in violation of Hawai’i
law, for example: (a) misleadingly marketing Plavix as
more effective and safer than competitor drugs; (b) marketing Plavix for uses that had not been shown to be safe
or effective; (c) failing to disclose that Plavix had a diminished or no effect on 30% of the patient population while
marketing higher doses of Plavix to these patients despite
considerable health risks; and (d) marketing it as a replacement for aspirin, but ignoring or concealing data
finding Plavix only as effective or less effective than aspirin, despite costing one hundred times more. See id. The
State sought civil penalties, disgorgement of Plaintiffs’
profits, punitive damages, and declaratory and injunctive
relief. See id. at *2–3. The district court remanded Bristol-Meyers I to state court for lack of federal jurisdiction.
See id. at *3–16.
Now, over five years later, Bristol-Myers I is set for
trial in May 2020,3 which prompted Plaintiffs to file this
federal action. See ECF No. 1 (“Compl.”) ¶ 17. Plaintiffs
bring a single count against the State’s current Attorney
General under 42 U.S.C. § 1983 for violating their First
Amendment rights. See id. ¶¶ 126–38. Plaintiffs’ lengthy
See Khoja v. Orexigen Therapeutics, Inc., 899 F.3d 988, 999 (9th
Cir. 2018) (stating court may take judicial notice of matters of public
record on motion to dismiss).
3
Plaintiffs’ Complaint indicates trial is scheduled for April 2020,
see Compl. ¶ 17, but the State’s Reply reports the trial date is now
May 2020, see ECF No. 38 at 6.
2

13a
Complaint details why the state action is meritless, contends that the State’s position in that suit is unsupported
by the facts or medical evidence and conflicts with the
FDA’s position on Plavix, and characterizes the state action as a ploy for private attorneys to profit rather than a
suit motivated by any legitimate concern for the health
and safety of the State’s residents. See generally Compl.
In the state action, the State claims that any Plavix
label that does not have a warning about the ineffectiveness of the drug among certain populations and the need
for genetic testing to identify patients in that population
is false or misleading. See id. ¶ 3. In this action, Plaintiffs
claim that those warnings are unsupported by the evidence, controversial, and amount to improperly compelled
speech. See id. ¶¶ 88–89, 126–38. Plaintiffs also claim that
the prospect of a verdict against them in the state action—
incurring large penalties for engaging in their own, truthful speech about Plavix without any proof of harm or malice—impermissibly chills their ability to engage in scientific debates about Plavix and other products, all in violation of their First Amendment rights. See id. Plaintiffs
therefore ask this Court to declare that the state action
violates their First Amendment rights and enjoin the
State from proceeding with the state action or proceeding
with the action using private counsel. See id. at 52–53. The
State, in turn, asks the Court to abstain from exercising
jurisdiction over this federal action under Younger, arguing that because Plaintiffs only seek declaratory and injunctive relief, the appropriate remedy is to dismiss the
Complaint rather than stay the case. See ECF Nos. 33, 331. Plaintiffs oppose the State’s motion to dismiss. See ECF
No. 36.
II.

DISCUSSION

“The doctrine of abstention involves a decision by a
federal court to decline to exercise jurisdiction over the
underlying claims for reasons of comity.” Washington v.

14a
Los Angeles Cty. Sheriff’s Dep’t, 833 F.3d 1048, 1058 (9th
Cir. 2016) (citations omitted). In civil cases, Younger abstention is appropriate where a state court proceeding (1)
is ongoing; (2) is a quasi-criminal enforcement action or
involves a state’s interest in enforcing the orders and
judgments of its courts; (3) implicates important state interests; (4) provides an adequate opportunity to raise federal challenges; and (5) would be enjoined by the federal
court action or where the federal proceeding would have
the practical effect of doing so, and no exception to
Younger applies. See Rynearson v. Ferguson, 903 F.3d
920, 924 (9th Cir. 2018). The parties dispute whether the
State has met the second and third prongs, and whether
an exception to Younger applies.
A.

Quasi-Criminal Enforcement Action

The State contends the state action against Plaintiffs
is a quasi-criminal enforcement proceeding. In Sprint
Communications, Inc. v. Jacobs, the Supreme Court
summarized its precedent regarding the nature of quasicriminal civil enforcement actions:
Such enforcement actions are characteristically initiated to sanction the federal plaintiff, i.e., the party
challenging the state action, for some wrongful act. In
cases of this genre, a state actor is routinely a party
to the state proceeding and often initiates the action.
Investigations are commonly involved, often culminating in the filing of a formal complaint or charges.
571 U.S. 69, 79–80 (2013) (citations omitted). The state action here—a civil enforcement action brought by the Attorney General seeking civil penalties, injunctive relief,
and damages for unfair and deceptive acts in violation of
Hawai’i consumer protection law—thus falls within this
category of cases. See, e.g., Monster Beverage Corp. v.
Herrera, Case No. EDCV 13-00786-VAP (OPx), 2013 WL
12131740, at *4 (C.D. Cal. Dec. 16, 2013), aff’d, 650 F.
App’x 344 (9th Cir. 2016) (holding Younger applied when

15a
City Attorney filed complaint in state court challenging
company’s unfair, deceptive, and unlawful business practices and seeking an injunction, money damages, and civil
penalties because the state suit was fundamentally a law
enforcement action designed to protect the public rather
than to benefit private parties); TVI Inc. v. Ferguson,
CASE NO. C17-1845 RSM, 2018 WL 1610220, at *4 (W.D.
Wash. Apr. 3, 2018) (concluding Attorney General’s state
action under Washington consumer protection statute for
false and deceptive practices fell “squarely . . . under the
category of ‘state civil proceedings that are akin to criminal prosecutions,’ . . . where Younger applie[s]” (citation
omitted)); State Farm Mut. Auto. Ins. Co. v. Metcalf, 902
F. Supp. 1216, 1218 (D. Haw. 1995) (“Here, the State
brought a civil action in order to enforce a state statute
prohibiting unfair and deceptive advertising by insurance
carriers. Such an action, allowing for fines and penalties
for violations of the statute, is akin to a criminal prosecution.”); Backpage.com, LLC v. Hawley, Case No. 4:17-CV1951 PLC, 2017 WL 5726868, at *5–7 (E.D. Mo. Nov. 28,
2017) (holding Younger applied where Attorney General
brought state action to enforce civil investigative demands
issued to investigate violations of state consumer protection laws); Cedar Rapids Cellular Tel., L.P. v. Miller, 280
F.3d 874, 880–83 (8th Cir. 2002) (affirming Younger applied when Attorney General brought state action to enforce consumer protection statutes against corporation
and entities related to that corporation filed suit in federal
court arguing statutes could not apply to their business).
Plaintiffs nonetheless argue the state action is not a
quasi-criminal enforcement action because it seeks to extract revenue rather than sanction them for wrongdoing.
See ECF No. 36 at 22 (citing Philip Morris, Inc. v. Blumenthal, 123 F.3d 103, 106 (2d Cir. 1997)). Aside from
Philip Morris being non-binding, Plaintiffs’ reliance on it
is misplaced. In that case, the state brought a subrogation

16a
claim in state court against tobacco companies primarily
to recover money it spent treating smoking-related illnesses that was monetary relief that would have been
equally recoverable by private parties and had “little to do
with eradicating unfair trade practices or anticompetitive
business practices.” 123 F.3d at 106–07 (citation omitted).
Here, the State seeks to recover civil penalties that may
only be collected in an action brought by the Attorney
General or other state official on behalf of the State, see,
e.g., HRS § 480-3.1,4 and there can be no dispute that the
state action, including these penalties, seeks to eradicate
what the State perceives to be the Plaintiffs’ unfair and
deceptive practices, see, e.g., Compl. ¶ 17 (alleging state
court action constitutes impermissible chilling because it
seeks to eradicate certain types of conduct).5 Indeed,
Plaintiffs’ Complaint repeatedly concedes the State is
“seeking to punish them with massive civil penalties for
failing to make [certain statements].” Compl. ¶ 1; see also
id. ¶ 78.
Despite these and similar allegations, Plaintiffs also
argue the state action is not a quasi-criminal enforcement
proceeding because the State is merely a nominal plaintiff
in a suit litigated by private counsel. Plaintiffs cite no authority to support their argument that this impacts the
Younger analysis where, as here, it is undisputed the state
“Any person, firm, company, association, or corporation violating
any of the provisions of section 480-2 shall be fined a sum of not less
than $500 nor more than $10,000 for each violation, which sum shall
be collected in a civil action brought by the attorney general or the
director of the office of consumer protection on behalf of the State.”
HRS § 480-3.1 (emphasis added); see also HRS § 480-15.1 (same regarding penalties for violating an injunction).
5
As the State notes, the legislative history of these statutory penalties supports that they were intended to punish wrongdoers in order to deter and aid in more effective enforcement of the consumer
protection law than mere injunctive relief could alone. See ECF No.
38 at 8–9; ECF Nos. 38-2, 38-3, 38-4.
4

17a
action is brought by the Attorney General on behalf of the
State in its sovereign capacity, and suing under certain
Hawai’i statutes that authorize the Attorney General to
bring such actions. See, e.g., HRS §§ 480-3.1, 480-15, 66122; see also Bristol-Myers I, 2014 WL 3427387, at *6, *9–
10 (noting state court action was filed as a parens patriae
action, which allows the State to bring an action to protect
its quasi-sovereign interest in the health and well-being of
its residents and concluding State was the “real party in
interest” for jurisdictional purposes, based in part on the
fact that the Attorney General or other state official were
the only parties legally able to recover the relief sought).
That the State is acting through private counsel in the
state action thus does not alter the analysis under
Younger. See HRS § 28-8(b) (authorizing Attorney General to appoint and retain private counsel to perform her
duties and exercise her powers).
Nor is the Court persuaded by Plaintiffs’ argument
that Younger is inapplicable because there is insufficient
evidence of an investigation preceding the filing of a formal complaint. Plaintiffs cite no authority that Sprint or
Ninth Circuit cases interpreting it set a certain standard
of pre-filing investigation as the litmus test for abstention
under Younger. See, e.g., Sprint, 571 U.S. at 79–80 (noting
Younger did not apply, not only because no state authority
conducted an investigation into the federal plaintiff’s activities, but also because no state actor lodged a formal
complaint and because the state action was initiated by a
private company rather than the state in its sovereign capacity); cf. Cook v. Harding, 879 F.3d 1035, 1040 (9th Cir.
2018) (summarizing Moore v. Sims, 442 U.S. 415 (1979),
which Sprint cited to as an example of a quasi-criminal enforcement action, wherein “[p]rior to the parents’ [federal] action, the state had initiated proceedings alleging
child abuse, leading to an investigation and subsequent
custody hearings” (emphasis added) (citation omitted)).

18a
Regardless, as the State notes, an investigation by private
counsel preceded the filing of a formal complaint, which
has also been supplemented by six years of civil discovery.
See ECF No. 38 at 11; see also ECF No. 6-11 (operative
pleading in state court containing allegations that reflect
investigation or inquiry into their factual bases); cf. Haw.
R. Civ. P. 11(b) (filing a pleading constitutes certification
that, to the best of the attorney’s knowledge, information,
and belief, formed after an inquiry reasonable under the
circumstances, it is not presented for an improper purpose and all allegations and factual contentions have evidentiary support or are likely to have evidentiary support
after a reasonable opportunity for further investigation or
discovery). And in their Complaint, Plaintiffs allege the
state action was the result of an investigation or inquiry
by the Attorney General. See Compl. ¶ 66; see also id. ¶
135 (alleging State did not conduct a “serious investigation” into Plavix (emphasis added)). Plaintiffs’ argument
that abstaining here would make a “mockery” of Younger
is therefore unconvincing. See ECF No. 36 at 25.6
Plaintiffs take this “mockery” language from New Orleans Public Service, Inc. v. Council of the City of New Orleans, 491 U.S. 350,
368 (1989) (“NOPSI”), which noted that extending Younger to any
state judicial proceeding solely because it is reviewing legislative or
executive action would make a “mockery” of the rule that abstention
applies in narrow circumstances. See also Gilbertson v. Albright,
381 F.3d 965, 974, 977 (9th Cir. 2004) (en banc) (describing NOPSI
as “[m]aking clear that the mere existence of parallel proceedings is
not sufficient but that the class of case matters” and noting that “a
state proceeding which is nonjudicial or involves the interpretation
of completed legislative or executive action” would not fit into that
class of cases (emphasis added)). Plaintiffs have not characterized
the state action here as judicial review or interpretation of a completed legislative or executive action. See, e.g., Nader v. Cronin,
Civil No. 04-00611 JMS/LEK, 2008 WL 336746, at *9 (D. Haw. Feb.
7, 2008), aff’d, 620 F.3d 1214 (9th Cir. 2010) (holding Younger inapplicable, noting there was no civil enforcement action brought by
6

19a
The other cases Plaintiffs cite that concluded an action was not a quasi- criminal enforcement proceeding are
similarly inapplicable here. See Cook, 879 F.3d at 1040
(holding Younger did not apply when state action involved
contractual dispute between private parties); Rynearson,
903 F.3d at 925–26 (holding Younger did not apply to protection order proceeding under Washington law that was
initiated by a private party, required no involvement from
any state actor, and when the purpose was to protect the
petitioner rather than punish the respondent);
ReadyLink Healthcare, Inc. v. State Comp. Ins. Fund,
754 F.3d 754, 760 (9th Cir. 2014) (holding Younger did not
apply when state action involved insurance dispute between private parties where one requested agency review
and then judicial review). Plainly, the state action here is
the type of proceeding to which Younger applies.
B.

Implicates Important State Interests

Plaintiffs also contend Younger is inappropriate because the state action does not implicate important state
interests. To the contrary, courts have repeatedly held
that state actions to enforce consumer protection laws
against unfair and deceptive business practices are sufficiently important for Younger purposes. See, e.g.,
Commc’ns Telesystems Int’l v. Cal. Pub. Util. Comm’n,
196 F.3d 1011, 1017 (9th Cir. 1999) (recognizing protection
of consumers from unfair business practices as an important state interest in affirming abstention under
Younger); Williams v. Washington, 554 F.2d 369, 370 (9th
Cir. 1977) (“Because of Washington’s governmental interest in enforcing its consumer protection act, federal abstention is required[.]”); Cedar Rapids Cellular, 280 F.3d
the state, and characterizing the state court action as judicial review
of completed executive action when plaintiffs brought parallel proceedings in state and federal court challenging the State’s refusal to
put them on an election ballot based on a determination they failed
to obtain the requisite number of signatures).

20a
at 879–80 (noting Iowa’s interest in enforcing consumer
protection statutes); State Farm, 902 F. Supp. at 1218
(noting Hawaii’s strong interest in protecting consumers
from unfair and deceptive trade practices by insurance
carriers); In re Standard & Poor’s Rating Agency Litig.,
23 F. Supp. 3d 378, 410 (S.D.N.Y. 2014) (collecting cases).
This importance is underscored when health and safety
are implicated. See, e.g., Meredith v. Oregon, 321 F.3d 807,
818 (9th Cir. 2003) (noting that protecting residents’
safety is an important state interest); Fedex Ground
Package Sys., Inc. v. Ingenito, 86 F. Supp. 3d 1121, 1127
(E.D. Cal. 2015) (noting power to protect health and welfare of the public is primarily and historically a matter of
local concern over which states have great latitude); Monster Beverage, 2013 WL 12131740, at *7 (noting state’s interest in protecting the health and safety of its residents);
cf. Bristol-Myers I, 2014 WL 3427387, at *9 (“The State
has a specific, concrete interest in protecting its citizens
and economy from false, unfair and deceptive practices
related to prescription drugs.” (citation omitted)).
Plaintiffs provide no support for their arguments that
their affirmative defenses—under the safe harbor provision of HRS § 481A-5(a)(1) based on the FDA’s approval
of a certain label, or based on First Amendment concerns—somehow negate the State’s interest for purposes
of Younger. Indeed, the inquiry into the substantiality of
the State’s interest in its proceedings must not focus narrowly on its interest in the outcome of a particular case—
prohibiting Plaintiffs from marketing Plavix with certain
labels—but instead on the importance of the generic proceedings to the State, i.e., its interest in enforcing its consumer protection laws. See NOPSI, 491 U.S. at 365);7
Indeed, in NOPSI, the Supreme Court held that “the mere assertion of a substantial constitutional challenge to state action will not
alone compel the exercise of federal jurisdiction.” 491 U.S. at 365
7

21a
State Farm, 902 F. Supp. at 1218 (rejecting argument that
Younger was inapplicable because state proceeding suppressed speech, which addressed the merits of the particular case, and focusing instead on State’s general interest
in protecting consumers from unfair and deceptive practices by insurance carriers);8 see also TVI, 2018 WL
1610220, at *4 (rejecting argument that Attorney General’s consumer protection action in state court did not implicate important state interests because it violated First
Amendment rights, noting that such federal challenges
could be raised in state court).9 And, as discussed above,
(citation omitted). The Court left open the possibility that Younger
might not require abstention where the federal plaintiff makes a facially conclusive claim of federal preemption; however, a federal
preemption claim is not facially conclusive if its determination requires further factual inquiry. See id. at 367. When faced with a
similar argument that the FDA’s interest in safety and labeling negated a state’s interest, one district court concluded it need not engage in weighing federal versus state interests under this Younger
prong unless a party raises a formal preemption challenge (which
Plaintiffs have not done here). See Monster Beverage, 2013 WL
12131740, at *6 n.6 (“The Court is not persuaded that it needs to
engage in a weighing of federal versus state interests, aside from
the preemption question, in deciding whether an important state interest exists for the purposes of Younger abstention.” (emphasis
added)). Regardless, Plaintiffs’ claim that they benefit from a safe
harbor based on FDA approval requires further factual inquiry and
legal analysis, and thus would not defeat Younger abstention even
if considered.
8
Plaintiffs argue State Farm is no longer relevant after Sprint.
See ECF No. 36 at 28. But State Farm mirrors NOPSI with regard
to the “important state interest” prong, and Plaintiffs agreed at the
hearing that NOPSI articulates the relevant standard for that
prong.
9
TVI also rejected a federal plaintiff’s similar attempt to avoid
Younger by arguing the state court action lacked merit, noting that
the federal plaintiff’s claims “either act as a defense to the Attorney
General’s state claims, i.e. stating the [Attorney General] cannot
seek the relief it is requesting, or serve to challenge the facts as

22a
Plaintiffs’ attempt to distinguish analogous cases based on
more robust pre-filing investigations or investigations involving certain types of state actors lacks merit.
C.

Exception to Younger

Finally, Plaintiffs argue that even if the Younger factors have been met, abstention is not appropriate because
of the “extraordinary circumstances” exception to
Younger.10 Plaintiffs argue that their First Amendment
claim constitutes an extraordinary circumstance because
they face irreparable harm in the form of the state action
chilling their speech. But the state court can resolve these
First Amendment concerns and provide remedies as appropriate. See Middlesex Cty. Ethics Comm. v. Garden
State Bar Ass’n, 457 U.S. 423, 431 (1982) (“Minimal respect for the state processes, of course, precludes any presumption that the state courts will not safeguard federal
constitutional rights.”).
Indeed, none of the binding First Amendment cases
Plaintiffs cite pertain to abstention under Younger—
where a party like Plaintiffs seeks the extraordinary remedy of a federal court enjoining a state proceeding (here,
a state proceeding that has been ongoing for six years and
is on the eve of trial). See ECF No. 36 at 29–32. Instead,
Plaintiffs rely on cases addressing Pullman11 abstention,
under which a federal court refrains from addressing the
constitutionality of a state statute because a state court
ruling on a state law issue may moot or narrow the
presented by the [Attorney General], i.e. the factual basis for its
claims is unfounded” and that, either way, Younger applied because
the court was “being asked to rule on facts and legal claims that
would have a dispositive effect on the state court action.” 2018 WL
1610220, at *4.
10
Although Plaintiffs’ brief makes a cursory reference to “bad
faith,” see ECF No. 36 at 30, Plaintiffs conceded at the hearing they
do not argue the “bad faith” exception.
11
R.R. Comm’n of Tex. v. Pullman Co., 312 U.S. 496 (1941).

23a
constitutional question. It is appropriate to abstain under
Pullman only if: (1) the case touches on a sensitive area
of social policy upon which the federal courts ought not
enter unless no alternative to its adjudication is open, (2)
constitutional adjudication plainly can be avoided if a definite ruling on the state issue would terminate the controversy, and (3) the proper resolution of the possible determinative issue of state law is uncertain. See Porter v.
Jones, 319 F.3d 483, 492 (9th Cir. 2003). As the Ninth Circuit has explained, Pullman abstention is rarely appropriate in First Amendment cases because the first Pullman
factor will almost never be present, as free speech guarantees are always an area of particular federal concern,
and the delay in awaiting a state court ruling would chill
those rights the plaintiff seeks to protect. See id.. The
Court is not convinced that the same concerns exist here
under Younger, where the state proceeding has been ongoing for years without a request for an injunction, and
trial is imminent.
Nor is the Court persuaded by Plaintiffs’ argument
that an extraordinary circumstance exists here because
proceeding with the state action might eliminate the opportunity to address their federal claim. Plaintiffs offer no
argument—nor could they—that they are unable to raise
their First Amendment challenge in the state court proceeding (and, as the State notes, Plaintiffs have raised this
challenge in state court). See ECF No. 33-1 at 13–14. Nor
have Plaintiffs articulated why full vindication of their
rights necessarily requires intervention before trial—
particularly when they waited six years to vindicate these
rights. See ECF No. 36 at 33 (citing Arevalo v. Hennessy,
882 F.3d 763, 766 (9th Cir. 2018), which held Younger inapplicable because of a lack of interference with state proceedings, and alternatively applied the extraordinary circumstances exception to a pretrial detainee challenging
his incarceration for six months without a constitutionally

24a
adequate bond hearing); cf. Moore, 442 U.S. at 433 (noting
that, although the “extraordinary circumstances” exception defies an easy definition, “such circumstances must
be ‘extraordinary’ in the sense of creating an extraordinarily pressing need for immediate federal equitable relief” (emphasis added) (citation omitted)); see also Compl.
¶¶ 113, 116 (alleging harm every day the state court suit
is pending and that the “chill is intensified” given Plaintiffs’ liability will be decided by a lay jury or judge without
expertise). The Court is thus unconvinced that extraordinary circumstances exist that take this action outside of
Younger. See Monster Beverage, 2013 WL 12131740, at *9
(abstaining under Younger even though federal plaintiff
alleged that City Attorney’s investigation into and attempts to regulate it violated its First Amendment
rights), aff’d 650 F. App’x at 346 (noting state court litigation provided federal plaintiff adequate opportunity to
raise federal questions); see also Corren v. Sorrell, 151 F.
Supp. 3d 479, 488 (D. Vt. 2015) (rejecting argument that
First Amendment interests brought case within the “extraordinary circumstances” exception where these issues
could be timely and adequately addressed in state court).
III.

CONCLUSION

For the foregoing reasons, the Court concludes that
abstaining under Younger is necessary. Plaintiffs do not
respond to the State’s argument that, because the federal
action seeks only injunctive and declaratory relief, the appropriate remedy is dismissal rather than a stay. ECF
No. 33-1 at 28 (citing Gilbertson, 381 F.3d 965). The Court
therefore DISMISSES the Complaint without leave to
amend. This dismissal is, however, without prejudice and
nothing in this ruling shall prevent Plaintiffs from raising
any constitutional challenge or claim in the ongoing state
action.
IT IS SO ORDERED.
DATED: Honolulu, Hawai‘i, March 16, 2020.

25a
APPENDIX D

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF HAWAII
BRISTOL-MYERS
SQUIBB COMPANY,
SANOFI-AVENTIS U.S.
LLC, SANOFI US SERVICES INC., formerly
known as SANOFIAVENTIS U.S. INC., and
SANOFISYNTHELABO INC.,

Civil Action No.
COMPLAINT FOR
DECLARATORY AND
INJUNCTIVE RELIEF

Plaintiffs,
vs.
CLARE E. CONNORS,
in her official capacity as
the ATTORNEY
GENERAL OF THE
STATE OF Hawai`i,
Defendant.

COMPLAINT FOR DECLARATORY AND
INJUNCTIVE RELIEF

Plaintiffs Bristol-Myers Squibb Company (“BMS”)
and Sanofi-Aventis U.S. LLC, Sanofi US Services Inc.,
and Sanofi-Synthelabo LLC (collectively “Sanofi” and,
with BMS, the “Companies”) allege as follows:
INTRODUCTION

1.
The State of Hawai`i has sued the Companies,
seeking to punish them with massive civil penalties for
failing to make the controversial, untrue statements that

26a
their life-saving cardiovascular drug, Plavix (clopidogrel),
is less effective for Asian and Pacific Islander patients and
that doctors should genetically test those patients before
prescribing the drug. It is not just the Companies who believe these statements to be untrue; the scientific consensus strongly supports the Companies.
2.
Hawai`i’s effort to compel the Companies to
parrot the State’s contrary position violates the First
Amendment. To justify an effort to compel protected
speech, the State must satisfy heightened scrutiny by
showing that the intrusion on free speech is narrowly tailored to serve a compelling state interest, or, at minimum,
that it directly advances an important government interest and is no more extensive than necessary to do so.
Here, what the Companies choose to say—or not to say—
about their product is protected speech. See Sorrell v.
IMS Health Inc., 564 U.S. 552, 576 (2011). The compelled
speech at issue, moreover, is not “purely factual and uncontroversial.” NIFLA v. Becerra, 138 S. Ct. 2361, 2372
(2018) (quoting Zauderer v. Office of Disciplinary Counsel, 471 U.S. 626, 651 (1985)). See generally NIFLA, 138
S. Ct. 2361 (bolstering and clarifying protections against
compelled speech). To the contrary, the State’s lawsuit effectively compels the Companies to espouse scientific conclusions with which they steadfastly disagree. And in
seeking to compel and punish this speech in an area of scientific controversy, the State discriminates based on the
speaker (targeting only pharmaceutical companies) as
well as the content of the speech and the viewpoint expressed (that Plavix is not safe and effective for patients
of all races). See, e.g., Sorrell, 564 U.S. at 562-66. Heightened scrutiny therefore applies, and the State cannot
meet its burden under that standard.
3.
Hawai`i’s lawsuit to extract civil penalties from
the Companies is plainly an effort to compel speech on issues of significant scientific controversy. Indeed, it goes

27a
further and attempts to compel statements that the Companies believed are scientifically baseless. The thrust of
Hawai`i’s claim is that the Companies should have
warned that Plavix is not effective or is less effective in
patients with particular genetic traits (so-called “poor metabolizers”), that Asians are disproportionately poor metabolizers, and that genetic tests should be used to identify patients who have those traits. In 2010, the U.S. Food
and Drug Administration (“FDA”) required language describing the hypothesis to be added to the Plavix label. Yet
in this case, the State claims that this hypothesis should
have been added to the label more than a decade earlier,
when there was absolutely no evidence linking poor metabolism to poor clinical outcomes. It asserts that every
Plavix label without that warning from 1998 until 2010 was
false or misleading, and therefore claims the Companies
owe the State a civil penalty of $10,000 for every Plavix
prescription made in the State of Hawai`i during that
time under its Unfair or Deceptive Acts or Practices statute (“UDAP”). These civil penalties manifestly seek to coerce the Companies to parrot the State’s view, and therefore constitute state action to compel speech.
4.
The State’s expert reports make clear that it
also faults the Companies for not making statements far
broader and more categorical than what is in the FDA’s
label—that the drug is nothing more than a placebo for
poor metabolizers and that Asians should be genetically
tested before being given Plavix.
5.
The State has made inflammatory, racially-targeted claims regarding hazards to patients. The State
says in its UDAP complaint that “Plavix has diminished
or no effect on approximately 30% of the patient population,” “that those patients for whom Plavix would not
work could be identified through a simple genetic test,”
that “[f]or such patients, Plavix does not prevent heart attacks, strokes, or vascular death,” and that it “presents a

28a
considerable risk of gastrointestinal bleeding and other
complications.” Second Am. Compl. ¶ 2, State ex. rel. Connors v. Bristol-Myers Squibb Co., No. 14-1-0708-03 DEO
(Haw. Cir. Ct. Dec. 4, 2018). The Hawai`i Attorney General asserted at a press conference on the filing of the enforcement action that, “[f]or a very significant portion of
our population, the drug had no effect,” State Sues Maker
of Plavix for Misleading Marketing in Hawaii, Hawaii
News
Now,
https://www.hawaiinewsnow.com/
story/25021441/hawaii-attorney-general-sues-drug-manufa
cturers/ (last updated July 9, 2014), and later told the
press that Plavix was “essentially a placebo,” Rafi Letzter, White-Dominated Medical Studies Put U.S. Minorities at Risk, Pop. Sci. (Sept. 17, 2014), https://www.pop
sci.com/article/science/white-dominated-medical-studiesput-us-minorities-risk. The State has accused the Companies of a “decades-long scheme to suppress” Plavix’s supposed “dirty little secret: it had a diminished effect on
Asians, including patients of East Asian and Pacific Island
descent.” Opposition to Defendant Sanofi’s Motion To
Dismiss for Lack of Personal Jurisdiction, State ex rel.
Connors v. Bristol-Myers Squibb Co., No. 14-1-0708-03
DEO (Haw. 1st Cir. Ct. Apr. 25, 2019).
6.
The State’s expert witnesses have echoed these
assertions in their reports, served on December 29, 2019.
For example, Dr. Paul Gurbel claims that the Companies
engaged in “active suppression and deliberate neglect of
the data” regarding alleged genetic variability of response
to Plavix, and that “the administration of a drug that was
effectively a placebo caused an unnecessary financial cost
to society.” Expert Report of Paul Gurbel, MD (Dec. 29,
2019), State ex rel. Connors v. Bristol-Myers Squibb Co.
No. 14-1-0708-03 DEO (Haw. Cir. Ct.), at p. 52 (“Gurbel
Expert Report”).
7.
None of these statements by the State, its officials, or its experts is correct.

29a
8.
When FDA added the hypothesis to the label in
2010 and suggested that genetic testing be considered, it
was controversial. Prominent members of the cardiology
community criticized FDA’s actions as premature. And
today, the medical consensus, as reflected in all of the
leading treatment guidelines issued by organizations such
as the American College of Cardiology and the American
Heart Association, continues to endorse Plavix as firstline therapy, has never recommended prescribing Plavix
based on race or ethnicity, and continues to reject routine
genetic testing.
9.
In fact, a growing body of evidence shows that
Plavix works as well if not better for patients of Asian descent than other antiplatelet medications. Plavix remains
the prescription antiplatelet of choice in Asian countries.
And in 2016, FDA removed the language from the label
suggesting that poor metabolizers of Plavix have worse
clinical outcomes.1
10. After the State filed its lawsuit in 2014, cardiologists at Hawai`i’s largest hospital system were so concerned about the State’s theory that they published an article rejecting the premise of the UDAP lawsuit and urging doctors to prescribe antiplatelets based on clinical efficacy and not genetics.
11. The warning that the State demands therefore
is not “factual and uncontroversial” speech. That warning
espouses, at the very best, a minority view in the scientific
community even today. And it was entirely bereft of support in 1998, when the State asserts the Companies should
have first made the warning. To compel the Companies to
Compare March 2010 Plavix label, at 1, 3,
https://www.accessdata.fda.gov/drugsatfda_docs/label/2010/
020839s042lbl.pdf, with September 2016 Plavix label, at 1, 3,
https://www.accessdata.fda.gov/drugsatfda_docs/label/2016/
020839s062s064lbl.pdf.
1

30a
take a position in a scientific debate that they believe unsupported by the evidence, the State must (among other
things) show an important government interest.
12. The State cannot meet that burden. Fact and
expert discovery powerfully corroborates that Hawai`i’s
UDAP lawsuit serves no legitimate, health-related government interest. Despite the State’s lawsuit, all of the
State’s Medicaid providers continue to reimburse for
Plavix without regard to race or ethnicity and do not require genetic testing prior to prescribing the drug.
13. What is more, it appears that the State’s responsible health officials never voiced any concern whatsoever about Plavix’s effect in patients who have particular genetic traits or racial or ethnic backgrounds. When
State Medicaid officials were deposed in August 2019,
none recalled any concerns about Plavix. The former medical director of the State Medicaid program could remember no discussion of issues with Plavix. The current medical director of the State Medicaid program, who has held
that position since 2011, likewise remembered no discussion of issues with Plavix, and could not identify any steps
he took to advise doctors or patients about purported concerns regarding Plavix.
14. Similarly, the State’s expert reports include no
cardiologist from Hawai`i, no cardiologist from any Asian
country, no evidence that any doctor in Hawai`i ever
voiced concern about the genetic issue or changed their
prescribing behavior in any way, and no evidence that anyone in Hawai`i was actually harmed.
15. Instead of supporting a genuine state interest,
this suit appears to have been generated to achieve private financial gain. It was devised and marketed by private contingency-fee lawyers who are litigating it at no
cost to the State. The State’s main expert is participating
as a qui tam relator in a suit regarding genetic variability
of response to Plavix in New Jersey federal court—a

31a
potentially lucrative engagement that expert has failed to
disclose in the UDAP litigation. The UDAP complaint reflects no investigation by the State of Hawai`i but simply
copies the substance of other complaints filed elsewhere.
16. In a traditional enforcement matter, when Hawai`i’s Attorney General or one of her assistants sues on
behalf of the State, they have a professional and ethical
obligation as government employees to serve the public
interest—not necessarily to win the case, but rather to
pursue actions that are a sound use of public resources
and to see that justice is done. In this case, the private
lawyers hired by the State are not dedicated to the public
interest. Instead, the higher the verdict, the more the lawyers make—creating an overpowering incentive to maximize the monetary award, without regard to the larger
public interest, the medical consequences, or the constitutional values that constrain State action. The weakening
of these restraints heightens the risk to First Amendment
rights.
17. Hawai`i’s lawsuit not only violates the Companies’ First Amendment rights, but threatens to significantly chill their protected speech. Because the Companies did not adopt and propagate the State’s controversial
and unproven hypothesis, they face a looming trial in
April 2020 at which the State will seek billions of dollars
in penalties. The prospect of this massive liability for making truthful statements about their products and for failing to make untruthful statements has a chilling effect on
the speech not only of the Companies, but of other pharmaceutical manufacturers as well. The chilling effect inflicted by the State’s UDAP lawsuit is exacerbated by the
inflammatory and divisive rhetoric used by the State’s
lawyers.
18. For companies under this type of assault, being
right on the science does not alleviate the uncertainty of
the process and the attendant chilling effect on speech.

32a
See Gertz v. Robert Welch, Inc., 418 U.S. 323, 349 (1974)
(“The largely uncontrolled discretion of juries to award
damages where there is no loss unnecessarily compounds
. . . [the risk of] inhibit[ing] the vigorous exercise of First
Amendment freedoms.”).
19. The State seeks to impose these massive liabilities without showing that anyone in Hawai`i was harmed,
and the UDAP statute requires no such showing. The Supreme Court in Gertz held that the First Amendment does
not permit such liability for protected speech absent a
showing of injury, or malice, which the UDAP statute also
does not require.
20. In sum, the State’s lawsuit violates the First
Amendment and must be stopped.
PARTIES

21. Plaintiff Bristol-Myers Squibb Company is a
pharmaceutical company incorporated in Delaware and
headquartered in New York. The State of Hawai`i,
through contingency fee counsel, has brought a civil enforcement action under Hawai`i’s UDAP statute against
BMS.
22. Plaintiff Sanofi-Aventis U.S. LLC is a Delaware limited liability company headquartered in New Jersey. The State of Hawai`i, through contingency fee counsel, has brought a civil enforcement action under Hawai`i’s UDAP statute against Sanofi-Aventis U.S. LLC.
23. Plaintiff Sanofi US Services Inc., formerly
known as Sanofi-Aventis
U.S. Inc., is a Delaware corporation headquartered in
New Jersey. The State of Hawai`i, through contingency
fee counsel, has brought a civil enforcement action under
Hawai`i’s UDAP statute against Sanofi US Services Inc.
24. Plaintiff Sanofi-Synthelabo LLC is a Delaware
limited liability company headquartered in New Jersey.
The State of Hawai`i, through contingency fee counsel,

33a
has brought a civil enforcement action under Hawai`i’s
UDAP statute against Sanofi-Synthelabo LLC.
25. Defendant Clare E. Connors is the Attorney
General of the State of Hawai`i. She is sued in her official
capacity.
JURISDICTION AND VENUE

26. This Court has jurisdiction over this action under 28 U.S.C. § 1331, which confers original jurisdiction
on federal district courts over actions arising under the
Constitution or laws of the United States. This case arises
under the First Amendment of the Constitution, made applicable to the State by the Due Process Clause of the
Fourteenth Amendment, and under 42 U.S.C. § 1983.
27. Venue is proper in this Court under 28 U.S.C.
§ 1391(b)(2), because a substantial part of the events or
omissions giving rise to the claim occurred in this District.
Specifically, the State is pursuing its UDAP action, which
arises under Hawai`i state law, in Hawai`i state court.
FACTUAL BACKGROUND
A.

Background on Plavix and Genetic Variability of
Response

28.
Cardiovascular disease is the leading cause of
death in Hawai`i, causing almost 4,000 deaths per year in
that State alone. The Companies developed Plavix— an
antiplatelet therapy, i.e., a blood thinner—as a revolutionary drug to treat cardiovascular disease.
29. Plavix has been successfully launched in the
United States and more than 100 countries, including
China, India, Indonesia, Japan, Malaysia, the Philippines,
and Singapore. Today, Plavix is one of the most widely
prescribed antiplatelets in the world, including Asia, and
the medical community almost universally considers the
drug safe and effective.
30. In 1997, FDA approved Plavix as safe and effective for use as a “monotherapy” (i.e., without another

34a
drug) to treat patients who suffered a recent heart attack
or stroke or have been diagnosed peripheral arterial disease. Five years later, FDA approved Plavix for “dual antiplatelet therapy” with aspirin for the treatment of patients with particular types of acute coronary syndrome.
FDA expanded this dual therapy approval in 2006.
31. Dual therapy of Plavix with aspirin has been
the standard of care for many years, both in treating patients with acute coronary syndrome, as well as in conjunction with the placement of stents, i.e., medical devices
commonly implanted to keep patients’ arteries open, but
which can trigger blood clotting. For more than a decade,
the principal medical organizations in cardiology have recommended Plavix in these and other clinical settings.
They continue to recommend it today.
32. After Plavix’s approval, the Companies continued to study the drug by funding studies conducted by independent investigators. Among those studies were ones
focused on potential “variability of response” among patients using Plavix.
33. “Variability of response” is the difference
“among individuals in their response to drugs. … [W]hen
a group of patients receive the same drug dosage[,]some
gain a therapeutic effect, others develop toxicity, and others derive no benefit at all.”2 Variability is common. “Most
major drugs are effective in only 25 to 60 percent of patients.”3 Doctors are familiar with the phenomenon, and
frequently switch patients from one drug to another until
they find one that provides relief. Many things can cause

Michael D. Rawlins, Variability in Response to Drugs, 4 Brit.
Med. J. 91, 91 (1974).
3
Grant R. Wilkinson, Drug Metabolism and Variability Among
Patients in Drug Response, 352 New Eng. J. Med. 2211, 2211 (2005).
2

35a
variability of response, including environmental factors,
genetics, and underlying medical conditions.4
34. Starting in 2001, there was a robust scientific
debate regarding variability of response and the role of
genetics in Plavix metabolism. The Companies supported
more than 30 published studies as part of an integrated
research plan on that topic. Numerous independent investigators not affiliated with the Companies also conducted
research about variability of response to Plavix and published their findings. None of the early studies, however,
concluded that people with certain genetic traits or ethnic
backgrounds had worse health outcomes.
35. As the research on variability of response continued, the Companies kept FDA fully apprised of the
findings, disclosing to the Agency approximately 200 published studies relating to the subject before the 2010 labeling revision.
36. Despite this intense study, before late 2008, not
a single study had concluded that Asian or Pacific Islander patients, or patients with certain genetic traits,
have worse health outcomes on Plavix than members of
other racial groups.
37. In fact, much of the evidence suggested precisely the opposite:
a. In 1991, data in a Phase II study on Japanese patients suggested that Plavix worked
better for the Japanese patients than other
patients.5
Wilkinson, supra note 3, at 2211.
FDA Investigational New Drug Application (IND) No. 34,663,
Serial No. 161, PLAV_SAN_0168829, at PLAV_SAN_01648849
(“[I]t appeared that the Japanese are more sensitive to the platelet
aggregation effect of clopidogrel . . . .”). Phase II studies are generally part of the drug approval process with the FDA and focus on
effectiveness. See
FDA
Drug
Approval
Process
1,
4
5

36a
b. In 2005, BMS and Sanofi sponsored the
COMMIT trial in China, with more than
45,000 Chinese patients, the single largest
clinical study conducted on Plavix.6 That
study found that adding Plavix to aspirin
therapy significantly reduced the risk of
heart attacks, strokes, and death in the population studied. These results led to a new
FDA-approved indication to use the drug
for the most serious types of heart attacks.
c. From the mid-1990s through mid-2000s, the
Companies enrolled another 35,000 patients, without regard to race or ethnicity,
in clinical trials showing the efficacy of
Plavix.7 Not a single trial signaled that
https://www.fda.gov/downloads/Drugs/ResourcesForYou/Consumers/UCM284393.pdf.
6
COMMIT Collaborative Group, Addition of Clopidogrel to Aspirin in 45,852 Patients with Acute Myocardial Infarction: Randomised Placebo-Controlled Trial, 366 Lancet 1607, 1607 (2005); see also
Glenn N. Levine et al., World Heart Federation Expert Consensus
Statement on Antiplatelet Therapy in East Asian Patients with
ACS or Undergoing PCI, 11 Nature Rev. Cardiology 597, 603 (2014)
(“In the COMMIT trial, the benefit of clopidogrel added to aspirin
was demonstrated for DAPT in Chinese patients with acute myocardial infarction, predominantly STEMI, not undergoing PCI. The
primary composite end point of death, reinfarction, and stroke was
significantly reduced by the addition of clopidogrel to aspirin therapy, without a significant increase in bleeding.”).
7
See CAPRIE Steering Committee, A Randomized, Blinded,
Trial of Clopidogrel Versus Aspirin in Patients at Risk of Ischaemic Events (CAPRIE), 348 Lancet 1329, 1329 (1996) (19,185 patients); The Clopidogrel in Unstable Angina to Prevent Recurrent
Events Trial Investigators, Effects of Clopidogrel in Addition to Aspirin in Patients with Acute Coronary Syndromes Without STSegment Elevation, 345 New Eng. J. Med. 494, 494 (2001) (12,562
patients); Marc S. Sabatine et al., Addition of Clopidogrel to Aspirin in Fibrinolytic Therapy for Myocardial Infarction with ST-

37a
Plavix was ineffective for Asians or Pacific
Islanders.
38. In 2008—a decade after Plavix went on the
market—Harvard professor Dr. Jessica Mega authored
two studies assessing for the first time the clinical effect,
if any, of a genetic variation in the CYP2C19 enzyme—the
enzyme that converts Plavix to its active form. The variation exists in people of all races but is more prevalent in
persons of Asian or Pacific Islander descent. In the first
study, Dr. Mega found no significant difference in clinical
outcomes based on genetic status. In the second study,
published online in December 2008, involving a different
patient set, Dr. Mega reported a potential link between a
genetic variation in the CYP2C19 enzyme and real-world
clinical outcomes for patients using Plavix. Dr. Mega
noted, however, that the study could not “exclude meaningful effects of . . . other genetic variants” and therefore
that “such variations also merit study.”8
B. FDA Requires Revisions to Plavix Label Noting
Genetic Variability of Response

39. Even though the science was nascent and the
data were contradictory, FDA in March 2009 recommended certain changes to the existing Plavix label and
required the Companies to conduct post-marketing clinical trials.
40. The Companies accepted several of the proposed labeling changes, but expressed concern with aspects of others. In particular, the Companies disagreed
with changes that recommened genetic testing. The Companies explained that the variability of response and effect
on clinical outcomes was only partially attributable to
Segment Elevation, 352 New Eng. J. Med. 1179, 1179 (2005) (3,491
patients).
8
Jessica L. Mega et al., Cytochrome P-450 Polymorphisms and
Response to Clopidogrel, 360 New Eng. J. Med. 354, 361 (2009).

38a
variations in the CYP2C19 enzyme, and that other factors,
including other genetic variations, general health, comorbidities, and compliance with treatment, could also contribute. Further, the Companies considered a recommendation for genetic testing to be premature, as studies regarding the CYP2C19 variation and its importance were
ongoing.
41. In May 2009, the Plavix label was revised to add
the following language to the “precautions” section:
Based on literature data, patients with genetically reduced CYP2C19 function have lower systemic exposure to the active metabolite of clopidogrel and diminished antiplatelet responses, and generally exhibit
higher cardiovascular event rates following myocardial infarction than do patients with normal CYP2C19
function.9
42. The label further noted that “[p]harmacogenetic testing can identify genotypes associated with
variability in CYP2C19 activity.” But the label did not recommend testing patients for genetic traits or advise doctors to alter their treatment based on race or genetic status.
43. In November 2009, FDA approved a label that,
among other changes, added the following language to the
Warnings section:
Reduced effectiveness due to impaired CYP2C19
function (“Avoid use of Plavix in patients with impaired CYP2C19 function due to known genetic variation or due to drugs that inhibit CYP2C19 activity.”).10

May 2009 Plavix label, at 14, https://www.accessdata.fda.gov/
drugsatfda_docs/label/2009/020839s040lbl.pdf.
10
November 2009 Plavix label, at 18, https://www.accessdata.fda.gov/drugsatfda_docs/label/2009/020839s044lbl.pdf.
9

39a
44. On November 20, 2009, FDA proposed a new
label to the Companies that would move into a boxed
warning information about genetic variability of response
and worse clinical outcomes, and about the availability of
genetic testing “as an aid in determining therapeutic
strategy.”
45. The Companies’ response acknowledged
FDA’s position that CYP2C19 polymorphism is “an avoidable risk” but disagreed with the proposed warning. The
Companies believed that the data did not show that the
genetic variation had any clinical significance. They
viewed a boxed warning as unwarranted, because, among
other reasons, it would over-warn clinicians. As a result,
some patients who needed the drug would not receive it.
46. Nevertheless, the Companies ultimately acceded to the Agency’s position. FDA approved a label containing the following boxed warning:
WARNING: DIMINISHED EFFECTIVENESS
IN POOR METABOLIZERS . . . . Effectiveness of
Plavix depends on activation to an active metabolite
by the cytochrome P450 (CYP) system, principally
CYP2C19. (5.1). Poor metabolizers treated with
Plavix at recommended doses exhibit higher cardiovascular event rates following acute coronary syndrome (ACS) or percutaneous coronary intervention
(PCI) than patients with normal CYP2C19 function.
(12.5) Tests are available to identify a patient’s
CYP2C19 genotype and can be used as an aid in determining therapeutic strategy. (12.5) Consider alternative treatment or treatment strategies in patients
identified as CYP2C19 poor metabolizers. (2.3, 5.1).11
47. However, given the still-limited data, FDA did
not adopt the approach it has taken with other drugs: it
March 2010 Plavix label, at 1, 3, https://www.accessdata.fda.gov/drugsatfda_docs/label/2010/020839s042lbl.pdf.
11

40a
did not instruct or recommend that doctors routinely conduct genetic tests before prescribing Plavix or that they
limit its use among people of particular racial or ethnic
groups.
C.

Significant Scientific Debate Continues in the
Wake of the FDA Label Changes

48. The 2009-2010 revisions to Plavix’s label were
highly controversial. Many leading cardiologists and organizations voiced concern that the newly evolving and
mixed science on genetic variability of response did not
support the new warnings.
49. For example, Dr. Harlan Krumholz—a worldrenowned researcher and cardiologist at Yale School of
Medicine—stated:
Unfortunately the FDA has taken the step of warning
people about a harm that has yet to be established.
This warning could lead to non-compliance, unnecessary testing and increased cost without benefiting patients. The recommendation is based on platelet activation studies and not on clinical outcomes studies. To
this point we do not know if a strategy of testing patients before prescribing will provide them a net benefit.12
50. Similarly, Dr. Steven E. Nissen, chairman of
cardiovascular medicine at the Cleveland Clinic, published an editorial in the Journal of American Medicine
calling the FDA warning “a case of ‘irrational exuberance.’” Dr. Nissen observed:
The consequences of the FDA’s leap to judgment regarding CYP2C19 testing cannot be underestimated.
Several companies subsequently received FDA
Larry Husten, Plavix Label Gets Black Box Warning About
Poor Metabolizers, Cardio Brief (Mar. 12, 2010), http://www.cardiobrief.org/2010/03/12/plavix-labelgets-black-box-warning-aboutpoor-metabolizers/.
12

41a
approval to market products for testing either
CYP2C19 reduced-function alleles or platelet reactivity. The societal cost of such testing procedures remains unknown, but according to the FDA, the ‘per
patient’ charge for genetic testing ranges from $60 to
$500.12. Because clopidogrel [Plavix] is one of the
most widely used drugs in medicine, the potential cost
to the health care system of universal genetic testing
is substantial. Preventing inappropriate CYP2C19
testing could yield substantial savings for the health
care system.13
51. The American College of Cardiology and
American Heart Association—the nation’s principal cardiology organizations—likewise concluded that the FDAimposed warning prematurely informed about an unproven risk. The two organizations published a joint Clinical Alert, explaining that the “specific impact of the individual genetic polymorphisms on clinical outcome remains
to be determined” and stressing that “[t]he evidence base
is insufficient to recommend either routine genetic or
platelet function testing.”14
52. Additional studies cast further doubt on FDA’s
decision to add a black box warning on genetic variability
of response to Plavix. Following the December 2008 Mega
study, the Companies re-examined the data in their earlier trials by genotyping the thousands of patients in those
studies based on blood samples retained from the trials.
The results showed no association between genetic status
Steven E. Nissen, Editorial, Pharmacogenomics and
Clopidogrel: Irrational Exuberance?, 306 J. Am. Med. Ass’n 2727,
2728 (2011).
14
David R. Holmes Jr. et al., ACCF/AHA Clopidogrel Clinical
Alert: Approaches to the FDA “Boxed Warning”: A Report of the
American College of Cardiology Foundation Task Force on Clinical Expert Consensus Documents and the American Heart Association, 56 J. Am. C. Cardiology 321, 334 (2010).
13

42a
and clinical effect.15 Other independently researched studies published after the May 2009 labeling change made
similar findings.16 In fact, numerous clinical studies have
now shown that Asian patients on Plavix have better clinical outcomes (i.e., reduced heart attacks or strokes) compared to other races.17

Deepak L. Bhatt, The Relationship Between CYP2C19 Polymorphisms and Ischemic and Bleeding Outcomes in Stable Patients:
The CHARISMA Genetics Study, 33 Eur. Heart J. 2143, 2143 (2012)
(“No relationship was seen between CYP2C19 status and ischemic
outcomes in stable patents treated with clopidogrel.”); Guillaume
Paré et al., Effects of CYP2C19 Genotype on Outcomes of
Clopidogrel Treatment, 363 New Eng. J. Med. 1704, 1714 (2010)
(based on genotyping of 5,059 patients, “CYP2C19 loss-of-function
variants do not modify the efficacy and safety of clopidogrel”).
16
See, e.g., Jacob A. Doll et al., Impact of CYP2C19 Metabolizer
Status on Patients with ACS Treated with Prasugrel Versus
Clopidogrel, 67 J. Am. C. Cardiology 936, 936 (2016) (finding that
“CYP2C19 metabolizer status is not associated with the composite
outcome of cardiovascular death, MI, or stroke” in ACS patients
treated with Plavix, and noting that “[o]ur findings do not support
routine CYP2C19 genetic testing in this population”); Robert S. Kumar et al., Effect of Race and Ethnicity on Outcomes with DrugEluting and Bare Metal Stents: Results in 423,965 Patients in the
Linked National Cardiovascular Data Registry and Centers for
Medicare & Medicaid Services Payer Databases, 127 Circulation
1395 (2013).
17
Yong Huo, 2018 Update of Expert Consensus Statement on Antiplatelet Therapy in East Asian Patients with ACS or Undergoing
PCI, 64 Sci. Bull. 166, 167 (2019); Kumar et al., supra note 16; Kang
et al., Racial Differences in Ischemia/Bleeding Risk Trade-Off during Anti-Platelet Therapy: Individual Patient Level Landmark
Meta-Analysis from Seven RCTs, Thromb Haemost 2019; 119:14962; see also Koon-Hou Mak et al., Ethnic Variation in Adverse Cardiovascular Outcomes and Bleeding Complications in the
Clopidogrel for High Atherothrombotic Risk and Ischemic Stabilization, Management, and Avoidance (CHARISMA) Study, 157
Am. Heart J. 658, 658 (2009) (“[E]thnicity was not a significant, independent predictor of . . . cardiovascular event[s].”).
15

43a
53. Based on the findings in the more recent literature, even Dr. Mega herself has concluded, as part of a
2014 World Health Organization-affiliated panel, that the
combination of Plavix plus aspirin remains a “reasonable
first choice” for people of East Asian descent.18
54. And in 2015, cardiologists from Queen’s Medical Center in Hawai`i published an article in the peer-reviewed Hawai`i Journal of Medicine and Public Health
specifically addressing the State’s claim in the UDAP suit.
Notwithstanding the State’s “assert[ion] that patients of
Asian and Pacific Island ethnicity may be . . . less responsive to the actions of clopidogrel [Plavix],”19 the article observed, their research did not find “any additional supporting evidence for tailored therapy based upon genetic
testing.” The authors expressly did “not recommend the
routine testing for CYP polymorphisms as a basis for
changing antiplatelet therapies.”20
D. FDA Removes the Language Referring to
Genetic Traits and Clinical Outcomes from the
Plavix Label

55. In 2016 FDA took the rare step of removing the
language referring to the link between genetic traits and
clinical outcomes from the Plavix label.
56. Scientific discussion and debate about genetic
variability in responsiveness to Plavix continues today,
although the near unanimous view is that Plavix is effective in patients of all races and ethnicities and that routine
genetic testing is not recommended.
a. The leading medical guidelines and consensus
statements— including those authored by the
Levine et al., supra note 6, at 603.
Adnan M. Bhopalwala et al., Routine Screening for CYP2C19
Polymorphisms for Patients Being Treated with Clopidogrel Is Not
Recommended, 74 Haw. J. Med. & Pub. Health 16, 16, 19 (2015).
20
Id. at 19.
18
19

44a
Chinese Cardiology Society and the Japanese
Society of Cardiology21—currently recommend Plavix to patients regardless of their race
or genetic profile.22
b. Similarly, in its 2018 update, the World Heart
Federation reaffirmed its prior recommendation that “[d]espite a lower platelet inhibitory
response to clopidogrel, East Asian patients
show a similar or even a lower rate of ischemic
event occurrence” compared with Caucasian
patients.23
c. From 2009 to the present, 46 medical consensus
statements and guidelines have been issued in
the United States, Europe, and Asia (China, Japan, Korea, and Taiwan) addressing the use of
Plavix in various clinical settings. None of these
46 consensus statements and guidelines recommends the routine use of genetic testing to
identify patients with low or no response to
Plavix.
See, e.g., Yukio Ozaki et al., CVIT Expert Consensus Document
on Primary Percutaneous Coronary Intervention (PCI) for Acute
Myocardial Infarction (AMI) in 2018, 33 Cardiovascular Intervention & Therapeutics 178, 182-83 (2018).
22
E.g., Holmes, Jr. et al., supra note 14; Glenn N. Levine, et al.,
2016 ACC/AHA Guideline Focused Update on Duration of Dual
Antiplatelet Therapy in Patients with Coronary Artery Disease, 68
J. Am. C. Cardiology 1082 (2016); Ezra A. Amsterdam et al., 2014
AHA/ACC Guideline for the Management of Patients with NonST-Elevation Acute Coronary Syndromes, 64 J. Am. C. Cardiology
e139 (2014); Glenn N. Levine et al., 2011 ACCF/AHA/SCAI Guideline for Percutaneous Coronary Intervention: A Report of the
American College of Cardiology Foundation/American Heart Association Task Force on Practice Guidelines and the Society for
Cardiovascular Angiography and Interventions, 58 J. Am. C. Cardiology e44 (2011).
23
Huo, supra note 17, at 166.
21

45a
d. The most recent consensus statement issued by
the American College of Cardiology and American Heart Association in 2019 acknowledges
that some studies reported an association between the CYP2C19 genetic defect and clinical
outcomes in patients undergoing stent placements (as opposed to patients taking Plavix after a heart attack or stroke without stenting),
and stated that testing may be an option in certain high-risk clinical situations (e.g., complex,
multi-vessel coronary disease).24 But the authors again reaffirmed that routine genetic
testing for Plavix patients is not recommended.25 The authors also observed that despite a higher prevalence of CYP2C19 genetic
defects, East Asians did not show an elevated
risk for ischemic events.26
57. In other words, the most recent expert statement on genetic variability of response to Plavix confirms
that the drug works as well, if not better, in Asian and Pacific Islander patients.
58. Plavix continues to be prescribed in East Asian
countries.
E. The State Perceives No Public Health Risk
Surrounding Plavix in Light of FDA’s Revision
to the Plavix Label

59. Although the State had means to address any
concerns it had about the genetic variability of response
Dirk Sibbing et al., Updated Expert Consensus Statement on
Platelet Function and Genetic Testing for Guiding P2Y12 Receptor
Inhibitor Treatment in Percutaneous Coronary Intervention, 12 J.
Am. C. Cardiology Cardiovascular Interventions 1521, 1532-34
(2019).
25
Id. at 1534.
26
Id. at 1527.
24

46a
to Plavix, it neither did nor said anything suggesting the
slightest unease regarding the supposed genetic variability of response to Plavix in light of FDA’s revisions to the
Plavix label.
a. The State’s Medicaid program contractors include Plavix on their formularies and continue
to cover the drug today without restrictions
based on racial, ethnic, or genetic status.
b. The State has never sent any notification or
warning to doctors about genetic variability of
response issues related to Plavix, although it
has sent “memoranda” on other occasions to
provider health plans and prescribers with information about other drugs.
c. The State has never initiated any educational
campaigns to urge doctors to alter prescribing
practices, even though the State has initiated
such campaigns on other occasions for other
drugs.
d. Former Hawai`i Medicaid officials who worked
at the agency during the 2009-2010 labeling revisions testified during recent depositions that
they do not remember having any concerns
about Plavix or informing physicians about any
genetic issues relating to the drug.
e. State-affiliated hospitals have never imposed
any requirement or conditions with respect to
race or ethnicity on the prescription of Plavix.
60. In discovery, the Companies asked the State to
identify any alerts, warnings, or advisories regarding
Plavix that it sent providers and insurers. The State’s only
response was to refer to press conferences and news media related to the filing of the UDAP lawsuit.
61. Similarly, when asked to “describe all steps or
actions taken by the State to protect or improve the health

47a
of residents of Hawai`i from alleged Plavix-related
harms,” the State could point to nothing besides its “widespread publicity regarding the filing of the lawsuit . . .
[which] helped inform physicians, patients, and the general public about the genetic issue and the availability of
genetic testing.”
62. The State also confirmed, in response to the
Companies’ request that it identify promotional materials
on which State personnel relied in making decisions concerning coverage or reimbursement or Plavix, that the
State “has not identified any responsive documents concerning decisions by State personnel.”
63. The Companies also asked the State to “identify and describe every instance in which any Hawai`i
Medicaid, MCO, Public Entity, or Third Party Contractor
employee, agent, or consultant recommended, suggested,
or otherwise expressed the view that [the State] should
not continue to reimburse for the use of Plavix, should impose restrictions on its reimbursement, or should not include it on a PDL or formulary.” The State confirmed that
it is “not aware of any instance in which State personnel
expressed such views.”
64. The State’s expert reports confirm the lack of
any public health concern in Hawai`i regarding genetic
variability of response to Plavix. The State’s experts do
not include any cardiologist from Hawai`i, nor from any
Asian country. The reports are devoid of evidence that
any doctor in Hawai`i ever expressed concern about genetic variability of response or changed their prescribing
behavior in any way, or that anyone in Hawai`i actually
suffered harm from Plavix.

48a
F.

Contingency-Fee Lawyers Persuade the State to
Hire Them to Pursue Claims Under Hawai`i’s
Unfair or Deceptive Acts or Practices Statute

65. Five years after FDA’s label revision, in or
around 2014, private plaintiffs’ lawyers approached the
Attorney General of Hawai`i, proposing that the State retain them on a contingency fee basis to file an enforcement
action against the Companies for alleged deceptive marketing.
66. The State had exhibited no independent interest in pursuing an enforcement action against the Companies for deceptive marketing. It conceded in discovery
that the UDAP action was “a result of an investigation or
inquiry by the Attorney General” only, and not by Hawai`i Medicaid or any other public entity. The Attorney
General’s Office reported no complaints.
67. The private firms’ offer to bring and litigate an
enforcement action for civil penalties on a contingency-fee
basis presented no budgetary risk to the State, and offered a chance for a large payout if the private lawyers
prevailed.
68. The State contracted with a Hawai`i law firm,
Cronin Fried Sekiya Kekina & Fairbanks (“Cronin
Fried”). Cronin Fried, in turn, partnered with SalimBeasley LLC (“Salim-Beasley”), a plaintiffs’ firm that—
since its founding in 2012—has pursued numerous mass
tort and consumer fraud suits against pharmaceutical
companies.
69. Under the State’s contract with Cronin Fried,
that firm agrees to:
a. “[P]repare and fil[e] of all claims, pleadings, responses, motions, petitions, memoranda, briefs,
notices and other documents,”

49a
b. “[C]onduct negotiations and provide representations at all hearings, depositions, trials, appeals, and other appearances,”
c. “[C]ontrol and direct performance and details
of the work and services required under this
Agreement,”
d. “[A]dvance all costs and expenses and provide
all necessary personnel in order to comply with
any discovery request . . . [including] [w]orking
directly with State personnel who may be
tasked with responding to discovery requests,”
and otherwise
e. “[P]rovide all legal services that are reasonably
necessary.”
70. The contract further provides that Cronin
Fried “shall receive a contingency fee of 20% from the net
proceeds of any judgment or settlement,” but shall recover “no compensation for any services rendered” if the
State does not settle or is not awarded civil penalties.
71. Nothing in the contract suggests that Cronin
Fried should consider or report to the Attorney General
on the medical consequences, First Amendment implications, or even the bona fides of the claim.
72. On March 19, 2014, Salim-Beasley and Cronin
Fried initiated a civil enforcement action on behalf of the
State in the First Circuit Court of Hawai`i in 2014, seeking, among other things, civil penalties under the UDAP
statute. No attorney employed by the State signed the
pleading or appeared in the attorney signature block.
73.
In a press conference on the lawsuit, the Attorney General claimed the Companies should have disclosed that “Plavix was not effective or had a diminished
effect on people of East Asian descent or Pacific Islander
descent, of which approximately 50% of the population in
Hawai`i is of that extraction or descent.” KITV, Hawaii

50a
Files Suit Against Manufacturers of Plavix Heart Medication,
YouTube
(Mar.
19,
2014),
https://www.youtube.com/watch?v=-90U08FU9aA
(at
0:46-1:07).
74. In an interview on Hawai`i Public Radio that
same day, the Attorney General again emphasized that
Plavix “was particularly ineffective in Hawai`i” because
the State “has a very large population of Pacific Islanders
and East Asian people.” Molly Simon, Hawaii Attorney
General Sues Makers of Plavix, Hawaii Public Radio
(March 19, 2014), http://hpr2.org/post/hawaii-attorneygeneral-sues- makers-plavix (at 0:40-1:03).
75. The thrust of the claims in the UDAP suit, as
the State’s expert reports confirm, is that “[s]ince at least
1998, [the Companies] have known that over 30% of patients had little or no response to Plavix,” and that
“[r]ather than publish this information, [the Companies]
concealed it from treating physicians.” Gurbel Expert Report ¶ 28; see also Second Am. Compl. ¶ 29, State ex. rel.
Connors v. Bristol- Myers Squibb Co., No. 14-1-0708-03
DEO (Haw. Cir. Ct. Dec. 4, 2018). In other words, the
State claims that the Companies should have stated that
Plavix worked less well in certain populations more than
a decade before Dr. Mega’s study first raised the possibility and long before FDA itself believed any such warning
was warranted.
76. The State claims that the Companies engaged
in “unfair or deceptive acts or practices in the conduct of
any trade or commerce,” Haw. Rev. Stat. § 480-2(a), by—
among other things—”actively suppress[ing]” research
about genetic variability of response to Plavix, Gurbel Expert Report ¶ 79, and “failing to timely and proactively
comply with their obligation to update the Plavix label to
provide prescribing physicians with ‘adequate instructions for use,’ and to alert the FDA and physicians to the
fact that a significant portion of the population was

51a
genetically predisposed to diminished or non-responsiveness to Plavix,” id. at ¶ 123-27. See also Second Am.
Compl. ¶¶ 94, 97, State ex. rel. Connors v. Bristol-Myers
Squibb Co., No. 14-1-0708-03 DEO (Haw. Cir. Ct. Dec. 4,
2018).
77. The State does not allege that a single person
in Hawai`i was actually harmed by the Companies’ purported deceptive statements or omissions regarding
Plavix—indeed, on the State’s theory, it does not need to
allege any such harm.
78. The State seeks to punish the Companies
through civil penalties of up to $10,000, per Company under the UDAP statute beginning in 1998 for each repeated
violation of the UDAP, see Haw. Rev. Stat. § 480-3.1, and
additional civil penalties of up to $10,000, per violation, per
Company, for each repeated and willful violation of the
UDAP statute directed toward or that targeted elders, see
id. § 480-13.5. The State has provided expert witness testimony from Dr. Nicole Maestas purporting to quantify
and support its claim for penalties. In her report, served
on December 29, 2019, Dr. Maestas asserted that the total
number of Plavix prescriptions and non-retail units sold
in Hawai`i during the relevant period is 834,012. Expert
Report of Nicole Maestas, PhD (Dec. 29, 2019), State ex
rel. Connors v. Bristol-Myers Squibb Co. No. 14-1-070803 DEO (Haw. Cir. Ct.), ¶ 42. Dr. Maestas calculated penalties “ranging from a minimum of $417,006,000 to a maximum of $8,340,120,000.” Id. ¶ 43.
79. The State also seeks disgorgement and punitive damages.
80. Salim-Beasley subsequently withdrew from the
litigation, and a Texas law firm, Baron & Budd, P.C. took
over the case.
81. Contrary to Hawai`i’s procurement statute,
the State has no formal contract with Baron & Budd.

52a
Instead, Cronin Fried has apparently retained Baron &
Budd as “outside assistance.” The State’s contract with
Cronin Fried provides that “the Attorney General shall
have final authority over all aspects of this Litigation” and
“must approve in advance all aspects of this Litigation.”
The State has no such agreement with Baron & Budd.
Any control or supervision of Baron & Budd by the Attorney General is, at best, indirect.
82. Moreover, Hawai`i relies on an expert who is
also a relator in a qui tam suit regarding Plavix in New
Jersey federal court involving allegations and claims similar to those in the Hawai`i UDAP suit. Gurbel Expert
Report; see United States ex rel. JKJ Partnership 2011,
LLP v. Sanofi Aventis, U.S. LLC, 315 F. Supp. 3d 817
(D.N.J. 2018). That case is now on appeal. Dr. Gurbel does
not disclose in the UDAP litigation that he stands to gain
tens of millions of dollars if courts accept his theory.
VIOLATIONS OF LAW

83. The Free Speech Clause of the First Amendment of the United States Constitution provides that
“Congress shall make no law . . . abridging the freedom of
speech.” U.S. Const. amend. I. The Fourteenth Amendment of the United States Constitution made this proscription applicable to the States and their political subdivisions. E.g., NIFLA, 138 S. Ct. at 2371.
84. In addition to providing protections against restrictions on speech, the First Amendment protects
against the government’s compelling individuals or entities to engage in speech. Compelled speech ordinarily is
subject to strict scrutiny. See, e.g., id. at 2371; Wooley v.
Maynard, 430 U.S. 705, 715-17 (1977). As the Supreme
Court held just last Term, “[f]orcing free and independent
individuals to endorse ideas they find objectionable is always demeaning, and for this reason, one of our landmark
free speech cases said that a law commanding ‘involuntary
affirmation’ of objected-to beliefs would require ‘even

53a
more immediate and urgent grounds’ than a law demanding silence.” Janus v. Am. Fed’n of State, Cty., & Mun.
Employees, Council 31, 138 S. Ct. 2448, 2464 (2018) (quoting W. Va. Bd. of Ed. v. Barnette, 319 U.S. 624, 633 (1943)).
85. Over the past several decades, the Supreme
Court has expanded the First Amendment protections accorded to commercial speech. See, e.g., Expressions Hair
Design v. Schneiderman, 137 S. Ct. 1144, 1150-51 (2017)
(holding that a law regarding merchants’ communications
of credit card surcharges to customers implicated constitutionally protected speech). Regulations of speech, including commercial speech, that are based on speaker,
content, or viewpoint, are presumptively invalid, and are
subject to “heightened judicial scrutiny.” Sorrell, 564 U.S.
at 565. Heightened scrutiny ranges from strict scrutiny—
which requires that the regulation be narrowly tailored to
serve a compelling state interest, Reed v. Town of Gilbert,
Ariz., 135 S. Ct. 2218, 2226 (2015)—to, at minimum, the
less demanding, but still rigorous, standard of Central
Hudson Gas & Electric Corp. v. Public Service Commission, 447 U.S. 557, 566 (1980)—which requires that the
regulation be no more extensive than necessary to directly advance a substantial government interest.
86. The Supreme Court’s reinforcement of the protections for commercial speech reached new heights in
2018. In NIFLA v. Becerra, 138 S. Ct. 2361, itself a noncommercial case, the Court made clear that a regulation
that compels, rather than restricts, commercial speech
can survive First Amendment scrutiny only if it is “purely
factual and uncontroversial,” and even then, only if the
regulation is not “unjustified or unduly burdensome.” See
also, e.g., Zauderer v. Office of Disciplinary Counsel, 471
U.S. 626 (1985); Am. Beverage Assoc. v. City & County of
S.F., 916 F.3d 749, 756-58 (9th Cir. 2019) (en banc) (granting preliminary injunction against required warning for
sweetened beverages); Nat’l Ass’n of Wheat Growers v.

54a
Zeise, 309 F. Supp. 3d 842, 850-54 (E.D. Cal. 2018) (granting preliminary injunction against state-required carcinogenicity warning for herbicide). The State bears the burden of establishing that its regulation of speech meets
these standards. Sorrell, 564 U.S. at 571-72; Edenfield v.
Fane, 507 U.S. 761, 770-71 (1993).
A.

The State’s UDAP Penalty Claims Violate the
Companies’ First Amendment Rights

87. The State’s lawsuit to enforce a legal duty to
provide an adequate warning constitutes state action that
is subject to the First Amendment. Here, the State’s
UDAP enforcement action against the Companies for alleged failure to warn about genetic variability of response
to Plavix violates the First Amendment for two reasons.
88. First, the State’s UDAP suit attempts to compel the Companies to express specific views about Plavix
on the package insert—views that the Companies (as well
as almost all medical experts) believe are wrong, and that
never had strong support, but rather were highly controversial and contested in the scientific literature. The burdens the lawsuit places on the Companies’ speech fail any
level of scrutiny.
89. Second, the State seeks to impose exorbitant
penalties on the Companies’ speech without a showing of
harm or malice. Hawai`i’s UDAP statute relieves the
State of the need to show harm or malice in order to pursue a penalty action against the Companies. The Supreme
Court has held that such a mismatch between the burdens
imposed and the putative state interests violates the First
Amendment.
1.

The State’s UDAP penalty claims cannot survive
heightened scrutiny

90. The State’s UDAP claims attempt to force the
Companies to make specific, controversial statements
about Plavix on the package insert.

55a
91. The compelled speech in this case is noncommercial and thus subject to strict scrutiny. The package
insert does not “propose a commercial transaction.” Va.
State Bd. of Pharmacy v. Va. Citizens Consumer Council,
Inc., 425 U.S. 748, 760 (1976). The patient or consumer
does not see the insert before receiving the product, if
ever. See, e.g., Craft v. Peebles, 893 P.2d 138, 155 (Haw.
1995) (learned intermediary doctrine “substitutes the
[prescribing] physician for the consumer as the person to
receive … warnings” (citations omitted)). Moreover, FDA
regulations require that the labeling “be informative and
accurate and neither promotional in tone nor false or misleading in any particular.” 21 C.F.R. § 201.56(a)(2). These
regulations preclude use of the package insert as a “commercial advertisement for the sale of goods and services,”
U.S. Healthcare, Inc. v. Blue Cross of Greater Phila., 898
F.2d 914, 933 (3d Cir. 1990) (citing Bolger v. Youngs Drug
Prods. Corp., 463 U.S. 60, 66-67 (1983); Central Hudson,
447 U.S. at 561).
92. But even if information on a package insert
were treated as commercial speech, the State’s actions
would still impermissibly intrude on the Companies’ First
Amendment rights.
93. The State’s regulation of speech here discriminates on the basis of speaker, content, and viewpoint. It is
speaker-based because it targets pharmaceutical companies. No one other than the Companies is required to
make the challenged statements. The State’s regulation of
speech is content-based because it seeks to control the
content of the Companies’ speech about Plavix. And the
State’s regulation of speech is viewpoint-based because it
seeks to require the Companies to adopt a viewpoint at
odds with their position about Plavix. The regulation
therefore must withstand heightened scrutiny.
94. The State cannot show that compelling speech
through a UDAP lawsuit, piloted by private contingency-

56a
fee plaintiffs’ lawyers, is narrowly tailored to serve a compelling interest. Indeed, the State’s regulation of speech
through this UDAP enforcement action cannot even meet
the Central Hudson test. The UDAP suit extends farther
than necessary to directly advance a substantial government purpose—it does not advance even a legitimate government purpose. Nor can the State invoke the standard
applicable to purely factual, noncontroversial and appropriate compelled commercial speech. The warnings the
State seeks to mandate are not purely factual. They are
controversial. And mandating that they be included on the
Plavix label is both unjustified and an undue burden on
the Companies’ First Amendment rights.
a. The State’s preferred warnings are
neither factual nor uncontroversial
95. The State seeks to penalize the Companies for
“failing to disclose, in Plavix’s labeling and otherwise, that
Plavix has diminished or no effect on a significant percentage of the patient population,” as well as by marketing
Plavix as “more effective and safer than other competitor
drugs in Plavix’s labeling and otherwise.” In other words,
the State’s theory of liability is that the Companies should
have voiced the State’s preferred opinions about the genetic variability of response to Plavix from 1998 to the present.
96. The warning the State would mandate is not
purely factual. It reflects opinions—indeed, wrong opinions. The overwhelming consensus of scientific experts,
cardiology organizations and regulatory authorities is
that no evidence supports a need for routine genetic testing, or a warning that East Asian or Pacific Islander patients have worse clinical outcomes while on Plavix.
97. Throughout the period covered by the State’s
UDAP action, the views the Companies expressed about
Plavix in its labeling were truthful and consistent with the
scientific evidence. The genetic variability of response to

57a
Plavix was the subject of active scientific debate perhaps
a decade ago, but the Companies’ view that Plavix is safe
and effective without regard to race or ethnicity has long
reflected and continues to reflect the overwhelming medical consensus.
b. The State has no genuine interest in
requiring the Companies to warn about
genetic variability of response
98. The State may only regulate commercial
speech that is not “purely factual and uncontroversial” if
doing so would, at minimum, “directly advance a substantial government interest” and the measures are “no more
extensive than necessary to serve that interest”—assuming that the even more rigorous standard of strict scrutiny
does not apply.
99. Here, the State has no legitimate government
interest in requiring the Companies to include information warning about the alleged genetic variability of response to Plavix.
100. Before private law firms approached the Attorney General proposing that the State hire them on a contingency fee basis to litigate a UDAP enforcement action
seeking hundreds of millions of dollars in civil penalties,
the State had exhibited no concern about the issue of variability of response to Plavix.
101. It appears that the State itself had never conducted any investigations or inquiries regarding Plavix,
and never took steps to alert doctors about any concerns
regarding genetic variability of response to Plavix. Even
today, the State’s Medicaid insurers continue to recommend and cover Plavix for patients of all races without genetic testing. In recent testimony in the UDAP enforcement action, State Medicaid officials reported that they
recalled no concerns about the drug.

58a
102. Even assuming the State did have a legitimate
interest in public health and safety or consumer protection, the lawsuit, and the warnings the State seeks to impose, are more extensive and burdensome than necessary
to serve that interest.
103. The State would apparently have the Companies say that Plavix has a diminished effect on approximately 30% of the patient population and that a simple genetic test would identify the patients for whom Plavix
would not work. There is no scientific basis for such a
statement—not now, and certainly not in 1998, when the
State claims the Companies should have informed about
this alleged risk. In fact, FDA in 2016 removed from the
Plavix label the only language suggesting that those with
a genetic variation had worse clinical outcomes than other
patients—confirming that such warnings are unnecessary. Moreover, the way the State would coerce the Companies to make these statements is through a massive
award of civil penalties that will chill speech not only about
Plavix, but also about other drugs, and not only by BMS
and Sanofi, but also by other pharmaceutical companies.
104. The State cannot avoid these constitutional limits on the compulsion of speech by claiming that the Companies’ speech, absent the language the State seeks to
mandate, is misleading. Cf. Central Hudson, 447 U.S. at
566. A claim of falsity does not automatically strip away
First Amendment protections. “[E]rroneous statement is
inevitable in free debate, and it must be protected if the
freedoms of expression are to have the ‘breathing space’
that they ‘need . . . to survive.’” N.Y. Times v. Sullivan,
376 U.S. 254, 271-72 (1964) (alteration in original) (quoting
NAACP v. Button, 371 U.S. 415, 433 (1963)).
105. Indeed, the very process of determining
whether a statement is false or misleading can have
chilling effects. As the Supreme Court pointed out in
Gertz, 418 U.S. at 340, “punishment of error runs the risk

59a
of inducing a cautious and restrictive exercise of the constitutionally guaranteed freedoms of speech and press.”
See also, e.g., id. at 341 (noting the “fear that the prospect
of liability for injurious falsehood might dissuade a timorous press from the effective exercise of First Amendment
freedoms”). Therefore, the Court has held, “First Amendment standards . . . must give the benefit of any doubt to
protecting rather than stifling speech.” Citizens United v.
FEC, 130 S. Ct. 876, 891 (2010).
106. The Court has clarified that only “inherently
misleading” speech—i.e., speech that “may [not] be presented in a way that is not deceptive”—falls outside the
usual First Amendment protection. In re R.M.J., 455 U.S.
191, 203 (1982); see also Pearson v. Shalala, 164 F.3d 650,
655 (D.C. Cir. 1999). The Companies’ position about Plavix
is not “inherently misleading;” it reflects the expert medical consensus.
107. In any event, a contention that the Companies’
statements were misleading would simply assume the validity of the State’s UDAP claims. And the overwhelming
scientific consensus—including dozens of peer-reviewed
articles that support the Companies’ position—makes
plain that such an assumption would be plainly unwarranted.
2.

The State’s UDAP enforcement action
impermissibly seeks penalties without a
showing of harm

108. The State’s enforcement action also violates the
First Amendment because the Hawai`i UDAP statute
permits the State to recover penalties without showing injury to any person or institution, or malice by the Companies. Unlike the consumer protection statutes of many
states, Hawai`i’s UDAP statute imposes a minimum $500
penalty per violation, leaving the court no discretion to
forgo penalties even absent any injury. Compare, e.g.,
Haw. Rev. Stat. § 480-3.1, with, e.g., W. Va. Code § 33-11-

60a
6, and Cal. Bus. & Prof. Code § 17206(b). In other words,
the UDAP civil penalty provisions relieve the State of the
need to justify burdening speech through an enforcement
action. The First Amendment does not permit such a mismatch between the burden on speech and any putative
state interest in penalizing false or misleading statements.
109. Indeed, the Supreme Court in Gertz, 418 U.S.
at 349, addressed a similar “oddity of tort law” that permitted damages for defamation “without evidence of actual loss.” The Court held that the “strong and legitimate
state interest” in compensating injured private parties
“extends no further than compensation for actual injury.”
Id. at 348-49. Discretion “to award damages where there
is no loss,” the Court found, “unnecessarily compounds
the potential of any system of liability for defamatory
falsehood to inhibit the vigorous exercise of First Amendment freedoms.” Id. at 349. Only where the defendant
acted with actual malice could there be liability without
injury. Id.
110. As the Court explained in New York Times v.
Sullivan, 376 U.S. at 277- 78, absent such a limitation and
“the need for any proof of actual pecuniary loss,” the prospect of massive, disproportionate verdicts creates “an atmosphere in which the First Amendment freedoms cannot survive.” The Court reaffirmed Gertz in Dun & Bradstreet, Inc. v Greenmoss Builders, Inc., 472 U.S. 749, 763
(1985) (plurality opinion), barring presumed or punitive
damages absent actual malice in defamation cases on matters of public concern.
111. Insofar as Hawai`i asserts some generalized
interest in deterring false statements, it is no more substantial than the state’s interest in Gertz, 418 U.S. at 341,
in upholding “the individual’s right to the protection of his
own good name,” which the Court revered as fundamental, “reflect[ing] no more than our basic concept of the

61a
essential dignity and worth of every human being—a concept at the root of any decent system of ordered liberty.”
112. Nor is there reason to believe that imposing
penalties without injury or actual malice is necessary to
further any such interest. It is no serious burden on the
State to establish those elements as a predicate for a
UDAP enforcement action. The UDAP enforcement provision and the State’s deployment of it here therefore cannot stand.
B. The State’s Pursuit of a UDAP Enforcement
Action Chills Legitimate Scientific Debate

113. The First Amendment harms to the Companies
are ongoing. Every day that the UDAP suit is pending,
the threat of punishment for failing to make the State’s
preferred statements about Plavix intolerably threatens
not only the scientific discussion that continues with respect to genetic variability of response to Plavix, but also
debate about other drugs. That scientific debate is necessary to medical progress.
114. The Supreme Court has stated that, “in the
area of freedom of speech[,]. . . courts must always remain
sensitive to any infringement on genuinely serious. . . scientific expression.” Miller v. California, 413 U.S. 15, 2223 (1973); see also, e.g., Bd. of Trs. of Leland Stanford
Junior Univ. v. Sullivan, 773 F. Supp. 472, 474 (D.D.C.
1991) (“[T]he First Amendment protects scientific expression and debate just as it protects political and artistic expression.”). The First Amendment serves a critical function “in the fields of medicine and public health, where information can save lives.” Sorrell, 564 U.S. at 566.
115. By seeking enforcement against the Companies under the UDAP statute for the Companies’ alleged
failure to warn about the supposed genetic variability of
response to Plavix, the State communicates that at its
whim, pharmaceutical manufacturers must take public

62a
positions and provide warnings that they believe are scientifically unjustified, or else face the prospect of hundreds of millions, if not billions, in penalties.
116. The chill is intensified given that the Companies’ liability will depend on whether a lay jury or judge
without expertise in the complex scientific issues at stake
can be persuaded that the information the Companies did
provide was not misleading—a situation that “is delicate
and sensitive and has serious implications for the right to
freedom of expression.” Nat’l Rev., Inc. v. Mann, 140 S.
Ct. 344, 346 (Alito, J., dissenting from the denial of certiorari). Whether “assertions about. . . scientific data can be
shown to be factually false” is “highly technical” and “not
an easy matter for lay jurors to assess.” Id. And when allegedly false or misleading speech “concerns a political or
social issues that arouses intense feelings, selecting an impartial jury presents special difficulties.” Id. These factors make it all the more likely that the Companies will
refrain from making statements about their products with
which the State may disagree, for fear that an inexpert
court or jury will later be the arbiter of the truth of those
statements.
117. The chilling effects of this lawsuit range beyond
the parties, to all pharmaceutical companies marketing
products that are the subject of scientific—or even unscientific—controversy. Rather than risk incurring crippling
liability, companies may refrain from participating in the
scientific debate, or from engaging in truthful speech
about their products where that speech does not accord
with the State’s views. The threat of massive liability similarly pressures companies to provide warnings beyond
what is necessary or even prudent, in order to avoid assaults by private plaintiffs’ lawyers who have appropriated the powers, as well as the credibility, of the State.

63a
C.

The State’s Delegation of Its Enforcement
Authority to Private Contingency Fee Counsel
Heightens the Intrusion on the Companies’ First
Amendment Rights

118. The State’s imposition on the Companies’ First
Amendment rights is even more problematic, and has
even greater chilling effect, because the State has delegated its enforcement power to private outside counsel
who are subject neither to the ordinary safeguards
against private regulation of speech, nor to institutional
constraints on government regulation of speech.
119. As far as can be discerned from the public, nonprivileged aspects of the case, the State has left the direction of the litigation to its private contingency- fee counsel. No State attorney has entered any appearance as
counsel of record, signed any significant pleadings or motions, argued at a hearing, or taken or defended a deposition.
120. Legal regimes that delegate to private parties
the authority to bring enforcement actions against allegedly false or misleading speech lack the traditional “legal
and practical checks that tend to keep the energies of public enforcement agencies focused upon more purely economic harm,” and that protect against undue intrusion on
First Amendment rights. Nike, Inc. v. Kasky, 539 U.S.
654, 679-80 (2003) (Breyer, J., dissenting from dismissal
of writ of certiorari as improvidently granted); Brief for
the United States as Amicus Curiae Supporting Petitioners at 9- 26, Nike, Inc. v. Kasky, 539 U.S. 654 (No. 02-575),
2003 WL 899100; cf. Reno v. ACLU, 521 U.S. 844, 880
(1997) (striking down a provision of the Communications
Decency Act of 1996 because “[i]t would confer broad powers of censorship, in the form of a ‘heckler’s veto,’ upon
any opponent of indecent speech who might simply log on
and inform the would-be discoursers that [a minor] child
. . . would be present”).

64a
121. This is a case in point. By authorizing private
contingency-fee counsel to pursue the UDAP claims, putatively on the State’s behalf, the State enables those attorneys to circumvent the ordinary limits on private suits
that regulate speech.
122. For example, private plaintiffs generally may
not bring actions to punish or restrict speech absent some
showing of actual injury or reliance. See Gertz, 418 U.S. at
348-49. But the UDAP statute allows the State to bring a
civil enforcement action without alleging those elements,
Haw. Rev. Stat. § 480-3.1, and the State’s retention of private counsel permits those private attorneys to litigate
UDAP claims unencumbered by the doctrinal limits that
would ordinarily apply to them.
123. And while other legal and practical safeguards
provide checks on the State’s enforcement authority and
generally prevent undue intrusion on First Amendment
rights, those institutional checks do not constrain private
counsel. For instance, State officials are elected or otherwise appointed to serve the public interest, and thus have
an obligation to bring only actions that are a sound use of
public resources and that promote the public interest. See
Restatement (Third) of the Law Governing Lawyers § 97
& cmt. b; State v. Lead Indus. Ass’n, Inc., 951 A.2d 428,
471-76 (R.I. 2008) (describing the distinct role of the Attorney General). But counsel for private parties are not
elected or appointed to serve the public interest, are not
subject to public oversight and supervision, are not stewards of limited public resources, and do not have to exercise prosecutorial discretion in their day-to-day practice.
Private lawyers spend their careers seeking to win cases
on behalf of clients whether or not the public interest or
the interests of justice require it, see Model Rule of Professional Conduct 1.2, 1.3 & cmt. 1, and whether or not
winning infringes on the defendants’ constitutional rights.
These lawyers routinely allow the adversarial system to

65a
resolve issues that a government lawyer would not let get
that far.
124. The incongruity between the obligations of government lawyers and private lawyers creates the possibility of abuse when private lawyers are retained to litigate
on behalf of governmental clients and must suddenly assume a fundamentally different role.
125. When constitutional rights are at stake, it cannot be left to private lawyers to voluntarily abide by the
unique obligations that apply to government lawyers—especially when those private lawyers are operating under
a contingency-fee arrangement. The financial incentives
intrinsic to such arrangements create an overwhelming
incentive to pursue a judgment or settlement in the government’s favor—even if that outcome would be at odds
with the public interest or impinge on the constitutional
rights of regulated parties. And here, where the State’s
baseless enforcement action against BMS and Sanofi for
failing to make specific statements about Plavix itself constitutes and imposes continuing harm as a First Amendment violation, those incentives do not merely threaten
fundamental constitutional rights—they impel contingency fee counsel to violate them.
COUNT I
(42 U.S.C. § 1983 - Violation of the
First Amendment to the United States Constitution)

126. The foregoing paragraphs are incorporated by
reference as if set forth in full herein.
127. The Free Speech Clause of the First Amendment of the United States Constitution provides that
“Congress shall make no law . . . abridging the freedom of
speech.” U.S. Const. amend. I. The Fourteenth Amendment of the United States Constitution makes this proscription applicable to the States and their political subdivisions. E.g., NIFLA, 138 S. Ct. at 2371.

66a
128. In addition to protecting against restrictions on
speech, the First Amendment strictly limits the government’s ability to compel individuals or entities to speak
when they do not wish to do so.
129. The State’s action under the UDAP statute
seeks, by means of massive punitive sanctions, to compel
the Companies to provide specific warnings on the labeling for Plavix regarding genetic variability of response.
130. The State seeks to recover these civil penalties
even though it has not alleged—and contends it need not
allege—that anyone actually suffered injury from Plavix.
131. The warning that the State claims the Companies should have provided is neither factual nor uncontroversial, and is unduly burdensome and unjustified. Contrary to the State’s proposed warning, there is no established link between genetic traits and clinical outcomes for
patients using Plavix, and medical experts, professional
associations, and regulatory agencies do not recommend
routine genetic testing.
132. The warnings that the State claims the Companies should have provided would have been inaccurate.
133. At a minimum, the warnings that the State
claims the Companies should have provided were the subject of active scientific debate during some of the period
covered by this lawsuit, and conflicted with the overwhelming scientific consensus thereafter.
134. The State’s attempt to compel speech about genetic variability of response to Plavix is speaker-based,
content-based, and viewpoint-based.
135. Having conducted no serious investigation of
Plavix, identified no medical concerns, and never contemplated this lawsuit before private lawyers presented it as
a gift-wrapped package, the State lacked any legitimate
sovereign interest in initiating a UDAP enforcement action against the Companies to compel them to warn on the

67a
labeling of Plavix that the drug is less effective for patients with certain genetic traits. The State still lacks any
legitimate sovereign interest in prosecuting the suit, particularly through private lawyers.
136. The State’s UDAP action is not narrowly tailored to serve a compelling government interest.
137. The State’s UDAP action does not directly advance a substantial government interest and burdens
First Amendment rights more extensively than necessary
to serve that interest.
138. The State’s UDAP action, with the prospect of
hundreds of millions or billions of dollars in liability for
engaging in truthful speech, chills the Companies and
other pharmaceutical manufacturers from engaging in
scientific debates about Plavix as well as about other products.
PRAYER FOR RELIEF

WHEREFORE, Plaintiffs Bristol-Myers Squibb
Company, Sanofi-Aventis U.S. LLC, Sanofi US Services
Inc., and Sanofi-Synthelabo LLC demand judgment
against the State as follows:
a. A declaration, pursuant to 28 U.S.C. § 2201, that
the State’s pursuit of a civil enforcement action
against the Companies under Hawai`i’s UDAP
statute for alleged failure to warn about genetic
variability of response to Plavix violates the First
Amendment of the U.S. Constitution.
b. In the event the Court does not enter the declaration requested above, a declaration, pursuant
to 28 U.S.C. § 2201, that the State’s initiation and
prosecution of a civil enforcement action against
the Companies under Hawai`i’s UDAP statute
for alleged failure to warn about genetic variability of response to Plavix, using private

68a

c.

d.

e.

f.

contingency fee counsel, violates the First
Amendment of the U.S. Constitution.
Preliminary and permanent injunctive relief prohibiting the State from pursuing a civil enforcement action against the Companies under Hawai`i’s UDAP statute for alleged failure to warn
about genetic variability of response to Plavix.
In the event the Court does not grant the injunctive relief requested above, preliminary and permanent injunctive relief prohibiting the State
from using private contingency fee counsel to litigate its UDAP enforcement action against the
Companies statute for alleged failure to warn
about genetic variability of response to Plavix.
All costs, attorneys’ fees, and expenses that the
Companies reasonably incur, see 42 U.S.C.
§ 1988.
Such other and further relief as this Court deems
just and proper.

DATED: Honolulu, Hawai`i, January 7, 2020.
/S/ PAUL ALSTON
PAUL ALSTON
LOUISE K. Y. ING
ANAND AGNESHWAR
(Pro Hac Vice pending)
DANIEL PARISER
(Pro Hac Vice pending)
ROBERT N. WEINER
(Pro Hac Vice pending)
SALLY L. PEI
(Pro Hac Vice pending)
Attorneys for Plaintiffs

69a
APPENDIX E

IN THE CIRCUIT COURT OF THE FIRST CIRCUIT
STATE OF HAWAI‘I
STATE OF HAWAI‘I, EX REL. CLARE E. CONNORS,
ATTORNEY GENERAL,
PLAINTIFF,
VS.
BRISTOL-MYERS SQUIBB COMPANY, SANOFI-AVENTIS
U.S. LLC, SANOFI US SERVICES INC., formerly known as
SANOFI-AVENTIS U.S. INC., SANOFI-SYNTHELABO, INC.,
SANOFI S.A., and DOE DEFENDANTS 2 TO 100,
DEFENDANTS.
Civil No. 14-1-0708-03 DEO
(Other Non-Vehicle Tort)
Trial Date: October 26 2020—November 20, 2020
Trial Judge: Honorable Dean E. Ochiai
FINDINGS OF FACT, CONCLUSIONS OF LAW,
DECISION AND ORDER

This is a civil enforcement action brought on behalf of
and in the name of the State of Hawai`i by its Attorney
General (“State” or “Plaintiff”), against Defendants
Bristol-Myers Squibb Company (“BMS”) and Sanofi
Aventis U.S. LLC, Sanofi US Services Inc., formerly
known as Sanofi-Aventis U.S. Inc., and Sanofi-Synthelabo
Inc. (collectively “Sanofi,” and, together with BMS, “Defendants”), under Chapter 480, Hawai`i Revised Statutes

70a
(“UDAP”), Section 661-10, Hawai`i Revised Statutes, and
other applicable Hawai`i law.1
The gravamen of the State's Second Amended Complaint is that Defendants marketed their prescription antiplatelet medication, Plavix (generic name clopidogrel),
in an unfair or deceptive manner, in violation of Hawai`i
Revised Statutes (“HRS”) Section 480-2 (“HRS § 480-2”
or “Section 480-2”) and other applicable Hawai`i law, by
failing to warn Plavix patient-consumers and their prescribing physicians that Plavix had diminished or no effect
for many patients, particularly those of East Asian and/or
Pacific Island ancestry due to the prevalence of genetic
variants (“polymorphisms”) in the enzymes produced in
the livers of these patient populations. The State asserts
that Defendants engaged in these alleged unfair or deceptive acts or practices from the time that Defendants first
began selling Plavix in December 1998 (hereinafter
“launch”) until a “boxed warning,” also known colloquially as a “Black Box Warning,” was added to the Plavix
label at the insistence of the U.S. Food and Drug Administration (“FDA”) sometime in or after March 2010.
In its Second Amended Complaint the State prayed
for declaratory and injunctive relief, civil penalties, disgorgement of profits, punitive damages, attorneys’ fees,
costs of suit, and such other and further relief as the Court
deems just in the premises.
By agreement of the parties, this matter was tried before the Court without a jury over a period of four weeks,
beginning on Monday, October 26, 2020 and ending on
Friday, November 20, 2020. Due to the COVID-19

At one time, the Sanofi Defendants’ French parent company,
Sanofi S.A., was also a party to this action. However, it was dismissed as a party by agreement on February 14, 2020. [Dkt.
No. 726]
1

71a
pandemic the trial was conducted entirely via the Zoom
videoconferencing platform.
As set forth in more detail below, the Court finds in
favor of the State and against Defendants for the relief set
forth herein.
Citations to specific evidence herein are merely illustrative and are not intended to reflect the entire body of
evidence adduced at trial that supports the Court's findings and conclusions.
FINDINGS OF FACT

1. Plavix, whose generic name is clopidogrel bisulfate
(hereinafter “Plavix” or “clopidogrel”), is an oral “antiplatelet” medication in tablet form. “Platelets” are cells
that circulate in the bloodstream and bind together —
“aggregate” — to form clots when a blood vessel is damaged. Antiplatelet medications are designed to inhibit the
aggregation of platelets when the formation of clots is undesirable, for example when a patient has recently suffered a heart attack or stroke and is at risk of another adverse event if the formation of clots is not prevented.
2. Plavix, was developed, manufactured, and placed
into the prescription drug marketplace by defendants
BRISTOL-MYERS SQUIBB COMPANY, SANOFIAVENTIS U.S. LLC, SANOFI US SERVICES INC.
formerly known as SANOFI-AVENTIS U.S. INC., and
SANOFI-SYNTHELABO LLC (hereafter collective
identified as “Defendants”).
3. In the early 1990’s new developments were taking
place to treat cardiac events due to narrowing or
“clogged” arteries. Balloon catheterization with the installation of an arterial stent was becoming a popular alternative to open heart bypass surgery. This new process
was less invasive and produced the desired result without
the need for major open-heart surgery.

72a
4. One of the negative outcomes of heart stent insertions was that platelets reacted to the stents and formed
clots thereby reducing or stopping the effectiveness of the
stent.
5. The formation of clots in the blood vessel of a patient who has recently suffered a heart attack or stroke,
or who suffers from other cardiovascular conditions such
as peripheral artery disease (“PAD”), can have catastrophic, and often fatal, consequences. The purpose of
antiplatelet medications like Plavix is to reduce the risk of
such recurrent adverse events by inhibiting platelet aggregation.
6. Plavix is what is known as a “prodrug.” Unlike
most medications, which are active when ingested, a prodrug must be activated by the patient's body, usually by
enzymes in the patient's liver (“hepatic enzymes”), but
sometimes by enzymes elsewhere in the patient’s body or
other mechanisms of action.2 If, for any reason, the patient’s body fails to bioactivate the prodrug, it is effectively a placebo and remains inert within the body until it
is eliminated,3 in which case the patient receives none of
the risk reduction or other benefit intended. If the patient’s body only partially activates the prodrug, the patient may, to a greater or lesser degree, receive only partial benefit or risk reduction, which may be insufficient to
prevent an adverse event.
7. Plavix is a prescription drug, and like all prescription drugs its marketing, sale and prescription are subject
to regulation by the U.S. Food and Drug Administration
An enzyme is a substance, almost always a protein, which acts as
a catalyst in living organisms, regulating the speed of biological reactions.
3
When used herein, terms such as “bioactivate” and “bioactivation” mean the conversion of a prodrug to its active metabolite in
order for the prodrug to produce its intended effect.
2

73a
(“FDA”). The FDA determines the approved uses (“indications”) to which a prescription drug may be put, and under what circumstances it may be prescribed. The FDA
also issues regulations that impose various obligations on
a drug manufacturer regarding labeling of a drug, as well
as obligations and limits regarding the manufacturer’s
marketing of the drug.
8. In order to obtain FDA approval of a new drug, a
manufacturer or other “sponsor” must file a “New Drug
Application” and subject the drug to a series of preclinical
and clinical trials. Preclinical trials involve study of the
drug in vitro or in animals. Clinical trials involve study of
the drug in humans. Clinical trials ordinarily consist of
three “phases”: (a) Phase I, a study of the drug in a relatively small group of healthy volunteers or patients with
the disease/condition over a period of several months in
order to determine the appropriate dosage for the drug,
how it should be given, and how it affects the body; (b)
Phase II, a study of up to several hundred patients with
the disease/condition over a period of several months to
two years in order to evaluate the drug’s efficacy and side
effects; and (c) Phase III clinical studies are often referred to as “pivotal” clinical studies because they are the
studies upon which the FDA bases its final determination
of whether the drug is safe and effective for use in humans
for the indication that will be on the drug’s label. Phase
III studies are large, usually thousands of patients, complex and expensive to perform.
9. The Phase III trial for Plavix (clopidogrel) involved a combined head-to-head comparison of Plavix to
aspirin for the treatment of three different cardiovascular
conditions, myocardial infarction (heart attack), ischemic
stroke, and peripheral artery disease (“PAD”). The trial
is known by the acronym “CAPRIE” (Clopidogrel versus
Aspirin in Patients at Risk of Ischemic Events).

74a
10. In CAPRIE, Plavix was compared to aspirin because aspirin is also an antiplatelet medication. Aspirin
has proven effective (versus placebo) in reducing cardiovascular events in patients with recent heart attack or
stroke. In 1997 aspirin was considered the standard of
care antiplatelet agent for prevention of arterial thromboses.
11. The results of the CAPRIE study showed only
marginal overall benefit over aspirin across the three cardiovascular conditions studied. For patients who enrolled
in the trial on the sole basis of a recent myocardial infarction, Plavix was numerically inferior to aspirin. The
CAPRIE study showed a significant relative risk reduction for study participants with PAD (23.7%), but the risk
reduction was less significant for study participants who
had suffered a recent stroke (7.3%) and was actually less
than aspirin for those who had recently suffered a heart
attack (-4.0%). As a result, Plavix was not approved for
the primary prevention of heart attack, stroke and/or
PAD and was instead approved only for the secondary
treatment of patients who had already suffered a heart attack or stroke or who had previously been diagnosed with
PAD. This approval was issued on November 17, 1997.
12. When Defendants were seeking approval to conduct the CAPRIE clinical trial they made a commitment
to the FDA to study the effects of race during the trial.
Yet, when the study was conducted Defendants included
only 5% non-Caucasians. Nevertheless, as relevant here,
the trial did detect a statistically significant disparity in
the number of adverse events suffered by non-white racial
groups. (“There was a significant interaction between
treatment and race (p=0.006), The event rate was higher
for clopidogrel in Black patients, Oriental patients, and
patients of “Other” race....”)
13. This racial disparity in the response to Plavix was
contained in Defendants’ January 13, 1997 internal report

75a
of the CAPRIE study (hereinafter “CAPRIE Report).
However, the medical article about the results of that
trial, which was published for the broader medical community, made no mention of this statistically significant
racial disparity (hereinafter “CAPRIE Article”). As a result, outside scientific researchers were denied this important information, which likely impeded the evolution of
the science in this area.
14. In February of 1997, the Defendants completed
an internal report, “MIH0012,” which revealed that three
Cytochrome P450 genes were principally involved in the
metabolism of Plavix within the body, specifically the
isoforms CYP2B6, CYP2C19 and CYP3A4, but others —
CYP1A2, CYP2C9 and CYP2E1 — might possibly be involved.
15. In March of 1998, prior to Plavix’s launch into the
commercial market, Defendants completed a meta-analysis of internal data regarding Plavix. (hereinafter “MetaAnalysis”). The Meta-Analysis found that almost onethird of Plavix patients (32.2%) had less than 20% response to the drug and 3.4% did not respond to any pharmacological tests used (collectively hereinafter “poor responders”).
16. The evidence indicated that this meta-analysis—
and its findings that Plavix had a “poor responder” problem—was not shared with the FDA until 2005 (seven full
years after the conclusions were known to the Defendants), in an appendix to a separate, subsequent meta-analysis. The State also asserted that, even when the information was eventually disclosed to the FDA, it was “buried” in a large volume of other documents in order to obscure the lengthy delay in its disclosure, as well as its findings.
17. In November of 1998, Defendants completed an
internal report, “MIV0265,” which confirmed the results
of “MIH0012” that CYP2C19 was one of the enzymes

76a
principally involved in the metabolism of Plavix within the
body.
18. Defendants launched the sale of Plavix to the public in December 1998.
19. Defendants assert that at the time of launch they
did not know precisely how Plavix acted within the body
to create its antiplatelet effect, i.e., the inhibition of platelet aggregation. They argue that “science evolves,” and
therefore their failure to include information that they did
not know cannot be unfair or deceptive. However, the
State argues persuasively, and several of the Defendants’
witnesses conceded that, “science only evolves if you do
the research.”
20. Further, the evidence presented at trial established that Defendants knew at least the following at the
time of launch:
a)
Plavix is a prodrug;
b)
Plavix is bioactivated by enzymes in the patient’s liver;
c)
the enzymes necessary to activate a prodrug are often produced by a gene group
known as Cytochrome P450 (each one of
which is identified by an alphanumeric designation beginning with “CYP”);
d)
per Defendants’ internal reports, CYP2C19
and CYP3A4 were two of the Cytochrome
P450 genes principally involved in the metabolism of Plavix within the body.
e)
CYP2C19 is and was known to be genetically polymorphic, i.e., had several different variant forms, some of which might

77a

f)
g)

h)

i)

j)

potentially be able to activate a prodrug and
some of which might not; 4
CYP3A4 is not polymorphic with respect to
the activation of Plavix;
in other prodrugs known to be bioactivated
by CYP2C19, the polymorphisms of
CYP2C19 had been shown to be less effective or to have no effect in activating the
prodrug;
more than four years before the launch of
Plavix, CYP2C19 polymorphisms were
shown to interfere with the metabolization
of drugs, for example in an anticonvulsant
named S-mephenytoin, which is a necessary
step in the bioactivation of prodrugs metabolized by that gene;
the team of researchers who demonstrated
the adverse effect of CYP2C19 polymorphisms on the bioactivation of S-mephenytoin (hereinafter “de Morais Team”) developed a simple PCR-based laboratory test
(which was later patented) to identify the
CYP2C19 gene and its genetic polymorphisms;
in the published article regarding their
study, the de Morais Team explained how to
conduct their CYP2C19 PCR-based genetic
test in a clinical setting, concluding that the
PCR-based genetic test for the defective
CYP2C19 allele: “will be useful in clinical
studies investigating the importance of this

Where a gene has several different variations that are common
enough not to be considered mutations, each of the variations is referred to as an “allele.” Alleles that are unable to activate a prodrug
are commonly referred to as “loss-of-function” alleles.
4

78a
genetic defect in drug metabolism in humans.” (Exhibit D1098);
k)
the CYP2C19 polymorphisms that were
shown to have impaired effect on the metabolization of S-mephenytoin (loss-of-function
alleles) were known to be significantly more
prevalent in East Asians than in other major races by as much as five-fold;
l)
every individual has two CYP2C19 genes,
one from each parent, both of which may be
“normal” or one or both of which may be
mutations (abnormalities) or alleles (normal
genetic variations);
m)
in two additional studies conducted by de
Morais, CYP2C19 polymorphisms accounted for 100% of Japanese subjects who
were “poor metabolizers,” i.e., who could
not properly bioactivate the prodrug (S-mephenytoin) [P0264] and 100% of Chinese
subjects [P0305];
n)
there was a group of poor responders to
Plavix; and
o)
that Plavix patients who are poor metabolizers are likely at higher risk of a recurrent
heart attack or stroke than those who are
not poor metabolizers.
21. The lack of a uniform patient response to Plavix
of the kind that was revealed by the Meta-Analysis has
been referred to by a number of names, such as “Variability of Response” (“VOR”), Variability of Platelet Response (“VPR”), “Plavix resistance,” “poor metabolism”
and “poor response.” Given the potential severity of the
cardiovascular conditions Plavix was intended to guard
against, the discovery that this drug was not working as
intended for almost one-third of patients was a matter

79a
that would be of great concern to patients and physicians
and should have been of great concern to Defendants. Indeed, prior to launch, Defendants’ MIH0012 emphasized
that it was “important [to] identify[] potential interindividual differences in metabolism and/or clearance due to
genetic polymorphism.” Defendants further noted that
“[t]he use of in vitro methods has been recommended to
investigate these issues[.]” Id.
22. Despite this acknowledgement and Defendants’
awareness that: (1) they did not know precisely how
Plavix was bioactivated; (2) CYP2C19 played a role in the
bioactivation of Plavix; (3) CYP2C19 was genetically polymorphic and its polymorphic nature prevented the activation of other prodrugs; (4) CYP3A4 did not have a
known loss-of-function genetic polymorphism that impaired patients’ metabolism and pharmacodynamic responses to drugs; (5) Defendants’ own Meta-Analysis
showed that as many as 32.2% percent of test subjects received less than 20% of Plavix’s antiplatelet effect and
3.4% received no benefit at all; (6) the CAPRIE clinical
trial had shown a statistically significant difference in the
effectiveness of Plavix for Caucasians versus those of
other races; and (7) the various de Morais studies prior to
the Plavix launch indicated that CYP2C19 polymorphisms
were found to be a 100% predictor of poor metabolizers
(for S-mephenytoin), Defendants did not bring this information to the FDA’s attention or actively conduct research in an effort to understand the problem and correct
it, nor did Defendants try to warn the public or the FDA
about these issues. Instead, Defendants, by their words
and conduct over the ensuing years, evidenced a clear intent not to conduct or sponsor any research that might
confirm the existence of and/or reason for “Plavix resistance” or “Variability of Response” to a patient’s race
or other identifiable genetic factors.

80a
23. One of the State’s medical and regulatory experts, Dr. Laura M. Plunkett presented unrebutted testimony that the Defendants were obligated to update their
label to include a warning or precaution about the poor
metabolizer issue based on the type of information
brought to light by Defendants’ 1998 Meta-Analysis, coupled with Defendants’ knowledge that CYP2C19 was one
of three principal enzymes for the metabolism of Plavix.
She also testified that drug companies should be the primary entity investigating potential problems with their
own drugs to ensure that their label contains all the warnings and information necessary. Her testimony is supported by the United States Supreme Court, which held:
[I]t has remained a central premise of federal drug
regulation that the manufacturer bears responsibility
for the content of its label at all times. A drug manufacturer is charged both with crafting an adequate label and with ensuring that its warnings remain adequate as long as the drug is on the market. Thus,
when the risks of a particular drug become apparent, the manufacturer has a duty to provide a
warning that adequately describe[s] that risk.
Merck Sharp & Dohme Corp. v. Albrecht, 139 S. Ct. 1668,
1677 (2019) (internal citations and quotations omitted)
(emphasis added); Wyeth v. Levine, 555 U .S. 555, 571
(2009).
24. Instead of investigating the diminished response
to Plavix observed in a significant percentage of the patient population, a limitation known to Defendants at the
time of launch, Defendants instituted a policy of systematically opposing any research into Plavix resistance or
related issues. Spanning the entire relevant time period,
Defendants’ internal records repeatedly demonstrated an
intent to avoid pursuing the issue. In many instances,
their internal statements reflecting an unwillingness to
support Plavix-related research were tied to concerns

81a
about the potential impact of adverse clinical trial results
on sales of the drug.
25. The State’s medical experts, Dr. Laura M. Plunkett and Dr. Paul A. Gurbel, testified at trial that at the
time of launch, Defendants possessed the means to study
the correlation between CYP2C19 polymorphisms and
VOR, as well as the correlation between CYP2C19 polymorphisms and clinical outcomes (i.e. heart attacks,
strokes, and cardiovascular death).
26. Defendants argued that they did not investigate
the impact of CYP2C19 polymorphisms on Plavix Variability of Response because they believed at the time of
launch and for many years afterward that the “primary
metabolic pathway,” i.e., the primary means by which a
patient’s body produced Plavix’s active metabolite, was by
way of hepatic enzymes produced by the CYP3A4 gene.
27. In evaluating why Defendants did not discover
the cause of the poor response by non-Caucasians reflected in the CAPRIE study and the diminished response
for 32% of subjects reflected in Defendants’ Meta-Analysis, the Court finds much more persuasive the words and
actions reflected in Defendants’ corporate records, and
testimony consistent with them, which evidence a clear intent by Defendants to avoid any studies that might unearth negative information about Plavix.
28. For example, in May of 2000, BMS’s medical director proposed supporting a clinical trial to examine the
role of race in patients’ response to the drug and noted
that “such a trial would be small, easy to do, and could be
done well in time.” (P0603). However, his counterparts at
Sanofi quickly admonished him that such a trial “always
run[s] the risk to show a difference . . . and then we are
really in trouble.” Sanofi further warned that such a study
“could bear significant risk.” Id. Shortly, thereafter, Defendants’ joint Lifecycle Management Committee (“the
LCM”), the internal body responsible for determining

82a
which studies and what research to conduct/fund/support,
determined “not to be proactive at present” on proposed
trials regarding the role of race in Plavix resistance.
(P0604). This statement of policy was particularly significant considering Defendants’ earlier observation in the
CAPRIE Report of “a statistically significant interaction
between treatment and race.”5
29. Betraying their own argument, Defendants, in an
effort to combat a competitor drug, noted in an internal
planning memo that “[a]dditional studies needed; can be
small trials to help us to ‘shape the debate.” (P0430).
30. In June 2001, the LCM discussed a proposed
study on aspirin resistance, but ultimately rejected it because “it could lead to a similar trial on [Plavix] resistance.” (P0607). In 2002, the LCM continued to reject
any studies regarding aspirin because they “could lead to
the same questions about [Plavix],” they “could open the
door to `[Plavix] non-responders,’ and because there was
“no commercial interest” in such studies. (P0608; P0425).

At trial, Defendants introduced testimony of current and former
executives that the LCM exercised decision-making authority only
over “local” studies, which were characterized as small studies to be
conducted within a particular country. Defendants asserted that
larger, more significant studies were addressed at the “corporate”
level. However, Defendants produced no persuasive corporate-level
documents confirming the otherwise self-serving testimony of its
executives that proposals for any large-scale, appropriately powered studies were being considered or approved for the purpose of
determining the impact, if any, of a patient’s race on their responsiveness to Plavix, and, if such an impact was found, whether genetic
polymorphisms were the cause. Significantly, the State’s medical/clinical research expert, Paul A. Gurbel, MD, explained persuasively that the larger studies that Defendants did conduct or sponsor were not designed to resolve the VOR issue, or the role of
CYP2C19 in the bioactivation process, or the impact of race on variability of response.
5

83a
31. Later that year, BMS’s medical director acknowledged internally that “Sanofi has generally been ‘down’ on
suggestions to study [aspirin] resistance because they are
afraid that ‘[Plavix] resistance is right around the corner.”
(P0562). As one of his colleagues noted, “in my opinion,
[Sanofi’s]/our reluctance to go down the path toward documentation of [Plavix] resistance is understandable, but it
will catch up with us and perhaps be an unpleasant and
costly surprise when others document it without asking
our permission to do so.” Id. This statement was part of a
pattern to conceal, and avoid documenting, facts available
to the company but unknown to the public or the scientific
community
32. In 2002, a study conducted by researchers not affiliated with Defendants was published that reflected resistance to Plavix among 28% of the patient population.6
33. In 2003, several important studies were published. One was conducted by the State’s medical/clinical
research expert, Dr. Paul A. Gurbel (“Dr. Gurbel”), which
found that “[t]here was marked interindividual variability
in drug response” in upwards of 31% of the patient population.7 At the time, Dr. Gurbel was regarded by Defendants as “important and brilliant.” For many years thereafter, Defendants considered him “the [world-wide] expert on VPR.” (P0583).
34. Subsequent studies published that year confirmed Dr. Gurbel’s findings. Nevertheless, Defendants’
Jaremo P, Lindahl TL, Fransson SG, Richter A. Individual variations of platelet inhibition after loading doses of clopidogrel. J
Intern Med. 2002 Sep; 252(3):233-8.
7
Gurbel PA, Bliden KP, Hiatt BL, O’Connor CM. Clopidogrel for
Coronary Stenting: Response Variability, Drug Resistance, and
the Effect of Pretreatment Platelet Reactivity. Circulation.
2003;107:2908-2913. This Court considers it significant that Defendants did not disclose their 1998 Meta-Analysis to the FDA until after
this Gurbel study was published.
6

84a
internal records noted that they “remain[ed] adverse to
doing any further research on either aspirin—or
[Plavix]—resistance because of the potential negative
marketing implications.” (P0569). This caused one of
BMS’s employees to observe that he “had difficulty mobilizing the LCM to address the importance of understanding Plavix resistance through our data and proactive research”, and another to note that “[t]here doesn’t appear
to be a high sense of urgency around this on their
[Sanofi’s] side.” Id.
35. In 2004, Defendants continued rejecting clinical
trials whenever “some negative conclusions could be
drawn” (P0557), despite their own determination that “it
is logical, although not definite, that this variability in response has clinical consequence.” (P0507).
36. At a November 2005 meeting at the American
Heart Association, Defendants’ records indicate that one
“Key Opinion Leader” stated that Plavix resistance “is a
real phenomenon,” however “BMS is putting out anything
they can to say it doesn’t exist.”8 (P0429).
37. In June of 2006, a study conducted by researchers
not affiliated with Defendants supported the hypothesis
that there was an association between genetic polymorphisms in patient CYP2C19 liver enzymes and Plavix
VOR. Though it was already established that these
CYP2C19 polymorphisms were more prevalent among
certain Asian populations, Defendants took no action to
update Plavix’s label to inform prescribing physicians and
patients about Plavix resistance.
38. That same month, during a “Breakout Session” of
an “Anti-Platelet Therapy Working Group,” a group of
A “Key Opinion Leader” or “KOL” is an expert, typically a physician, with whom the drug companies work. KOLs are individuals
that give advice to the company and who will speak on behalf of the
company about a specific product.
8

85a
Key Opinion Leaders told the Defendants that they had
their “head in the sand about . . . clinical resistance.”
(P0082).
39. Throughout this period, Defendants repeatedly
tried to position Plavix in the marketplace as superior to
aspirin and other antiplatelet medications, particularly
with respect to recent heart attacks. Likewise, at trial Defendants tried to argue that there were no available alternatives to Plavix for treatment of recent heart attacks.
However, from even before the Plavix launch, and continuing through at least 2007, the FDA’s Division of Drug
Marketing,
Advertising,
and
Communications
(“DDMAC”), the division within the FDA responsible for
evaluating the truthfulness of a drug manufacturer’s marketing campaigns repeatedly advised Defendants that
they could not state or imply that Plavix was superior to
aspirin because the scientific research did not support
such a claim. For this reason, the FDA repeatedly told
Defendants that such claims were misleading — specifically using the term “misleading”. This occurred with respect to both marketing materials that Defendants submitted to the FDA for prior approval and marketing materials the FDA learned were already in circulation
through its routine surveillance program. Thus, the FDA
repeatedly told Defendants, over at least the first nine
years of Plavix’s life cycle, that it was misleading to claim
Plavix was superior to aspirin.
40. The Court notes this, not because the State is asserting any claims against Defendants for these kinds of
promotional materials, but because the Court views them
as a reflection of Defendants’ unwavering refusal to accept the reality that Plavix, while potentially a very beneficial medication for many patients (which the State has
never denied), was not a “silver bullet” or a “wonder drug”
that would cure all ills for all patients. Rather, that it was
a drug, like any other, that had its limitations. Those

86a
limitations could potentially contribute to very significant
harm, including death, to large groups of patients unable
to bioactivate it, or only able to activate it partially. The
Court makes a point of this because that seemingly blind
refusal to accept the reality of Plavix’s limitations has apparently continued to the present, including the course of
this four-week trial.
41. Because Defendants’ position is so at odds with
the evidence against them —evidence that in many cases
consists of their own internal corporate records — it could
not help but affect this Court’s view of Defendants’ candor
and credibility. The Court found that many times Defendants told only part of the story.
42. For example, Defendants presented expert testimony that according to the American Heart Association
(“AHA”) and the American College of Cardiology Foundation (“ACCF”) Plavix is the “gold standard” for treatment of cardiovascular conditions, with a “Class 1” recommendation (the highest recommendation available) by the
AHA/ACCF. But it was soon brought to light that Plavix
has a Class 1 certification only for certain specific conditions and procedures, and only when it is prescribed with
aspirin as part of a dual antiplatelet therapy program.
One of Defendants’ medical experts, Todd Seto, M.D.,
conceded this point when pressed.
43. In a similar vein, most of the clinical studies Defendants relied on to support their claim that Asian
CYP2C19 poor metabolizers do no worse on Plavix than
other patients involved dual antiplatelet therapy
(“DAPT”) in which patients were given not just Plavix but
also aspirin. Dr. Seto conceded on cross-examination that
he does not know, and does not have an opinion, whether
the inhibition of platelet aggregation that a CYP2C19
poor metabolizer experiences while undergoing DAPT is
due to the Plavix or to the aspirin. This concession entirely
undermined the probative value of the DAPT-based

87a
studies and Defendants’ suggestion that these studies
mean Plavix works just as well for CYP2C19 poor metabolizers.
44. Throughout 2007 and 2008, further studies indicated that CYP2C19 polymorphisms were responsible for
poor patient responsiveness to Plavix. Beginning in late
2008, and continuing throughout 2009, additional studies
established that CYP2C19-based poor responsiveness to
Plavix led to an increased risk of cardiac events (i.e. “clinical outcomes”) when compared to patients who were normal or intermediate responders.
45. Shortly before these studies regarding clinical
outcomes emerged, clinical researchers determined that
when Omeprazole (a proton-pump inhibitor) was given to
a patient who was also taking Plavix, the Omeprazole interfered with the functioning of the CYP2C19 alleles and
caused a corresponding reduction in Plavix’s antiplatelet
effect. This caused significant concern at the FDA, where
key personnel pressed Defendants regarding the clinical
implications of that study, the scientific history of VOR,
and how the label should be updated to reflect this critical
information.
46. While these discussions were underway, a study
conducted by researchers not associated with Defendants
was published in the New England Journal of Medicine
which found that “[a]mong persons treated with
clopidogrel, carriers of a reduced-function CYP2C19 allele had significantly lower levels of the active metabolite
of clopidogrel, diminished platelet inhibition, and a
higher rate of major adverse cardiovascular events, including stent thrombosis, than did noncarriers” (emphasis added) (hereinafter “Mega Study). The results of this
study, in conjunction with the Omeprazole issue,
prompted the FDA to insist on addition of language in the
Plavix label explaining the CYP2C19 poor metabolizer
phenomenon and noting the availability of genetic testing.

88a
47. At trial, there was conflicting evidence regarding
Defendants’ response to the proposed label change. Defendants presented some evidence suggesting that Defendants worked collaboratively with the FDA to effect
the label change. On the other hand, the State presented
evidence suggesting that Defendants were more resistant
to the label change, with Defendants arguing that the relationship between CYP2C19 polymorphisms and potential outcomes “is not yet fully understood.” When the FDA
continued to insist on the inclusion of VOR-related information in Plavix’s label, Defendants sought help from
their stable of “Key Opinion Leaders” (“KOLs”) — doctors and scientists Defendants relied on to publicly speak
favorably about Plavix — hoping to push back against the
FDA’s insistence. In an internal email following such an
effort, one employee informed his colleagues that their
KOLs would provide no such support, stating:
I have to tell you that I have had in depth 1:1’s with
about 6 senior KOLs since I have been at [the American College of Cardiology] and the mood is very negative toward us (people like Dr Topol, Gurbel,
Eikelboom, Fox are all saying that they have been
telling us this for years and we chose to ignore
them and bury our head in the sand and so they
feel no sympathy toward our current situation!).
Therefore, my concern is that we cannot look to KOL
support should the FDA follow through.
(P0533) (Emphasis added)
48. In May 2009, the FDA required Defendants to
add information to the Plavix label regarding CYP2C19
and poor metabolizers. The following information was also
included regarding the many studies that established a
link between CYP2C19 and clinical outcomes:
To date, the impact of CYP2C19 genotype on the
pharmacokinetics of clopidogrel’s active metabolite
has been evaluated in 227 subjects from 7 reported

89a
studies. Reduced CYP2C19 metabolism in intermediate and poor metabolizers decreased the CMax and
AUC of the active metabolite by 30-50% following 300
and 600mg loading doses and 75mg maintenance
doses. Lower active metabolite exposure results in
less platelet inhibition or higher residual platelet reactivity. To date, diminished antiplatelet responses to
clopidogrel have been described for intermediate and
poor metabolizers in 21 reported studies involving
4,520 subjects. The relative difference in antiplatelet
response between genotype groups varies across
studies depending on the method used to evaluate response, but is typically greater than 30%.
The association between CYP2C19 genotype and
clopidogrel treatment outcome was evaluated in 2
post-hoc clinical trial analyses (substudies of CLARITY-TIMI 28 [N=465] and TRITON-TIMI 38
[n=1,477]) and 5 cohort studies (total n=6,489). In
CLARITY-TIMI 28 and one of the cohort studies
(n=765; Trenk), cardiovascular event rates did not
differ significantly by genotype. In TRITON-TIMI
38 and 3 of the cohort studies (n=3,516; Collet, Sibbing, Giusti), patients with an impaired metabolizer
status (intermediate and poor combined) had a higher
rate of cardiovascular events (death, myocardial infarction, and stroke) or stent thrombosis compared to
extensive metabolizers. In the fifth cohort study
(n=2,208; Simon), the increased event rates were observed only in poor metabolizers.
Pharmacogenetic testing can identify genotypes associated with variability in CYP2C19 activity.
(P0410 at nn. 1-6 and accompanying text) (Footnotes
omitted).
49. This information was included in the Pharmacogenetics section of the Plavix label. But very shortly
thereafter, in March of 2010, the FDA took the additional

90a
step of requiring Defendants to place this information in
a “boxed warning,” also known as a “black box warning,”
and to move information regarding this issue to the
“Warnings and Precautions” section of the label.
50. A boxed warning is a section of the drug label reserved for serious warnings, particularly those that may
lead to death or serious injury.
51. The 2010 boxed warning stated the following:
WARNING: DIMINISHED ANTIPLATELET
EFFECT IN PATIENTS WITH TWO
LOSS-OF-FUNCTION ALLELES OF THE
CYP2C19 GENE
The effectiveness of Plavix is dependent on its activation to an active metabolite by the cytochrome P450
(CYP) system, principally CYP2C19 [see Warnings
and Precautions (5.1)]. Plavix at recommended doses
forms less of that metabolite and has a smaller effect
on platelet function in patients who are CYP2C19 poor
metabolizers. Poor metabolizers with acute coronary
syndrome or undergoing percutaneous coronary intervention treated with Plavix at recommended doses exhibit higher cardiovascular event rates than do patients with normal CYP2C19 function. Tests are available to identify a patient’s CYP2C19 genotype; these
tests can be used as an aid in determining therapeutic
strategy [see Clinical Pharmacology (12.5)1 Consider
alternative treatment or treatment strategies in patients identified as CYP2C19 poor metabolizers. [see
Dosage and Administration (2.3).]
(Emphasis in original)
52. In 2016, the boxed warning was modified to state
the following:

91a
WARNING: DIMINISHED ANTIPLATELET
EFFECT IN PATIENTS WITH TWO
LOSS-OF-FUNCTION ALLELES OF THE
CYP2C19 GENE
The effectiveness of Plavix results from its antiplatelet activity, which is dependent on its conversion to an active metabolite by the cytochrome P450
(CYP) system, principally CYP2C19 [see Warnings
and Precautions (5.1), Clinical Pharmacology (12.3)1
Plavix at recommended doses forms less of the active
metabolite and so has a reduced effect on platelet activity in patients who are homozygous for nonfunctional alleles of the CYP2C19 gene, (termed “CYP2C19
poor metabolizers”). Tests are available to identify patients who are CYP2C19 poor metabolizers [see Clinical Pharmacology (12.5)1 . Consider use of another
platelet P2Y12 inhibitor in patients identified as
CYP2C19 poor metabolizers.
(Emphasis in original)
53. Defendants argued at trial that they could not
have included the above information in the Plavix label
prior to March of 2010 because they did not “know” of the
information prior to late 2008/early 2009. However, the
record establishes that at all times relevant hereto, Defendants knew, or should have known, all necessary and
relevant information.
54. On July 21, 2020, the Court granted the State’s
motion for partial summary judgment that the information contained in the 2016 boxed warning was “material” within the meaning of Hawaii’s UDAP statute.
55. Defendants argued at trial that the change in the
2016 boxed warning deleted any reference to a causal relationship between CYP2C19 poor metabolizer status and
clinical outcomes. But since the boxed warning remains on
the Plavix label, Defendants’ argument is unpersuasive.

92a
56. The “Medication Guide” portion of the Plavix label, distributed by Defendants themselves, which is directed to consumer-patients—and which patients are instructed to read before they “start taking Plavix and each
time [they] get a refill”—stated in both 2016 and today
that the information in the boxed warning is “the most important information [you] should know about Plavix.”
57. At trial, the State presented the expert testimony
of Paul A. Gurbel, MD, a renowned participant in the field
of clinical research regarding prescription drugs, and in
particular, Plavix.
58. Dr. Gurbel earned his medical degree at the University of Maryland School of Medicine and completed an
internship and residency in internal medicine at Duke
University Medical Center. He then completed a fellowship in pulmonary and critical care medicine at Johns
Hopkins University, followed by fellowships in cardiovascular disease and interventional cardiology, as well as a
chief residency in internal medicine at Duke. He is board
certified in internal medicine, cardiovascular disease, and
interventional cardiology by the American Board of Internal Medicine. In addition to prolific research, Dr. Gurbel
remains a practicing clinical cardiologist, cardiac interventionalist, and leading expert on Plavix.
59. Dr. Gurbel serves on the editorial boards for several journals, including Journal of the American College
of Cardiology, The American Heart Journal, Journal of
the American College of Cardiology Heart Failure, Circulation, The Journal of the Royal Society of Medicine,
among others. He is also a reviewer for the New England
Journal of Medicine and has authored over 450 major articles in peer-reviewed journals.
60. Dr. Gurbel’s research and concepts have been
published in over 1,000 peer-reviewed documents. In 2012
alone, he authored 30 manuscripts in the peer-reviewed
literature and, in fact, in that year three peer-reviewed

93a
papers developed by Dr. Gurbel and his team were named
“most Important Papers in Antiplatelet Therapy” by the
prestigious medical journal Circulation.
61. Since shortly after Plavix was first introduced to
the market, Dr. Gurbel’s research has paved the way in
understanding its effects. His laboratory pioneered the
concept of antiplatelet response variability, a significant
limitation of clopidogrel effectiveness. Dominique Roome,
a senior medical employee at Sanofi who testified at trial
and who was intimately involved with Plavix over the
years, readily agreed that she has referred to Dr. Gurbel
as an “important and brilliant” Key Opinion Leader, and
the world-wide specialist in Variability of Response. Defendants’ clinical research expert, Sonia de Morais, MD
— the same de Morais who identified the CYP2C19 polymorphisms and their relationship to Variability of Response and race in the mid-1990s, and who developed and
later patented the genetic test to identify the various
CYP2C19 polymorphisms — likewise expressed deep respect for Dr. Gurbel.
62. At trial, Dr. Gurbel explained why he focused so
much of his research on Plavix, stating, “[Y]ou have to remember that, that thrombosis in the coronary artery is
what kills the patient, the No. 1 cause, that’s why people
die. They develop a clot ... they may not survive and have
ventricular fibrillation and die. But the No. 1 event, the
primary event that closes the artery is aggregation of
platelets. So this drug particularly, what we’re talking
about today, has to be relied on to work all the time. It’s
not like a statin, it’s not like a blood pressure pill, it not
like an analgesic. This is the drug given to the patient to
prevent the catastrophe. ... Doctors ... were relying on this
workhorse drug to prevent the fatal event. So I felt that it
was really important, particularly with this drug, to understand the limitations of the drug, and that everyone involved in the care of the patients, and the patients

94a
themselves, being informed consumers and understanding whether to get a stent or whether they get bypass surgery to treat their problems, to know whether they can
truly rely on this drug to work all the time.” Transcript
(“Tr.”), 11/2/20 A.M., at 53:25-55:7.
63. Dr. Gurbel testified that he first expressed concern to Defendants about the lack of platelet inhibition in
some patients in approximately 2001.
64. Responding to Defendants’ assertion that they
conducted many studies into Variability of Response, Dr.
Gurbel testified: “They didn’t. ... I would say broadly, you
know, any meaningful research, no.” Tr. 11/2/20 A.M.,
93:8-17. “I would submit to you that I’m aware of all the
meaningful research in this sphere that’s ever been done,
and there has been, as far as I know, being an expert in
this area, publishing over 200 manuscripts on clopidogrel
and its antiplatelet effect, that there has been no meaningful research that I know of by the defendants to address this issue of variability of response and its clinical
importance.” Id. at 78:4-11.
65. Responding to defense arguments that a study of
45,000 Chinese in a clinical trial known by the acronym
“COMMIT” demonstrated that Plavix works just as well
for East Asians as for other races, Dr. Gurbel testified:
“What I’m trying to teach you about this, is that the COMMIT study had a relative risk reduction, you see, it’s 9 percent, sir. The CURE study [made up primarily of Caucasian patients] had a relative risk reduction of 20 percent.
That means that clopidogrel was half as effective clinically
in the COMMIT study than in the CURE study. COMMIT had 100 percent Chinese. It was a hugely powered
study, 45,000 patients it took to show that meager 9 percent risk reduction. That’s the size of a study you need to
have to show efficacy, as small as 9 percent. So, there is
no question that the COMMIT study demonstrated totally clearly that there’s less efficacy in Chinese from

95a
clopidogrel, as compared to CURE, which is Caucasian.
That is the clearest evidence of a reduction in treatment
efficacy that can be shown up to 2020 between the races.
Tr. 11/5/20 at 135:6-23.
66. Responding to Defendants’ contention that they
could not conduct studies that would establish a link between CYP2C19 poor metabolizers and Variability of Response because the technology was not available to identify the active metabolite, Dr. Gurbel testified:
Q.
And what technological limitations were there,
if any, in 1997 or 1998 that would have prevented such
a study from being undertaken?
A.
Well, the mutation in — in 2C19 that caused the
dead gene was identified in landmark work by de Morais published in the Journal of Biological Chemistry
[in the early and mid ‘90s], a very prestigious journal.
And so there was an assay that she developed that
could have been used.
Tr. 11/2/20 PM, at 66:18-25.
A.
... You’re asking me what could have been done.
I mean, there was an assay that was available that
was — her lab developed that was being used — they
identified the cause of this ethnicity-based poor metabolizer — poor metabolism. Any you could — those
patients could have been genotyped and given the
drug and their antiplatelet effect could have been examined.
Q.
So were there in fact any sort of technological
scientific limitations that would have prevented that
kind of study from taking place in 1997?
A.
No. I mean, they had the — de Morais had the
PCR, the assay. I don’t — I don’t see why it couldn’t
have been done. If there’s an assay available and you
know how to measure platelet function, you can do the
study. I mean, that’s what we did in our studies. We

96a
determined the genotype in patients undergoing
stenting and we gave them clopidogrel. ... [T]hat’s totally a doable study.
Id. at 67:1-18.
67. Dr. Gurbel also explained why he and his colleagues were only able to conduct smaller studies when
Defendants refused to fund them or supply the drugs
needed for larger studies: “We needed funding. So it’s a
simple matter of funding. ... [T]here’s no lack of interest
from these investigators around the world. But to put together a large-scale trial, such as a study in the tens of
thousands, like has been done to get 15,000 to get the approval of clopidogrel in the CAPRIE trial, or 45,000 in a
Chinese population with myocardial infarction,
STEMI[.] . . [U]sually the funding comes from private
industry, or it comes from a device manufacturer. The
only caveat there is that private industry is not going to
want to niche their drug. ... [T]hat cuts into market share,
and total sale of the drug. ... So without big pharmaceutical interest to fund it, I don’t see how these studies ever
get done.” Tr. 11/5/20 at 33:1-34:9.
68. The State also offered the testimony of pharmacology, toxicology and prescription drug regulation expert Laura M. Plunkett, DABT, at trial.
69. Dr. Plunkett is a pharmacologist, toxicologist, and
a United States Food and Drug Administration (“FDA”)
regulatory specialist. She is board-certified as a Diplomate of the American Board of Toxicology and has authored or co-authored numerous scientific publications.
She received her undergraduate degree from the University of Georgia and a Ph.D. in pharmacology in 1984 from
the University of Georgia, College of Pharmacy. Her doctoral research was focused in the area of cardiovascular
pharmacology, which is the study of mechanisms

97a
underlying drugs used to treat diseases or conditions of
the cardiovascular system
70. Dr. Plunkett has over thirty years of experience
in the areas of pharmacology and toxicology and has
worked in both government and academic research. She
has taught pharmacology and toxicology at the undergraduate and post-graduate levels. As a pharmacologist,
much of Dr. Plunkett’s consulting work has related to understanding and explaining the mechanisms of action of
drugs of all types, as well as the toxic effects of drugs. She
has a specific expertise in cardiovascular pharmacology,
which is the study of drugs used to treat cardiovascular
diseases, including antithrombotic drugs. She also has an
expertise in pharmacokinetics, which is a discipline within
the general area of pharmacology that relates to the way
drugs are absorbed, distributed, metabolized and excreted from the human body. Dr. Plunkett has designed
clinical trials and analyzed pharmacokinetic data.
71. As a result of her training and work with various
clients, Dr. Plunkett has knowledge, experience and expertise related to changes in the FDA regulations over
the years from the initial passage of the Federal Food
Drug and Cosmetic Act in 1938 up to the most current
amendments to the FFDCA. She has published dozens of
peer-reviewed articles. She has also authored a book
chapter on FDA pharmacovigilance practices and served
as a peer-reviewer for medical journals in her capacity as
a pharmacologist and toxicologist. She has provided expert testimony and been qualified by both state and federal courts in the areas of pharmacology, pharmacokinetics, toxicology, risk assessment and FDA regulations.
72. Dr. Plunkett testified, among other things, that,
in practice, under the criteria set forth in the applicable
FDA regulations Defendants would have been obligated
to update their label to include a warning or precaution
about the poor metabolizer issue based on the type of

98a
information brought to light by Defendants’ 1997 MetaAnalysis, coupled with Defendants’ knowledge that
CYP2C19 was one of three principal enzymes for the metabolism of Plavix. Tr. 10/27/20 A.M. at 71:5-72:2.
73. Dr. Plunkett also testified that, in practice, under
applicable FDA regulations Defendants were permitted
to add or strengthen a warning or precaution about the
poor metabolizer issue without first seeking approval
from the FDA.
74. Addressing Defendants’ contention that they had
no duty to investigate the reasons for the diminished response to Plavix reflected in the Meta-Analysis and other
available information, Dr. Plunkett testified that drug
companies like Defendants “absolutely” have an obligation to investigate potential problems with their drugs,
stating: “That’s the basis for why pharmacovigilance and
post-market surveillance or continual analysis of data
goes on once the drug [is] approved. The paradigm for
drug development and approval is that when you are developing a drug, it is understood that you’re testing it in a
— in a more selective population for the purposes of the
clinical study that may or may not be relevant to the realworld experience of patients. So as a result they’re — under Section 21 CFR 314, there are specific requirements
for companies to perform this type of surveillance of their
drugs and the literature, as I talked about earlier, in order
to understand whether or not there are risks out there
that are different either in terms of something you hadn’t
seen in your clinical development or you may be seeing it
at a greater frequency than you had seen it in your initial
clinical development. Or you may be seeing it like in this
case where the benefit was shown in the clinical trial, but
when it gets out in the real world, there are people that
may not appear to be getting the benefit of the real drug.
So those are the kinds of things that are a part of good

99a
pharmacovigilance practice.” Tr. 10/26/20 at 126:16127:17.
75. Like Dr. Gurbel, Dr. Plunkett testified about the
importance of drug companies to fund clinical trials, stating: “The reason is that the company who makes the drug
is going to have the resources to provide the drug to the
investigators and also the source of knowledge. It’s the
single best source of knowledge about the drug itself. As
a result, it’s difficult sometimes to get funding for large
clinical studies that are — can be expensive from sources
outside in private grants and things like that. So it is actually important that companies are willing to work with
outside investigators to get studies done that involve their
drugs.” Tr. 10/27/20 P.M. at 92:9-20.
76. Regarding the Defendants’ claim that they have
conducted numerous studies relating to the poor metabolizer issue, Dr. Plunket testified: “I haven’t seen a large
clinical trial that has been done by the company or anyone
else of the power to be able to answer definitively those
questions, and specifically for the individuals that carry
two loss-of-function alleles, we haven’t completely defined
that. No study has been done. But we do know there’s an
increased risk.” Tr. 10/27/20 P.M. at 46:21-47:6.
77. Defendants’ trial witness list identified an expert
to respond to the opinions of Dr. Plunkett, but when it
came time for her to be called to testify Defendants
elected not to call her. Therefore, Dr. Plunkett’s opinions
were unrebutted at trial.
78. Having weighed the admissible evidence presented at trial, and having taken into account the credibility of the witnesses and other evidence presented, the
Court finds that Defendants knew at the time of launch
that there was a significant issue regarding diminished
patient response to Plavix, particularly in those of nonCaucasian races; that for many years Defendants deliberately turned a blind eye toward the problem out of

100a
concern that addressing it might adversely affect Plavix
sales and Defendants’ profits; that Defendants deliberately withheld vital information from the FDA and the
greater medical community about the issue; that Defendants engaged in a pattern and practice of rejecting any
proposed studies that might call attention to or generate
interest in the issue of Plavix Variability of Response; that
Defendants failed to conduct any studies that were designed and adequately powered to investigate Plavix Variability of Response and/or the impact of race and/or
CYP2C19 polymorphisms on inhibition of platelet response in Plavix patients; that by engaging in the foregoing conduct Defendants intentionally set back the progress of research into the Plavix Variability of Response
issue by many years; and that by doing so Defendants
knowingly placed Plavix patients at grave risk of serious
injury or death in order to substantially increase their
profits.
79. For these reasons, the Court finds that the Defendants were engaged in unfair and deceptive practices
in Hawai`i regarding Plavix since its launch in December
1998, and that such violations continued until the boxed
warning was added to the Plavix label sometime in or after March 2010.
80. At trial, the State presented expert testimony
from Nicole Maestas, Ph.D., regarding the number of retail prescriptions, refills and non-retail units sold in Hawai`i between December 1998 and March 12, 2010. Dr.
Maestas is an associate professor of Health Care Policy at
Harvard Medical School and a research associate at the
National Bureau of Economic Research. She is an economist with broad training in the fields of health economics
and health policy whose research concerns the economics
of health care utilization, health insurance, and health outcomes. She has many years of experience analyzing health

101a
care data of different types, including prescription drug
claims, using a wide range of methodologies.
81. Dr. Maestas calculated the number of retail prescriptions, refills and non-retail units sold during the relevant time period to be 834,012.
82. The Court found Dr. Maestas’s testimony to be
both helpful and credible, and Defendants offered no expert testimony or even argument to dispute or otherwise
counter her calculations. Therefore, the Court finds that
834,012 Plavix retail prescriptions, refills and non-retail
units were sold in Hawai`i between December 1998 and
March 12, 2010.
83. If any of the Findings of Fact set forth herein
shall be deemed Conclusions of Law, they are hereby incorporated by reference in the Conclusions of Law set
forth below.
CONCLUSIONS OF LAW

84. The Court has jurisdiction over the parties and
the claims in this case.
85. The Attorney General is authorized to bring this
action in the name of the State of Hawai`i under Hawai`i
Revised Statutes (“HRS”) Chapter 480 (“UDAP”) and under HRS § 66110.
86. HRS § 661-10, grants the Attorney General broad
authority to bring claims in the name of the State “[w]henever it is necessary or desirable ... in order to collect or
recover any money or penalty ... or enforce any other
right[.]” HRS § 480-3.1 grants the Attorney General the
authority to bring a civil action for civil penalties against
“[a]ny person, firm, company, association, or corporation
violating any provisions of section 480-2[.]”

102a
II. THE STATE’S UDAP CLAIMS

87. HRS § 480-2 declares unlawful any “unfair or deceptive acts or practices in the conduct of any trade or
commerce[.]”
88. Hawaii’s UDAP statute “outlaws unfair methods
of competition and unfair or deceptive trade practices in
sweeping terms.” Han v. Yang, 84 Hawai`i 162, 177, 931
P.2d 604, 619 (App. 1997) (Emphasis added). The statute
“was constructed in broad language in order to constitute
a flexible tool to stop fraudulent, unfair or deceptive practices for the protection of both consumers and honest
businessmen [and businesswomen].” Id. To state a claim
under UDAP, the State need only prove that Defendants
engaged in “[u]nfair or deceptive acts or practices in the
conduct of any trade or commerce.” HRS § 480-2(a). “To
violate HRS § 480-2, a practice need only be unfair or deceptive, not both.” Bald v. Wells Fargo Bank, NA., 688
Fed.Appx. 472, 475 (9th Cir. 2017).
A.

Deceptive Acts or Practices of Defendants

89. A deceptive act or practice is defined as having
“the capacity or tendency to mislead or deceive.” Courbat
v. Dahana Ranch, Inc., 111 Hawai`i 254, 261, 141 P.3d at
434 (2006). To establish a deceptive act or practice under
§ 480-2, the State must show “(1) a representation, omission, or practice that (2) is likely to mislead consumers acting reasonably under the circumstances where (3) the representation, omission, or practice is material.” Courbat, at
262, 141 P.3d at 435.
90. The test for deceptiveness is “an objective one,
turning on whether the act or omission ‘is likely to mislead
consumers,’ as to information ‘important to consumers,’ in
making a decision regarding the product or service.” Id.
(internal citations omitted). The State must therefore
prove by the “objective ‘reasonable person’ standard” that
the representation or omission was deceptive. Id. at 263,

103a
141 P.3d at 436. A UDAP violation need not involve a representation; it can involve other acts or practices. Yokoyama v. Midland Nat. Life Ins. Co., 594 F.3d 1087, 1092
(9th Cir. 2010) (UDAP violation can involve “a representation, omission or practice”).
91. The State “need not establish an intent to deceive
on the part of the defendant, nor any actual deceit.” Courbat, 111 Hawai`i at 262 fn.9, 141 P.3d at 435 (citations
omitted). “Proof of actual deception is unnecessary” because the relevant inquiry is whether a representation,
omission, or practice has “the capacity or tendency to mislead or deceive.” Tokuhisa v. Cutter Management Co.,
122 Hawai`i 181, 195, 223 P.3d 246, 260 (App. 2009); Hungate v. Law Office of David B. Rosen, 139 Hawai`i 394,
411, 391 P.3d 1, 19 (2017); State ex rel. Bronster v. U.S.
Steel Corp., 82 Hawai`i 32, 51, 919 P.2d 294, 313 (1996).
92. As noted in Finding of Fact No. 54 above, the
Court has already determined that the information in the
2016 boxed warning was material. Findings of Fact, Conclusions of Law, and Order Granting Plaintiff’s Renewed
Motion for Partial Summary Judgment Regarding the
“Materiality” of Information Contained in the Plavix
“Black Box Warning,” filed July 21, 2020. [Dkt. No. 1023].
93. Here, the Court finds that the evidence presented
shows that Defendants engaged in deceptive acts or practices when they failed to include information equivalent to
that in the product label during the time period of December 1998 to March 12, 2010. The Court finds that the evidence before it overwhelmingly supports a conclusion that
Defendants’ acts and practices during the relevant period
led to the omission of information crucial to physicians
and patients.
94. The Court acknowledges that the Defendants
could not have placed a “Black Box Warning” on the label
without the FDA’s prior approval. However, Defendants
had the ability to update the label, specifically to add or

104a
strengthen a warning, under the Changes Being Effected
(“CBE”) regulations of the FDCA. See 21 C.F.R. §
314.70(c)(6)(iii)(A); Merck Sharp & Dohme Corp. v. Albrecht, 139 S. Ct. 1668 (2019).
95. Further, the Court finds that Defendants had sufficient knowledge, after FDA approval but prior to
launch, to change the Plavix drug label to warn patients
and physicians about the lack of response exhibited by
certain patients. The Court also finds that Defendants had
sufficient knowledge, as well as the technical ability, to investigate the cause of variability of response which was
known to Defendants before the drug launched in December of 1998.
96. Defendants argued repeatedly throughout trial
that they did not know or could not have known the extent
to which CYP2C19 played a role in the metabolism of
Plavix or in variability of response to Plavix. Defendants
also argued that they could not possibly have determined
whether people with CYP2C19 polymorphisms experienced diminished effectiveness from the drug. The Court
is not persuaded by the Defendants arguments. The facts
presented show that Defendants had sufficient
knowledge, technology, and ability to update the Plavix
label from launch and continuing for many years. Yet, instead Defendants chose to establish a policy of inaction
and denial.
97. The Court finds that the omission of this material
information was likely to mislead consumers. The ability
to give informed consent during medical treatment is a
well-established tenet of our jurisprudence. As testified at
trial by another of Defendants’ medical experts, Dr. John
Kao, doctors generally inform their patients about all
risks and benefits of the drugs they prescribe so that the
patient can make an informed decision concerning their
course of treatment. Omitting information from a drug label about the efficacy and safety profile of a drug such as

105a
Plavix, that is intended to lower the risk of a recurrent
heart attack or stroke, certainly has the capacity and likelihood to mislead consumers. The evidence shows that Defendants deliberately hid material information from consumers that could have affected their choice of, or conduct
regarding Plavix. Therefore, the Court finds that, based
on the evidence presented at trial, all the elements for a
claim of deceptive acts or practices have been met.
B. Unfair Acts or Practices of Defendants

98. Under UDAP, a practice “is unfair when it [1] offends established public policy and [2] when the practice
is immoral, unethical, oppressive, unscrupulous or [3] substantially injurious to consumers.” Hungate, supra, 139
Hawai`i at 411, 391 P.3 at 18, quoting Hawai `i Community Federal Credit Union v. Keka (Keka), 94 Hawai`i
213, 228, 11 P.3d. 1, 16 (2000). A UDAP plaintiff need not
prove all of these elements. Id. Rather, “[a] practice may
be unfair because of the degree to which it meets one of
the criteria or because to a lesser extent it meets all
three[.]” Id., quoting Kapunakea Partners v. Equilon
Enters, LLC, 679 F.Supp.2d 1203, 1210 (D. Haw. 2009).
99. The Court finds that the conduct of the Defendants in this case also constituted unfair acts or practices
under § 480-2.
100. First, the Court finds that Defendants conduct
in this case offends established public policy. In order to
show that a practice is unfair because it offends established public policy, such policy must have been “established by statutes, the common law, or otherwise.” Hungate, supra, 139 Hawai`i at 411, 391 P.3 at 18. In cases like
this one, the Supreme Court of the United States has repeatedly acknowledged:
[I]t has remained a central premise of federal drug
regulation that the manufacturer bears responsibility
for the content of its label at all times. A drug

106a
manufacturer is charged both with crafting an adequate label and with ensuring that its warnings remain adequate as long as the drug is on the market.
Thus, when the risks of a particular drug become
apparent, the manufacturer has a duty to provide
a warning that adequately describe[s] that risk.
Merck Sharp & Dohme Corp. v. Albrecht, 139 S. Ct. 1668,
1677 (2019) (internal citations and quotations omitted)
(emphasis added); Wyeth v. Levine, 555 U .S. 555, 571
(2009).
101. The Court finds that Defendants’ failure to update the Plavix drug warning after learning of the safety
risks posed to poor metabolizers offends this well-established public policy. Defendants compounded their unfair
conduct by suppressing research and continuously and repeatedly failing to further investigate the risks of reduced
platelet inhibition in poor metabolizers because such studies regarding variability of response could have “negative
marketing implications.” These facts and others outlined
above lead this Court to find Defendants’ conduct offended the established public policy of Hawai`i.
102. Second, the Court also finds that Defendants
conduct in this case was immoral, unethical, oppressive,
or unscrupulous. The evidence showed that Defendants
engaged in a pattern and practice of burying their heads
in the sand regarding the weaknesses of Plavix. Regardless of the amount of evidence presented to Defendants
(internally before launch of the drug, and later through
repeated independent studies), they continued to deny the
fact that there were Plavix poor metabolizers or that poor
metabolizers received diminished or zero effect from taking Plavix. Such acts and practices were immoral, unethical and unscrupulous within the meaning of UDAP.
103. Finally, the Court also finds that Defendants’
conduct was substantially injurious to consumers in several ways. First, Defendants deprived all patients of the

107a
opportunity to consider whether to undergo genetic testing in order to determine the likelihood that they would
be able to bioactivate Plavix’s antiplatelet effect. Second,
they deprived all patients with CYP2C19 loss-of-function
alleles the opportunity to make informed decisions regarding the potential risk of taking Plavix against the potential risks associated with alternative treatment. Third,
they deprived an indeterminate number of patients the
drug’s intended risk reduction the patients were relying
on Plavix to provide. Fourth, Defendants deprived patients the ability to give informed consent to their treatment.
III. DEFENDANTS’ AFFIRMATIVE DEFENSES

105. Defendants raised in their Pre-trial Statement
several affirmative defenses. However, Defendants did
not argue all these defenses during trial or closing arguments. It is not clear whether Defendants have since
abandoned some of these defenses. Out of an abundance
of caution, the Court will discuss the reasons why each of
these defenses are unconvincing.
A.

First Amendment Defense

105. Defendants have asserted that the State’s prosecution of this action violates their First Amendment commercial free speech rights. Defendants’ theory appears to
be that the State is attempting to punish them for refusing
to disseminate the State’s preferred message on a matter
of scientific debate. The Court finds no merit to this defense. It is well established that “[t]he government may
ban forms of communication more likely to deceive the
public than to inform it, or commercial speech related to
illegal activity.” Cent. Hudson Gas & Elec. Corp. v. Pub.
Serv. Comm’n of N.Y., 447 U.S. 557, 563-64 (1980) (internal citations omitted). For commercial speech to receive
First Amendment protections, “it at least must concern
lawful activity and not be misleading.” Id. Here, the Court

108a
has found that Defendants’ omissions were deceptive and
therefore the type of misleading statements not protected
by the First Amendment.
B. Safe Harbor Defense

106. Defendants argued at trial that the statutory
safe harbor provision codified in HRS § 481A-5(a)(1), bars
the State’s UDAP claim, which Defendants claim exempts
“conduct in compliance with the orders or rules of, or a
statute administered by, a federal, state, or local governmental agency.” Id. Defendants posit that because the
FDA repeatedly approved the Plavix label and never initiated any enforcement action against the Defendants related to Plavix, that Defendants’ conduct was therefore at
all times in compliance with the FDA regulations. The
Court disagrees.
107. Under the terms of the FDA regulations, drug
manufacturers can and must make necessary changes to
a drug’s prescribing information without seeking prior
FDA approval. The FDA’s periodic approval of Plavix label changes over the years does not place the Defendants
“in compliance” with federal label regulation standards.
The Court finds that Defendants are not immune from liability under the state’s UDAP laws because their specific
applications to update the label were approved. On the
contrary, the Court finds that Defendants’ conduct—failing to discharge their ongoing, affirmative duty to adequately inform patients—places them well outside the
protections of the UDAP’s Safe Harbor provision and well
outside the ambit of “compliance” with orders, rules, or
statutes administered by a separate governmental entity.
108. Through the FDA regulations, the FDCA provides drug manufacturers a specific mechanism for unilaterally strengthening warning labels after initially approved by the FDA. As the Supreme Court explained in
Wyeth, “Congress did not . . . require[] the FDA to preapprove all changes to drug labels . . . Instead, it adopted a

109a
rule of construction to make it clear that manufacturers
remain responsible for updating their labels.” Wyeth, 555
U.S. at 567-68. That responsibility is made enforceable
through state law claims. Id. at 578-79. Both Congress and
the Supreme Court recognize that state consumer protection laws, such as Hawaii’s UDAP statute, play an important role in enforcing a manufacturer’s duty to update
their label. Id. In particular, the Supreme Court concluded that Congress “determined that widely available
state rights of action provided appropriate relief for injured consumers” in connection with failure to warn
claims related to FDA approved drugs. Id. at 574. Further, failure to warn actions under state law “lend force to
the FDCA’s premise that manufacturers, not the FDA,
bear primary responsibility for their drug labeling at all
times. Thus, the FDA [has] long maintained that state law
offers an additional, and important, layer of consumer
protection that complements FDA regulation.” Wyeth,
555 U.S. at 579.
109. The Court finds that the Defendants’ failure to
update Plavix’s label with material information was not
conduct “authorized, permitted, or required by law.” The
responsibility for the adequacy of Plavix’s drug label
rested with Defendants, and Defendants were expressly
empowered to fulfill that responsibility, but affirmatively
chose not to out of fear that such disclosures would negatively impact their bottom line. As such, the Safe Harbor
provision does not apply to Defendants’ conduct in this
case
C.

Preemption Defense

110. In their trial brief, Defendants argued that the
State’s UDAP claim is preempted by federal law on prescription drug labeling and that the “relevant question is
whether the FDA regulations allowed the [Defendants] to
update the Plavix label before 2008 on its own, without
first seeking the FDA’s permission.” To support this

110a
defense, Defendants informed the Court that during trial
it would hear from their regulatory expert, Dr. Dena
Hixon, who would explain, Defendants could not have unilaterally updated the label before 2008. However, during
their defense case Defendants informed the Court that
they would not be calling Dr. Hixon to testify. As such, the
only evidence in the record regarding Defendants’ ability
to update the product label is the unchallenged and credible testimony of Dr. Plunkett. The Court therefore finds
Defendants’ preemption argument unsupported and unpersuasive.
D. Duty to Test

111. Defendants repeatedly argued at trial that evidence concerning their willful suppression of research is
irrelevant because Hawaii’s UDAP statute does not impose on manufacturers any independent duty to conduct
product testing or research. However, the State’s allegations are not limited to the Defendants failure to conduct
product testing or research. The State alleges Defendants
ignored and concealed critical risk information concerning their drug, and then deliberately rejected and suppressed any further research into those risks, and in so
doing, severely retarded the growth of pertinent scientific
literature in the area of Plavix resistance and its causes,
and the Court has so found. This conduct is part-and-parcel with Defendants’ deceptive acts and practices, as it directly prevented correction of their material omissions.
112. Further, federal regulations require a drug’s
manufacturer to include in the labeling of its products
complete and accurate information about health risks, adequate instructions regarding the use of the drug product,
and adequate warnings to ensure that patient health is
protected. See, e.g., 21 CFR § 201.57; 21 CFR § 314.70; 21
CFR § 314.80. As such, manufacturers have the responsibility for ensuring that the labeling continues to reflect
current knowledge concerning risks posed by the drug.

111a
113. By failing to fulfill their duty to ensure Plavix’s
label reflected the current knowledge concerning risks
posed by the drug, by deliberately shirking their obligation to conduct responsible postmarketing surveillance,
by suppressing the efforts of concerned third parties to
conduct postmarketing investigational studies, and by
basing these critical decisions on sales and marketing concerns, Defendants engaged in unfair and deceptive practices that culminated in the material omissions at issue
here.
IV. PENALTIES

114. Based on the foregoing and the evidence presented at trial, the Court concludes that the imposition of
civil penalties under HRS § 480-3.1 is warranted. The parties disagree on the way in which penalties should be calculated.
A.

Penalties under § 480-3.1 are not Restricted to a
“Per Day” Calculation as Posited by Defendants

115. Primarily, Defendants have argued before trial
and during closing arguments that the calculation of penalties under HRS § 480-3.1 requires the court to calculate
violations on a “per day” basis. The Court rejects Defendants’ reading of the statute.
116. The relevant statutory provision, HRS § 480-3.1,
states the following: Any person, firm, company, association, or corporation violating any of the provisions of section 480-2 shall be fined a sum of not less than $500 nor
more than $10,000 for each violation, which sum shall be
collected in a civil action brought by the attorney general
or the director of the office of consumer protection on behalf of the State. The penalties provided in this section are
cumulative to the remedies or penalties available under all
other laws of this State. Each day that a violation of section 480-2 occurs shall be a separate violation.

112a
117. In construing a statute, the Court’s “foremost
obligation is to ascertain and give effect to the intention of
the legislature, which is to be obtained primarily from the
language contained in the statute itself. And [the court]
must read statutory language in the context of the entire
statute and construe it in a manner consistent with its purpose.” Beneficial Hawaii, Inc. v. Kida, 96 Hawai`i 289,
307, 30 P.3d 895, 913 (2001). “[W]here the terms of a statute are plain, unambiguous and explicit, [the Court is] not
at liberty to look beyond that language for a different
meaning.” State v. Haugen, 104 Hawai`i 71, 76, 85 P.3d
178, 183 (2004). But where the language of a statute appears on the surface to be plain, obvious, and unambiguous, the court may look beyond that language “for the purpose of ascertaining its underlying legislative intent . . . if
a literal construction would produce an absurd and unjust
result.” Id. at 77, 184 (internal citations and quotations
omitted).
118. The UDAP statute “is remedial in nature and
must be liberally construed in order to accomplish the
purpose for which it was enacted.” Keka, supra, 94 Hawai`i at 229, 11 P.3d at 17 (“Remedial statutes are liberally construed to suppress the perceived evil and advance
the enacted remedy.”) Therefore, this consumer protection statute “must be interpreted broadly in order to effectuate its remedial purposes.” Kida, supra, 96 Hawai`i
at 307, 30 P.3d at 913.
119. Applying a “per day” method of calculating penalties, as Defendants suggest, regardless of the circumstances of the deceptive or unfair act or practice is inconsistent with the plain language of the statute and would
severely reduce its remedial power. Such a reading would
also lead to absurd results and is inconsistent with similar
cases under the Federal Trade Commission Act, 15 U.S.C.
§§ 41-58 (“FTC Act”).

113a
120. First, the plain language of the statute shows the
intent of the legislature to create a mechanism by which
the State may hold those accountable who engage in deceptive or unfair practices. The first sentence of HRS §
480-3.1 states in unambiguous terms that a penalty “shall”
be imposed “for each violation.” (Emphasis added). This
statutory language expresses a clear legislative intent
that wrongdoers will be held accountable for each violation they commit. Therefore the Court must first determine what constitutes a violation in order to assess a penalty. Defendants’ interpretation—which would allow a
wrongdoer to cap its liability to a maximum daily penalty
of $10,000 no matter how many times it deliberately violated the statute in a single day—would only incentivize
large and powerful corporations to violate Hawaii’s consumer protection laws with impunity. A single daily penalty could easily just be absorbed as “the cost of doing
business,” or a “rounding error,” and, even then, only if
the perpetrators were caught and prosecuted.
121. The second sentence of HRS § 480-3.1 is consistent with the first in that it likewise expresses an intent
to hold wrongdoers fully accountable for their actions by
providing that the aforementioned civil penalties are cumulative of all other “remedies or penalties available under all other laws of this State.” This provision does not
suggest a legislative intent to let violators off lightly or
limit the penalties available under this section, but rather
to impose upon them the full weight of all applicable laws
violated by the wrongful conduct.
122. The final sentence of HRS § 480-3.1 must be construed in a manner consistent with these first two sentences. First, the sentence reads: “Each day that a violation of section 480-2 occurs shall be a separate violation.”
By its own terms, this sentence does not define a violation
but instead it modifies or multiplies the application of a
violation if it is a continuing violation.

114a
123. For example, there are some circumstances in
which a single act can constitute a violation over a period
of days without the violator having acted more than once,
such as the posting of a deceptive billboard by the side of
a highway. The offender would install the billboard only
once, but the billboard would continue to have its deceptive impact every day until it was removed. Similarly, a
court might issue an order for the offender to remove the
billboard, but the offender might ignore the court’s order.
Although ignoring the order would be a single act, that
single violation could continue for several days, until the
offender eventually complied. In both examples, the third
sentence of HRS § 480-3.1 would provide an appropriate
remedy. It would not limit the violator’s exposure to a single penalty but would instead impose a penalty on the violator for each day that the violation continued. The plain
reading of the entire statute shows that this “each day”
language was intended to act as multiplier not a limiter in
the calculation of penalties.
124. Second, Defendants’ reading of the statute so
that penalties are restricted to a maximum of one “per
day” would lead to absurd and unjust results. For example, suppose that 30,000 mail advertisements were distributed in a single day, which contained material determined
to constitute unfair or deceptive acts or practices by the
sender. Under Defendants’ reading of the statute, these
30,000 advertisements sent to 30,000 separate consumers
would constitute only one violation—because they were
committed in a single day—with a maximum penalty of
no more than $10,000, i.e., 33 cents per advertisement and
deceived consumer. However, if 30 of these same unfair
and deceptive advertisements were mailed—one per day
for thirty days (1 month)—under Defendants’ theory,
that would constitute thirty separate violations with a
minimum penalty of $15,000.

115a
125. In the first example, the sender could make unfair and deceptive representations 30,000 times to 30,000
separate consumers, but if the representations were made
in the same day, the sender would face a maximum penalty of $10,000, or 33 cents per advertisement. In the second example, the sender could make only 30 unfair and
deceptive representations, but if the representations were
made over the course of one month, one per day, the
sender will face a maximum penalty of $300,000 — a
thirty-fold increase over the other sender’s maximum
penalty — merely because the representations were made
on separate days. Under Defendants’ theory, the first
sender would be subject to a maximum civil penalty that
is 1130th the maximum civil penalty the second sender is
subject to, despite having misled 29,970 more consumers
than the second sender. Such an absurd result would not
serve the purpose of the UDAP statute “to suppress the
perceived evil and advance the enacted remedy.” Keka,
supra, 94 Hawai`i at 229, 11 P.3d at 17.
126. Third, courts in Hawai`i have routinely recognized that the purpose of statutes such as UDAP is to be
a tool that can be used to combat deceptive and unfair
practices in whatever iteration they exist. HRS § 480-2
was “constructed in broad language in order to constitute
a flexible tool to stop and prevent fraudulent, unfair or deceptive business practices for the protection of both consumers and honest businesspersons.” Keka, supra, 94 Hawai`i at 228, 11 P.3d at 16. UDAP cannot both be construed as a broad and flexible remedial statute for the
purpose of protecting consumers while also construed to
severely limit penalties so that any enforcement of the
statute by the Attorney General would equate to a slap on
the wrist for large corporations.
127. The plain language of the § 480-3.1 and the purpose of the UDAP statute show that the determination of
what constitutes a “violation” of § 480-2 depends on the

116a
facts and circumstances of the case and the deceptive or
unfair conduct at issue. Should a violation occur in a manner that a single violation extends over a period of multiple days, then the “each day” language may act as a multiplier to penalize the wrongdoer for the extended nature
of the conduct. However, the determination of what
counts as a violation still relies heavily on the circumstances of each case.
128. The Court’s reading of the statute is further supported by targeted consumer protection statutes enacted
by the Hawai`i Legislature — i.e., laws in pan materia,
HRS § 1-16 —that calculate violations based on the number of deceptive acts or practices of the violator. For instance, in HRS § 245-59, enacted in 2005, the Legislature
declared that certain acts related to the sale of cigarettes
constitute “unfair and deceptive practices” under § 480-2
and “shall be subject to civil penalty as provided in section
480-3.1.” Section 245-59 then continues on, saying, Mach
package of cigarettes sold in violation of this part shall
constitute a separate violation.” Id. (Emphasis added.)
129. Similarly, in HRS § 127A-30, enacted in 2014,
the Legislature prohibits price increases during a state of
emergency, and in those circumstances allows civil penalties under §480-3.1 because price gouging constitutes an
unfair and deceptive practice. The statute further provides that [e]ach item sold at a price that is prohibited by
this section shall constitute a separate violation.” HRS
§127-30(e) (Emphasis added). These statutes clearly evidence a legislative intent in the consumer protection
arena to define the number of violations based on the circumstances of the deceptive acts or practices at issue. Defendants argue that the above-cited statutes undercut the
Court’s reasoning because HRS § 480-3.1 does not have
the equivalent of “each item” language in it, as the other
statutes do. But this Court is not persuaded that Defendants’ view is the correct one.

117a
130. The above-cited statutes are each very narrowly
tailored to address a single, discrete issue, such as price
gouging or the sale of cigarettes. Therefore, specific “each
item” or “each package” language could be added to those
statutes with little difficulty. In contrast, UDAP is an extremely broad statute applicable to a virtually unlimited
number of widely differing circumstances affecting consumers. Adding language that would properly fit all of
those potentially innumerable circumstances would be impractical, highly problematic, and likely impossible. See
e.g., F.T.C. v. Sperry & Hutchinson Co., 405 U.S. 233, 240
(1972) (“It is impossible to frame definitions which embrace all unfair practices. There is no limit to human inventiveness in this field. Even if all known unfair practices
were specifically defined and prohibited, it would be at
once necessary to begin over again.”). Therefore, the absence of such precise language in HRS § 480-3.1 is neither
surprising nor indicative of any legislative intent to restrict the definition of a violation to specific verbiage applicable in all cases.
131. The Court’s interpretation of the calculation of
penalties under HRS § 480-3.1 is also consistent with federal case authority construing UDAP’s federal counterpart, the Federal Trade Commission Act, 15 U.S.C. §§ 4158 (“FTC Act”).
132. In determining what constitutes a UDAP violation, HRS § 480-2(b) provides that “courts and the office
of consumer protection shall give due consideration to the
rules, regulations, and decisions of the Federal Trade
Commission and the federal courts interpreting section
5(a)(1) of the Federal Trade Commission Act (15 U.S.C.
45(a)(1)), as from time to time amended.” Federal case law
calculating penalties under the FTC Act shows that the
definition of a violation is defined based on unfair or deceptive conduct in each case. United States v. Reader’s
Digest Ass ‘n, Inc. (Reader’s Digest), 662 F.2d 955, 965-66

118a
(3d Cir. 1981) (holding that “each letter included as part of
a mass mailing constitutes a separate violation”) (emphasis added); United States v. J. B. Williams Co., 498 F.2d
414, 435 (2d Cir. 1974) (holding that “each separate broadcast of [a] commercial was a separate violation” rather
than each day the commercial aired) (emphasis added);
United States v. Floersheim, No. CV 74-484-RF, 1980 WL
1852, at *9 (C.D. Cal. May 1, 1980) (holding that “[e]ach
individual form [containing the misrepresentations] constitutes a separate violation”) (emphasis added); accord
State ex rel. Wilson v. Ortho-McNeil-Janssen Pharmaceuticals, Inc., 414 S.C. 33, 84-85 (2015) (upholding that
“distribution of each sample box containing the deceptive
labeling, each [Dear Doctor Letter] , and each follow-up
sales call to the DDL by a Janssen representative constituted a separate . . . violation”) (emphasis added).
133. Further, under the FTC Act, the “each day” calculation is reserved for circumstances in which there is a
“continuing failure to comply with a rule or with [§
45(a)(1).]” 15 U.S.C. § 45(m)(1)(C). It is therefore appropriate to construe the “each day” provision in HRS § 4803.1 as a clarifying sentence that compounds the penalty on
a daily basis for a single violation that continues to have
an impact over a number of days, rather than as a limiting
factor on the calculation of civil penalties.
134. As such, the Court rejects Defendants’ reading
of § 480-3.1 as requiring the Court to calculate penalties
in terms of one violation per day. Instead, the Court will
analyze the facts and circumstances of this case and determine the appropriate definition and number of violations based on the evidence presented at trial.
B. Factors to Consider in Penalties Calculations

135. Courts exercising discretion in determining the
measure of penalties to be assessed under the FTC Act or
similar state consumer protections statutes utilize the

119a
factors articulated in United States v. Reader’s Digest
Ass’n (Reader’s Digest), 662 F.2d 955, 967 (3rd Cir. 1981):
(1) The good faith or bad faith of the Defendant;
(2) The injury to the public;
(3) The desire to eliminate the benefits derived by
a violation;
(4) The necessity of vindicating the authority of
the agency involved; and
(5) The Defendant’s ability to pay.
See State ex rel. Wilson v. Ortho-McNeil-Janssen Pharmaceuticals, Inc., 414 S.C. 33, 84-85, 777 S.E.2d 176, 203
(2015); U.S. v. Natl. Fin. Services, Inc., 98 F.3d 131, 140
(4th Cir. 1996); U.S. v. Gurley, 235 F. Supp. 2d 797, 806
(W.D. Tenn. 2002), aff 384 F.3d 316 (6th Cir. 2004); U.S.
Dept. of J. v. Daniel Chapter One, 89 F. Supp. 3d 132, 148
(D.D.C. 2015). Here, the Court considers each of these
factors in turn in determining the civil penalties to impose
on Defendants.
i.

Good or Bad Faith of Defendants

136. The Court finds that the Defendants acted in
bad faith during the relevant period of 1998 to March
2010. As discussed above, the law allowed Defendants to
unilaterally strengthen the warning section of the drug label as soon as there was reasonable evidence of a safety
issue with their drug. Nothing in those regulations required a showing of any sort of association of “clinical outcomes” before making such updates, as Defendants argued. Defendants had knowledge of the involvement of
CYP2C19 in the metabolism of Plavix, and the ability of
its polymorphisms to prevent activation of other prodrugs, as well as Plavix’s own issues with variability of response as early as 1998, before the drug was ever sold on
the market. Yet Defendants ignored these glaring warning signs and did nothing to warn patients or physicians,
nor did Defendants investigate the reasons for this

120a
resistance. Further, Defendants systematically, through
policies and guidelines, suppressed studies of Plavix resistance and avoided documenting variability of response
due to perceived threats to sales and potential negative
marketing implications.
137. Even after Key Opinion Leaders began discovering the issue of variability of response, Defendants continued their obfuscation campaign and refused to fund or
run the type of clinical studies that could have answered
the questions about variability of response that Key Opinion Leaders and other researchers continued to ask. Once
the medical community—without the aid of Defendants—
performed research showing the links between the 2C19
loss-of-function alleles and lack of platelet response, Defendants did not update their label or run a large-scale
trial investigating this genetic link. Instead, Defendants
buried their heads in the sand and continuously maintained that the 2C19 polymorphism was not linked to
“clinical outcomes” as a self-serving excuse to avoid addressing the problem.
138. From 1998 to March 2010, Defendants had the
ability and knowledge necessary to update the Plavix
drug label. Yet, they chose not to because it would affect
their bottom line. Defendants repeatedly chose to act in
their own financial best interest rather than fulfilling their
obligations with respect to patient safety. Therefore, the
Court finds Defendants’ bad faith to be considerable during the period of December 1998 to March 12, 2010.
ii. Injury to the Public

139. The Court finds the issues in this case to be of
critical importance to the public. Requiring drug manufacturers to fully disclose all material information available to them concerning the safety of their drugs in a fair
and non-deceptive manner is of paramount importance to
the health and safety of those using the drugs. This is especially true where, as here, the drug at issue is a

121a
potentially lifesaving course of therapy, and where a patient’s failure to fully bioactivate the drug leaves them
more vulnerable to heart attacks, strokes, and cardiovascular death. Doctors and patients can only make fully informed decisions regarding treatment when a complete,
honest, and fair disclosure of material information is made
by the drug manufacturer. As drug manufacturers are the
ones with the best and most complete information surrounding their drug, the public must be able to rely on
these companies to disclose important information, such
as lack of efficacy based on genetic factors. Injury to the
public obviously occurs when consumers are denied material information that is necessary for them to make informed decisions concerning their course of treatment
and when the risk of a recurrent heart attack or stroke is
not lowered as represented by the drug manufacturer. As
such, the public interest affected by Defendants’ actions
in this case is substantial.
iii. Desire to Eliminate the Benefits Derived
from a Violation

140. The benefits derived by Defendants’ material
omissions were substantial. After its launch in 1998,
Plavix became a “blockbuster drug” and prescribing
Plavix in addition to aspirin became the standard of care
for treatment of many cardiovascular related conditions.
We cannot turn back the clock to see what would have
happened had the label included adequate warnings from
the beginning. Nonetheless, it is clear from the revenue
generated by Defendants, discussed below, that Defendants were able to reap huge financial benefit from the success of Plavix, including from the consumers within the
State of Hawai`i, while using unfair and deceptive practices to do so. Moreover, the evidence at trial clearly established that Defendants themselves feared the loss of
Plavix sales and questions from health authorities should
the limitations of their drug be documented. The civil

122a
penalty calculations therefore must also account for the
need to eliminate the benefits derived by Defendants from
their use of unfair and deceptive business practices.
iv. Necessity of Vindicating the Authority of
the Agency Involved

141. The UDAP statute was enacted by the legislature to act as a consumer protection measure and under §
480-3.1 the State, through its Attorney General, was given
power to enforce those protective measures for the people
of Hawai`i. When corporations or other business entities
come into this State and conduct their business in an unfair and deceptive manner, it is incumbent upon the Attorney General as the chief law enforcement officer of the
State to act in protection of the public’s interest. Remedial
statutes, such as UDAP, are to be construed “to suppress
the perceived evil and advance the enacted remedy.”
Keka, supra, 94 Hawai`i at 229, 11 P.3d at 17.
142. The Court finds that the State has a particularly
strong interest in ensuring that drug companies operate
legally in Hawai`i and are not making false statements
about pharmaceutical drugs to the public, especially when
it comes to potentially life-saving drugs like Plavix. The
State’s interest is heightened where, as here, the omission
of warning information raises a serious risk of harm to all
consumers, but especially to high risk patients of East
Asian and Pacific Island descent, who represent a significant portion of Hawaii’s population.
143. As such, the penalties imposed in this case will
take into account the interests of the State in preventing
similar acts and practices in the future.
v. Defendants’ Ability to Pay

144. Here, it is important to consider what penalties
are necessary for Defendants to fully appreciate the
wrongfulness of their conduct and to deter them from taking similar actions in the future. To achieve that goal, the

123a
penalty must take into consideration the financial ability
of the wrongdoer to pay. As the primary purpose of statutes such as UDAP are to protect consumers and deter
future unfair or deceptive conduct by Defendants and others, the penalty must be of an amount that is appropriate
for each particular defendant involved. If a penalty is
more than a defendant can pay, then justice would not be
served. Similarly, if a penalty is so small that it can be
written off as a mere cost of doing business, then consumers would not be adequately protected. The legislature
has already determined what constitutes the fair range of
penalties per violation under § 480-3.1: between $500 and
$10,000. Therefore, the Court must determine an amount
within that range.
145. Defendants in this case are large multinational
corporations with very substantial resources. As shown
by Defendants’ financial filings with the SEC for years
1998 through 2012, Defendant BMS reported net sales of
Plavix totaling $50.3 billion. In the financial filings with
the SEC for years 2002 through 2012, Defendant Sanofi
reported net sales from Plavix totaling 22.1 billion.9
Therefore, Defendants have the ability to pay an award
appropriate to the egregiousness of their misconduct toward Hawai`i consumers.
C.

What Constitutes a Violation

146. As discussed above, the Court finds that Defendants’ unfair and deceptive conduct in this case was far
reaching and persistent. Based upon the evidence presented at trial and the above Findings of Fact, the Court
finds that a violation of UDAP occurred with the distribution of each copy of the Plavix label (package insert), by

These sales figures do not include numerous other drugs, from
which each Defendant has also generated billions of dollars in sales,
according to the SEC filings in evidence.
9

124a
way of retail prescriptions filled (including refills) and
non-retail units sold, in the State of Hawai`i.
147. Tallying the number of violations in terms of the
retail prescriptions filled and non-retail units sold is appropriate given the circumstances of the unfair and deceptive acts in this case. The warnings, risks, and benefits
listed in a drug’s label are a cornerstone to the patient’s
ability to make an informed decision regarding that drug.
The “Medication Guide” portion of Defendants’ own label
instructs patients to read the label before they “start taking Plavix and each time [they] get a refill.” The label also
notes that the information in the boxed warning is “the
most important information [you] should know about
Plavix[.]” This Medication Guide is required by law to be
included with the drug label in every unit (retail and nonretail) of Plavix. As such, the Court finds that each retail
prescription filled and refilled, and non-retail units sold in
the State of Hawai`i constitute a separate and distinct violation of UDAP.
148. The Court finds Defendants’ arguments about
reducing the number of violations unconvincing, as well as
unsupported by the law or evidence presented in this case.
D. Number of Violations and Penalty Amount

149. Given the evidence presented at trial, the above
Findings of Fact, and the above Conclusions of Law, this
Court finds that each retail prescription filled and refilled,
and each non-retail unit sold in the state of Hawai`i by
Defendants, between December 1998 and March 12, 2010
to be a separate UDAP violation. Defendants argued
briefly in closing arguments that the time period for calculations should be limited to the date of publication of either (1) the research paper published by Jessica Mega in
November 2008 (which Defendants contend first showed
the prevalence of CYP2C19 in Plavix metabolism), or (2)
the paper published by Jean Sebastian Hulot in 2006
(which was an independent research study showing the

125a
link between CYP2C19 poor metabolizers and poor responders). The Court is not persuaded by these arguments. As discussed above, the overwhelming weight of
the evidence is that Defendants’ unfair and deceptive
business practices extended back to the launch of Plavix
in December 1998. As such, the Court finds that the number of violations of UDAP resulting from the Defendants’
joint misconduct is 834,012, as calculated by the State’s
expert Dr. Nicole Maestas, which went unchallenged.
150. The Court further finds the appropriate penalty
to be $1,000 per violation, for a total of $834,012,000.00 in
civil penalties.
151. Under Hawai`i law, the Court acknowledges
that the penalties under HRS § 4803.1 may not be assessed jointly and severally against distinct legal entities
except where several entities are subject to a single control, such as in the corporate parent-subsidiary relationship. State by Doi v. Shasteen, 9 Haw. App. 106, 113, 826
P.2d 879, 883 (1992). While Sanofi and Bristol-Myers
Squibb acted jointly in their venture of selling Plavix between December 1998 and March 12, 2010, the Court finds
that they are legally separate entities. On the other hand,
the Court finds that defendants Sanofi-Aventis U.S. LLC,
Sanofi US Services, Inc., and Sanofi-Synetholabo LLC
are all entities under a single control and thus shall be
considered one legal entity for purposes of penalty assessment. Therefore, the Court will assess one set of penalties
against Bristol-Myers Squibb and one set of penalties
jointly and severally against the Sanofi defendants.
152. At no point has any party in this trial argued or
presented evidence that either Bristol Meyers Squibb or
Sanofi were more or less culpable than the other in engaging in the unfair and deceptive business practices at issue.
As such, the Court finds that Bristol-Myers Squibb and
the Sanofi defendants are both equally responsible for
each violation of UDAP in this case and, therefore,

126a
assesses civil penalties in the amount of $417,006,000
against Defendant Bristol-Myers Squibb Company and
civil penalties in the amount of $417,006,000 jointly and
severally against Defendants Sanofi-Aventis U.S. LLC,
Sanofi US Services Inc., and Sanofi-Synthelabo Inc.
153. The Court considers the foregoing award of civil
penalties to be an adequate remedy for Defendants’
wrongful conduct. Therefore, the Court finds it unnecessary to determine whether the circumstances of this case
might otherwise warrant either an award of punitive damages or the remedy of disgorgement.
154. If any of the Conclusions of Law set forth herein
shall be deemed instead to be Findings of Fact, they are
hereby incorporated by reference in the Findings of Fact
set forth herein above.
DECISION AND ORDER

IT IS HEREBY ORDERED, ADJUDGED AND
DECREED that judgment shall be entered in favor of
Plaintiff State of Hawai`i and against Defendants BristolMyers Squibb Company, Sanofi-Aventis U.S. LLC,
Sanofi US Services Inc., and Sanofi-Synthelabo Inc. in the
amount of $834,012,000.00, to be assessed against each of
the Defendants in the manner described above.
This document shall be filed in the State of Hawaii
Judiciary electronic portal and distributed to counsel for
the parties via email.
DATED: Honolulu, Hawai`i, February 15, 2021

.

/s/ Dean E. Ochiai [seal]
JUDGE OF THE ABOVEENTITLED COURT

